<html>
<title> - THE REAUTHORIZATION OF THE NATIONAL EARTHQUAKE HAZARDS REDUCTION PROGRAM: R&D FOR DISASTER RESILIENT COMMUNITIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                  THE REAUTHORIZATION OF THE NATIONAL
                 EARTHQUAKE HAZARDS REDUCTION PROGRAM:
                 R&D FOR DISASTER RESILIENT COMMUNITIES

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2009

                               __________

                           Serial No. 111-32

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______
                  U.S. GOVERNMENT PRINTING OFFICE
49-967                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

               Subcommittee on Technology and Innovation

                      HON. DAVID WU, Oregon, Chair
DONNA F. EDWARDS, Maryland           ADRIAN SMITH, Nebraska
BEN R. LUJAN, New Mexico             JUDY BIGGERT, Illinois
PAUL D. TONKO, New York              W. TODD AKIN, Missouri
DANIEL LIPINSKI, Illinois            PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona               
GARY C. PETERS, Michigan                 
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 MIKE QUEAR Subcommittee Staff Director
        MEGHAN HOUSEWRIGHT Democratic Professional Staff Member
            TRAVIS HITE Democratic Professional Staff Member
         HOLLY LOGUE PRUTZ Democratic Professional Staff Member
             DAN BYERS Republican Professional Staff Member
                  VICTORIA JOHNSTON Research Assistant


                            C O N T E N T S

                             June 11, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative David Wu, Chair, Subcommittee on 
  Technology and Innovation, Committee on Science and Technology, 
  U.S. House of Representatives..................................     9
    Written Statement............................................    10

Statement by Representative Adrian Smith, Ranking Minority 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science and Technology, U.S. House of Representatives..........    10
    Written Statement............................................    11

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Subcommittee on Technology and Innovation, Committee on Science 
  and Technology, U.S. House of Representatives..................    11

                               Witnesses:

Dr. John R. Hayes, Jr., Director, National Earthquake Hazards 
  Reduction Program (NEHRP), National Institute of Standards and 
  Technology (NIST), U.S. Department of Commerce
    Oral Statement...............................................    12
    Written Statement............................................    14
    Biography....................................................    22

Mr. Kenneth D. Murphy, Immediate Past President, National 
  Emergency Management Association (NEMA); Director, Oregon 
  Office of Emergency Management
    Oral Statement...............................................    23
    Written Statement............................................    24
    Biography....................................................    27

Professor Thomas D. O'Rourke, Thomas R. Briggs Professor of 
  Engineering, School of Civil and Environmental Engineering, 
  Cornell University
    Oral Statement...............................................    28
    Written Statement............................................    30
    Biography....................................................    37

Dr. Michael K. Lindell, Professor, Landscape Architecture and 
  Urban Planning; Senior Scholar, Hazard Reduction & Recovery 
  Center, Texas A&M University
    Oral Statement...............................................    37
    Written Statement............................................    39
    Biography....................................................    49

Dr. James Robert Harris, President, J.R. Harris & Company, 
  Structural Engineers
    Oral Statement...............................................    50
    Written Statement............................................    52
    Biography....................................................    56

Discussion.......................................................    58

              Appendix: Answers to Post-Hearing Questions

Dr. John R. Hayes, Jr., Director, National Earthquake Hazards 
  Reduction Program (NEHRP), National Institute of Standards and 
  Technology (NIST), U.S. Department of Commerce.................    76

Mr. Kenneth D. Murphy, Immediate Past President, National 
  Emergency Management Association (NEMA); Director, Oregon 
  Office of Emergency Management.................................    83

Professor Thomas D. O'Rourke, Thomas R. Briggs Professor of 
  Engineering, School of Civil and Environmental Engineering, 
  Cornell University.............................................    84

Dr. Michael K. Lindell, Professor, Landscape Architecture and 
  Urban Planning; Senior Scholar, Hazard Reduction & Recovery 
  Center, Texas A&M University...................................    87

Dr. James Robert Harris, President, J.R. Harris & Company, 
  Structural Engineers...........................................    90


   THE REAUTHORIZATION OF THE NATIONAL EARTHQUAKE HAZARDS REDUCTION 
            PROGRAM: R&D FOR DISASTER RESILIENT COMMUNITIES

                              ----------                              


                        THURSDAY, JUNE 11, 2009

                  House of Representatives,
         Subcommittee on Technology and Innovation,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:20 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. David Wu 
[Chair of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                  The Reauthorization of the National

                 Earthquake Hazards Reduction Program:

                     R&D for Resilient Communities

                        thursday, june 11, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

I. Purpose

    On Thursday 11 June, the Subcommittee on Technology and Innovation 
of the Committee on Science and Technology will hold a hearing to 
review the National Earthquake Hazards Reduction Program (NEHRP) in 
preparation for reauthorization. Funding currently expires at the end 
of fiscal year 2009.

II. Witnesses

Dr. John Hayes is the Director of the National Earthquake Hazards 
Reduction Program (NEHRP) at the National Institute of Standards and 
Technology (NIST).

Dr. Michael Lindell is the Director of the Hazards Reduction and 
Recovery Center, and a Professor of Landscape Architecture & Urban 
Planning at Texas A&M University.

Professor Thomas O'Rourke is the Thomas R. Briggs Professor of 
Engineering at the School of Civil & Environmental Engineering at 
Cornell University.

Dr. James Robert Harris, P.E., is the President of J.R. Harris & 
Company.

Mr. Kenneth Murphy is the Director of the Oregon Office of Emergency 
Management and the Immediate Past President of the National Emergency 
Management Association (NEMA).

III. Hearing Issues

        <bullet>  The last NEHRP reauthorization named NIST as the lead 
        agency. How well is NEHRP performing with NIST as the head 
        agency? Where are there opportunities to improve coordination 
        among the agencies? What are the priorities for NEHRP moving 
        forward?

        <bullet>  Understanding the human element of hazard mitigation 
        is crucial to the implementation of mitigation measures. What 
        is the role of social science in creating disaster resilient 
        communities? How has social science research and knowledge been 
        integrated into NEHRP activities? Where are there opportunities 
        for improvement?

        <bullet>  Hazard mitigation tools and products must meet the 
        needs of State and local officials who must prepare their 
        communities for disasters and help them respond. How well do 
        NEHRP activities meet State and local needs? How can these 
        needs be better aligned?

        <bullet>  The damage from an earthquake could be catastrophic. 
        However, other natural hazards, such as hurricanes and 
        wildfires, also pose significant dangers. The Federal 
        Government has focused comparatively less R&D on those hazards. 
        How should the Federal Government address R&D for other natural 
        hazards and what opportunities exist to coordinate hazards R&D 
        across the Federal Government?

IV. Background

Natural Hazard Exposure in the U.S.
    Americans' exposure to natural hazards is significant. If 
populations continue to grow in areas prone to earthquakes, severe 
weather, or wildfires, this exposure will only increase. Between 1990 
and 2001, the Federal Emergency Management Agency (FEMA) paid out over 
$39 billion in disaster relief. That amount is nearly five times 
greater than the $7 billion paid out between 1978 and 1989. Although 
more activities became eligible for funding during the later period, 
the number reflects the sharp increase in natural disaster losses 
experienced by Americans. And, as shown below, while the number of 
casualties from natural hazards in the U.S. is comparatively lower than 
in many other countries, the potential for loss of life and bodily 
injury is still very high.\1\
---------------------------------------------------------------------------
    \1\ Loss of live and damage estimates from natural hazards vary 
widely. The figures here are cited from a 2003 RAND study, Assessing 
Federal Research and Development for Hazard Loss Reduction.

        <bullet>  Earthquakes. Eighteen U.S. states are in highly 
        seismically active areas, though nearly all states have some 
        seismic risk. About 75 million Americans live in these 
        seismically active zones, many in growing urban areas. Though 
        infrequent, earthquakes are unique among natural hazards in 
        that they strike without warning. In addition, earthquakes in 
        the U.S. and worldwide illustrate that the effects can be 
        catastrophic. The 6.9 magnitude Kobe, Japan earthquake in 1995 
        killed more than 5,000 people and caused an estimated $200 
        billion in damages. The 1994 Northridge, California earthquake 
        (magnitude 6.7) resulted in over $40 billion in damage. The 
        fact that it took only 59 lives, in comparison to 5,000, is 
        widely attributed to building code advancements and other 
        mitigation measures. However, in a scenario run by the USGS as 
        part of the Great Southern California Shake Out, a 7.2 Southern 
        San Andreas Fault earthquake would result in an estimated 1,800 
        fatalities in the San Bernadino and a predicted $200 billion in 
        direct losses. Earthquakes are not a hazard confined to the 
        Western U.S. A report prepared by the Central U.S. Earthquake 
        Consortium showed that an earthquake on the New Madrid fault 
        could cause as many as 85,000 fatalities and injuries and over 
        $100 billion in direct economic losses in the States of 
---------------------------------------------------------------------------
        Tennessee and Missouri.

        <bullet>  Tsunamis. U.S. coastal regions are vulnerable to 
        tsunamis generated from submarine earthquakes. The world saw 
        the catastrophic impact of tsunamis in 2004 when an earthquake 
        off the coast of Sumatra, Indonesia unleashed a tsunami that 
        killed approximately 170,000 people and generated $186 million 
        in damages. A high magnitude earthquake in the Cascadia 
        subduction zone off the Pacific Northwest would be devastating 
        to the coastal communities.

        <bullet>  Severe Weather. High winds in hurricanes, tornadoes, 
        thunderstorms, and other weather phenomena cause significant 
        damage to buildings and infrastructure. Annually, such weather 
        is also responsible for an average of 124 American fatalities 
        and over 1,600 injuries each year.\2\ Total direct property 
        losses in the U.S. from 1996 to 2006 are over $160 billion (in 
        2006 dollars).\3\ Costs associated with wind-related natural 
        disasters have doubled or tripled each decade over the past 35 
        years.
---------------------------------------------------------------------------
    \2\ Average calculated from National Weather Service data from 1996 
to 2006, exclusive of the more than 1,000 hurricane deaths in 2005.
    \3\ http://www.nws.noaa.gov/om/hazstats.shtml

        <bullet>  Wildfires. Construction of homes and communities at 
        the edge of wildlands is a growing practice. In the Western 
        U.S. alone, almost 38 percent of new construction is in the 
        wildland-urban interface (WUI). The most recent figures are 
        unavailable, but from 1985 to 1994, WUI fires destroyed more 
        than 9,000 homes. The Oakland Hill fire in 1991 that took 3,000 
        structures caused $1.2 billion in property losses.\4\
---------------------------------------------------------------------------
    \4\ U.S. Fire Administration, Topical Fire Research Series, Vol. 2, 
Issue 16, March 2002.

The National Earthquake Hazards Reduction Program
    Congress created NEHRP in 1977 with passage of the Earthquake 
Hazards Reduction Act (P.L. 95-124). Created largely in response to the 
1964 Alaska Earthquake and the San Fernando Earthquake of 1971, the 
original program called on 10 federal agencies to coordinate activities 
to implement an earthquake prediction system, develop design and 
construction methods for earthquake resilience, identify seismic 
hazards and make model code and land-use recommendations, increase the 
understanding of earthquake risks, and educate the public about 
earthquakes. The 1980 reauthorization of the program designated FEMA as 
the lead agency.
    The 2004 reauthorization (P.L. 108-360) changed the lead agency 
from FEMA to NIST. This change reflected concern that FEMA, newly in 
the Department of Homeland Security (DHS), was no longer as focused on 
natural hazards mitigation. In addition, the legislation established an 
Interagency Coordinating Council (ICC) composed of the directors of 
NIST, FEMA, the National Science Foundation (NSF), the United States 
Geological Survey (USGS), the Office of Science and Technology Policy 
(OSTP), and the Office of Management and Budget (OMB). To ensure the 
coordination processes, the ICC is required to meet at least three 
times annually and to develop a strategic plan and coordinated 
interagency budget.
    The four designated NEHRP agencies support the development of 
earthquake hazard reduction measures, promote the adoption of these 
measures, and improve understanding of earthquake phenomena and their 
effects on structures, infrastructure, and communities, as explained 
below:

        <bullet>  NIST: In addition to serving as the lead agency, NIST 
        supports the development, evaluations, and testing of 
        earthquake resistant design and construction practices for 
        implementation in building codes and practices.

        <bullet>  FEMA: FEMA develops earthquake risk modeling tools 
        and supports the development of disaster-resistant building 
        codes and standards.

        <bullet>  NSF: NSF supports basic research and research 
        facilities in Earth sciences, engineering, and social sciences 
        relevant to understanding the causes and impacts of 
        earthquakes, and with a goal of developing practical tools to 
        reduce their effects. NSF supported earthquake engineering 
        facilities include the George E. Brown Network for Earthquake 
        Engineering Simulation (NEES).

        <bullet>  USGS: The USGS supports research to better understand 
        earthquake causes and effects, produces national and regional 
        seismic hazards maps, monitors and rapidly reports on 
        earthquakes and their shaking intensities in the U.S. and 
        abroad, and works to raise public earthquake hazard awareness. 
        The USGS maintains the Advanced National Seismic System (ANSS) 
        and the Global Seismic Network (GSN). Currently, ANSS is 
        approximately 15 percent deployed (820 out of 7,100 planned 
        stations). With money from the American Recovery and 
        Reinvestment Act, USGS plans to modernize 800 analogue 
        stations, brining the network up to 1,620 sensors.

    Over the past 30 years, NEHRP activities have been instrumental in 
developing and advancing earthquake knowledge, seismic building codes, 
and raising the awareness of officials and the general public about 
earthquake hazards. These contributions include:

        <bullet>  An improved understanding of earthquakes and their 
        effects, such as seismic wave propagation, through research and 
        seismic monitoring. Among other applications, this knowledge 
        has been used in the development of seismic hazard assessments, 
        building codes, and in tools for modeling the effects of an 
        earthquake disaster.

        <bullet>  Improved seismic building codes through research, 
        mapping, and seismic monitoring. The National Seismic Hazards 
        Maps and other research produced the NEHRP Recommended 
        Provisions for Seismic Regulations for New Buildings and Other 
        Structures, which is the basis for the seismic elements of 
        model building codes. NEHRP has also supported work to improve 
        the safety of existing structures, supporting work that lead to 
        the development of consensus-based standards to evaluate and 
        rehabilitating existing buildings for seismic safety.

        <bullet>  NEHRP has supported the development of partnerships 
        with State and local governments, professional groups, and 
        multi-State earthquake consortia to raise public awareness and 
        support mitigation efforts. These groups, like the Central U.S. 
        Earthquake Consortium, receive funds from NEHRP and State, 
        local, and private partners.

        <bullet>  USGS products provide real-time earthquake 
        notification, showing the magnitude and location of an 
        earthquake. These products include ShakeMaps and PAGER--Prompt 
        Assessment of Global Earthquakes for Response. These products 
        provide near real-time information on the location, 
        distribution, and severity of ground-shaking. Officials can use 
        this information in mounting a more effective emergency 
        response and recovery.

    Tables 1 and 2 below show the authorized and actual levels of 
funding for NEHRP over the last reauthorization period.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Network for Earthquake Engineering Simulation
    From 1999 to 2004, NSF invested $83 million to build earthquake 
engineering research facilities at 15 universities, linked by 
information technology (IT) infrastructure that integrates the 
facilities and makes them accessible from remote locations. In 
addition, the last reauthorization authorized an average of $20 million 
per fiscal year exclusively for operation and maintenance (nearly all 
of which was received). NEES offers considerable potential to advance 
earthquake engineering knowledge. However, as reported in a 2007 NSF 
Site Visit Report, NEES had weak leadership and insufficient direction 
and planning for its Education, Outreach, and Training activities. Most 
critical, the Site Visit Committee noted the failure of the NEES IT 
subcontractor to produce products that fit the needs of stakeholders.

Strategic Plan
    In the required Strategic Plan for 2009 to 2013, the NEHRP agencies 
laid out nine strategic priorities to accomplish the goals of 
understanding earthquakes and their impacts, developing cost-effective 
measures to reduce these impacts, and improve earthquake resiliency 
nationwide. These nine priorities are:

        <bullet>  Fully implement the ANSS

        <bullet>  Improve techniques for evaluating and rehabilitating 
        existing buildings

        <bullet>  Further develop performance-based seismic design

        <bullet>  Increase consideration of socioeconomic uses related 
        to hazard mitigation implementation

        <bullet>  Develop a national post-earthquake information 
        management system

        <bullet>  Develop advanced earthquake risk mitigation 
        technologies and practices

        <bullet>  Develop guidelines for earthquake-resilient lifeline 
        components and systems

        <bullet>  Develop and conduct earthquake scenarios for 
        effective earthquake risk reduction and response and recover 
        planning

        <bullet>  Facilitate improved earthquake mitigation at State 
        and local levels.

The National Windstorm Impact Reduction Program
    The last reauthorization of NEHRP also contained the National 
Windstorm Impact Reduction Program (NWIRP) in a separate title. The 
legislation directs the National Oceanic and Atmospheric Administration 
(NOAA), NIST, NSF, and FEMA to support activities to improve the 
understanding of windstorms and their impacts, and to develop and 
encourage the implementation of cost-effective mitigation measures to 
reduce these impacts. The statute charges an interagency working group 
(IWG)--chaired on a rotating basis by FEMA, NSF, NOAA, and NIST--to 
coordinate the R&D priorities, portfolio, and budget. The program was 
authorized through FY 2008 (Table 3).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The NWIRP implementation plan submitted in April 2006 assessed 
programs relevant to the goals of NWIRP across eight federal agencies 
and identified important areas of research that were not covered by 
current activities. The knowledge gaps covered the three broad 
categories of research authorized in the Act: understanding windstorms; 
assessing the impacts of windstorms; and mitigating the effects of 
windstorms. The implementation plan also recommends that an IWG within 
the National Science and Technology Council's (NSTC) Committee on 
Environment, Natural Resources Subcommittee on Disaster Reduction 
oversee the research portfolio outlined above, with representatives 
from NSF, NIST, NOAA, and FEMA, as well as the National Aeronautics and 
Space Agency (NASA), the Federal Highways Administration (FHWA), and 
the Army Corps of Engineers. The IWG would be responsible for 
facilitating communication between the agencies on the best means of 
allocating agency resources to meet NWIRP goals and for coordinating 
this federal research portfolio.
    The Subcommittee on Technology and Innovation held a hearing on 
NWIRP in July, 2008.\5\ The witnesses testified that the funding levels 
devoted by the agencies to wind hazard mitigation R&D were not adequate 
to meet the growing need (approximately $7.5 million since FY 2004) and 
that no coordinated program existed. It was also noted that in some 
cases there were research findings that had yet to be translated into 
practical applications due to a lack of funding. They identified a 
number of priorities for wind hazard R&D, including:
---------------------------------------------------------------------------
    \5\ http://science.house.gov/publications/
hearings<INF>-</INF>markups<INF>-</INF>details.aspx?NewsID=2271

        <bullet>  Developing a better understanding of wind phenomena 
        to better estimate maximum hurricane wind speeds, velocity 
        profiles, and turbulence characteristics needed for building 
---------------------------------------------------------------------------
        design

        <bullet>  Better understanding of wind-structure interactions

        <bullet>  Performance-based design for windstorm hazards

Fire R&D at NIST
    In the Federal Fire and Prevention Control Act of 1974 (P.L. 93-
498) as amended, NIST has authority for ``performance and supporting 
research on all aspects of fire with the aim of providing scientific 
and technical knowledge applicable to the prevention and control of 
fires.'' As NIST testified for the Technology and Innovation 
Subcommittee in October of 2007,\6\ structure fires kill over 3000 
people in the U.S. each year. They also cause approximately $10 billion 
in damages each year according to the National Fire Protection 
Association. Through its Buildings and Fire Research Lab (BFRL), NIST 
supports research to reduce fire hazards within residences and 
commercial buildings, and supports R&D to improve fire codes, 
standards, and provisions. In its FY 2009 request, NIST also included 
$4 million for a Disaster Resilient Structures and Communities 
Initiative, which included R&D to mitigate fire damage for structures 
in the WUI. NIST reports funding about $1 million each in FY 2008 and 
FY 2009 on WUI related research.
---------------------------------------------------------------------------
    \6\ http://science.house.gov/publications/
hearings<INF>-</INF>markups<INF>-</INF>details.aspx?NewsID=1961

Social Science
    Because natural hazards affect people and communities, social 
science is an integral part of understanding and mitigating society's 
risk. A 2006 National Research Council (NRC) report\7\ identified the 
contributions of NEHRP to this area, noting that social science related 
knowledge on exposure and vulnerability to hazards expanded greatly 
under NEHRP, enabling the development of loss estimation tools and 
related decision support tools. However, the report noted that efforts 
are needed to compare catastrophic events and to examine societal 
responses in relation to variables such as warning time, magnitude, 
scope, and duration of impact. More social science research is also 
needed on understanding longer-term disaster recovery. The report also 
highlighted the need for the management of social science data.
---------------------------------------------------------------------------
    \7\ Facing Hazards and Disasters: Understanding Human Dimensions, 
NRC 2006.
---------------------------------------------------------------------------
    Chair Wu. This hearing will come to order.
    I want to welcome everyone to--oh, my gosh, how rude of me. 
I am so focused on what is immediately in front of me, which is 
the hazard of this line of work. Please, the witnesses may be 
seated. Terrific. Welcome everyone.
    This is the third in a series of hearings the Subcommittee 
has held on programs that address threats to our communities, 
including wind, fire, and earthquakes.
    We will hear today that the National Earthquake Hazards 
Reduction Program, or NEHRP, has made many significant strides 
in enhancing earthquake safety and is a valuable program. 
However, the Subcommittee has also found that federal agencies 
currently have a stovepipe approach to hazards mitigation 
research activities. Separate and distinct programs exist for 
earthquake, tsunami, fire, and wind threats, despite areas of 
commonality such as prediction research, emergency preparedness 
needs, and the potential for mitigation via enhanced 
construction codes. Even more importantly, the key to 
successful mitigation of any and all potential hazards is a 
coordinated and effective public education program.
    The statistics tell the story. In the United States, wind 
and fire cause approximately $28 billion worth of damage and 
kill an average of 4,300 Americans each year.
    Earthquakes, while more episodic, can be devastating in 
their impact. The 1994 Northridge Earthquake took 59 lives and 
resulted in over $40 billion in damage. I think we can all 
agree that we can, and must, do a better job of hazards 
mitigation in order to protect our communities as much as 
possible from the devastation of natural disasters.
    One question we can raise is whether the current structure 
of federal hazards research is optimal and how we could improve 
it. The 2004 changes to NEHRP have been widely supported. NIST 
[National Institute of Standards and Technology], via the 
leadership of Dr. John Hayes, has received high marks for its 
coordination of the program. We must note that research for 
other hazards has yet to produce the similar advances. This lag 
may exist because wind, fire, and tsunami mitigation do not 
have the same federal R&D [research and development] structure 
that has produced our many advances on the seismic front.
    Today we will hear from experts on needs for the National 
Earthquake Hazards Reduction Program. I hope to also learn if a 
program structured like NEHRP might also improve wind, fire, 
and tsunami research programs.
    It is worth exploring whether a coordinated, comprehensive, 
and fully funded hazards mitigation program could be a more 
effective approach than the current stovepipe structure, where 
different hazards communities fight for their own funding 
priorities and lessons learned are less likely to be shared 
between those researching different threats.
    In the end, the goal of research on all hazards, 
earthquakes, wind, fire, and tsunamis is the same, to save 
lives, protect our communities and preserve property.
    I want to thank our witnesses for appearing before us 
today, and now I would like to turn to the gentleman from 
Nebraska, Mr. Smith, for his opening statement.
    [The prepared statement of Chair Wu follows:]

                  Prepared Statement of Chair David Wu

    I want to welcome everyone to today's hearing. This is the third in 
a series of hearings the Subcommittee has held on programs that address 
threats to our communities, including wind, fire, and earthquake 
disasters.
    I think we will hear today that the National Earthquake Hazards 
Reduction Program--or NEHRP--has made many significant strides in 
enhancing earthquake safety and is a valuable federal program. However, 
the Subcommittee has also found that federal agencies currently have a 
stovepipe approach to hazards mitigation research activities. Separate 
and distinct programs exist for earthquake, tsunami, fire, and wind 
threats, despite areas of commonality such as prediction research, 
emergency preparedness needs, and the potential for mitigation via 
enhanced construction codes. Even more importantly, the key to 
successful mitigation of any and all potential hazards is a coordinated 
and effective public education program.
    The statistics tell the story--in the United States, wind and fire 
cause approximately $28 billion worth of damages and kill an average of 
4,350 Americans each year. Earthquakes, while periodic, also can be 
devastating in their impact. For example, the 1994 Northridge 
Earthquake took 59 lives and resulted in over $40 billion in damages. I 
think we can all agree that we can and must do a better job of hazards 
mitigation in order to protect our communities as much as possible from 
the devastation these disasters can cause.
    One question we can raise is whether the current structure of 
federal hazards research is optimal and how we could improve it. The 
2004 changes to National Earthquake Hazard Reduction Program have been 
widely supported. NIST, via the leadership of Dr. John Hayes, has 
received high marks for its coordination of the program. As we discuss 
the successes in earthquake mitigation and priorities moving forward, 
we must note that research for other hazards has yet to produce the 
same advances. This lag may exist because wind, fire, and tsunami 
mitigation do not have the same federal R&D structure that has produced 
our many advances on the seismic front.
    Today we will hear from experts on needs for the National 
Earthquake Hazards Reduction Program. But, I hope to also learn if a 
program structured like NEHRP might also improve wind, fire, and 
tsunami research programs.
    It is worth exploring whether a coordinated, comprehensive, and 
fully funded hazards mitigation program could be a more effective 
approach than the current stovepipe structure, where different hazards 
communities fight for their own funding priorities and lessons learned 
are less likely to be shared between those researching various threats.
    In the end, the goal of research on all hazards--earthquakes, wind, 
fire, and tsunamis--is the same--to protect our communities and save 
lives.

    Mr. Smith. Thank you, Mr. Chair, and thank you for holding 
this hearing today to consider reauthorization of the National 
Earthquake Hazards Reduction Program, otherwise known as NEHRP.
    All natural hazards, be they floods, wildfires, tornadoes, 
hurricanes, earthquakes, and in my district close to home 
yesterday, hail present a common mitigation challenge in that 
while inevitable and potentially catastrophic events, they are 
infrequent and certainly unpredictable. These characteristics 
are particularly pronounced for damaging earthquakes which are 
rare and impossible to predict on any practical time scale. 
This infrequency has the tendency to drive stakeholders at all 
levels to become complacent and allow attention to earthquake 
hazards reduction efforts to fade in favor of more pressing and 
urgent matters. Nonetheless, we know the damage from a major 
U.S. earthquake could cost tens of billions of dollars or more 
and that scientists are forecasting a 99 percent chance that 
California will experience a major earthquake 6.7 magnitude or 
greater within the next 30 years. These figures serve as a 
stark reminder that we should remain committed to reducing our 
vulnerability to earthquakes as an ounce of mitigation could be 
worth a pound of cure in the form of reducing loss of life and 
property when the so-called big one hits.
    To this end I want to commend NIST and the participating 
NEHRP agencies for their efforts to strengthen the coordination 
and visibility of NEHRP in recent years. I thank Chair Wu for 
initiating this review process this year in order to keep the 
program authorized without interruption.
    Our witnesses today represent a diversity of backgrounds 
and expertise reflective of the breadth of the NEHRP program 
and hazard mitigation in general, and I look forward to hearing 
the recommendations on how to best further improve the program 
and leverage its resources most effectively. Thank you.
    [The prepared statement of Mr. Smith follows:]

           Prepared Statement of Representative Adrian Smith

    Mr. Chairman, thank you for holding this hearing today to consider 
reauthorization of the National Earthquake Hazards Reduction Program 
(NEHRP).
    All natural hazards--be they floods, wildfires, tornadoes, 
hurricanes, or earthquakes--present a common mitigation challenge in 
that, while inevitable and potentially catastrophic events, they are 
infrequent and relatively unpredictable. These characteristics are 
particularly pronounced for damaging earthquakes, which are rare, and 
impossible to predict on any practical time scale.
    This infrequency has a tendency to drive stakeholders at all levels 
to become complacent and allow attention to earthquake hazards 
reduction efforts fade in favor of more pressing and urgent matters. 
Nonetheless, we know that damage from a major U.S. earthquake could 
cost tens of billions of dollars or more, and that scientists are 
forecasting a 99 percent chance that California will experience a major 
earthquake (6.7 magnitude or greater) within the next 30 years.
    These figures serve as a stark reminder that we should remain 
committed to reducing our vulnerability to earthquakes, as an ounce of 
mitigation could be worth a pound of cure in the form of reducing loss 
of life and property when ``the big one'' hits.
    To this end, I want to commend NIST and the participating NEHRP 
agencies for their efforts to strengthen the coordination and 
visibility of NEHRP in recent years, and I thank Chairman Wu for 
initiating this review process this year in order to keep the program 
authorized without interruption.
    Our witnesses today represent a diversity of backgrounds and 
expertise reflective of the breadth of the NEHRP program and hazard 
mitigation in general, and I look forward to hearing their 
recommendations on how best to further improve the program and leverage 
its resources most effectively.
    Thank you, Mr. Chairman.

    Chair Wu. Thank you, Mr. Smith. If there are other Members 
who wish to submit opening statements, your statements will be 
added to the record at this point.
    [The prepared statement of Mr. Mitchell follows:]

         Prepared Statement of Representative Harry E. Mitchell

    Thank you, Mr. Chairman.
    Today we will review the National Earthquake Hazards Reduction 
Program (NEHRP) and examine the performance of this program under NIST.
    While earthquakes cause significant and catastrophic damage, other 
natural hazards, including wildfires, also pose serious dangers. 
However, these other natural hazards have received comparatively less 
R&D.
    Today we will also discuss the potential to increase R&D for other 
natural hazards, such as wildfires, as well as what opportunities may 
exist to coordinate hazards R&D on a federal level.
    In Arizona, fires on the wildland-urban interface pose a 
significant threat. As the construction of homes and communities at the 
edge of wildlands increases, we are also seeing an increase in 
wildfires that ignite close by homes and other community buildings.
    I look forward to hearing more from our witnesses on how we can 
improve our R&D efforts.
    I yield back.

    Chair Wu. Now it is my pleasure to introduce our witnesses. 
Dr. John Hayes is the Director of the National Earthquake 
Hazards Reduction Program, or NEHRP, at the National Institute 
of Standards and Technology, or NIST. Mr. Kenneth Murphy is the 
Immediate Past President of the National Emergency Management 
Association [NEMA] and the Director of the Oregon Office of 
Emergency Management. Professor Thomas O'Rourke is the Thomas 
R. Briggs Professor of Engineering at the School of Civil and 
Environmental Engineering at Cornell University. Dr. Michael 
Lindell is the Professor of Landscape Architecture and Urban 
Planning at Texas A&M University. And finally, Dr. James Robert 
Harris is the President of J.R. Harris & Company.
    Dr. Hayes, if you would please begin. Your written 
statement will be fully entered into the record and could you 
please try to summarize your written statement into a five-
minute oral statement. Dr. Hayes.

    STATEMENT OF DR. JOHN R. HAYES, JR., DIRECTOR, NATIONAL 
    EARTHQUAKE HAZARDS REDUCTION PROGRAM (NEHRP), NATIONAL 
 INSTITUTE OF STANDARDS AND TECHNOLOGY (NIST), U.S. DEPARTMENT 
                          OF COMMERCE

    Dr. Hayes. Thank you, Chair Wu, Ranking Member Smith, and 
Members of the Subcommittee. Thank you for inviting me to 
testify on the reauthorization of the National Earthquake 
Hazards Reduction Program, or NEHRP, as you have said.
    My testimony focuses on the four-agency NEHRP partnership: 
FEMA [Federal Emergency Management Agency], NIST, NSF [National 
Science Foundation], and USGS [United States Geological 
Survey]. This partnership works closely with the earthquake 
community including other federal agencies, State and local 
governments, professional organizations, model building code 
and standards organizations, and earthquake professionals in 
the private sector and academia.
    Seismologists strongly agree that damaging earthquakes in 
the U.S. are inevitable and unpredictable. This April's 6.3 
magnitude earthquake in Italy that cost 300 lives and the May 
2008 magnitude 7.9 earthquake in China that cost tens of 
thousands of lives are sobering reminders that unexpected 
tragedies can occur.
    The establishment of NEHRP was predicated on the belief 
that earthquakes are inevitable but earthquake disasters are 
not. As you know, the 2004 reauthorization of NEHRP directed 
several changes in the program's organization. NIST was given a 
new role as the NEHRP lead agency. To fulfill that role, NIST 
established the NEHRP Secretariat that supports the activities 
of the NEHRP Interagency Coordinating Committee and the 
Advisory Committee on Earthquakes Hazards Reduction which were 
also created by the last reauthorization. By involving the 
leaders of the program agencies and of OMB [Office of 
Management and Budget] and OSTP [Office of Science and 
Technology Policy], the Interagency Coordinating Committee has 
significantly improved program visibility, decision-making, and 
coordination. The Advisory Committee provides nationally 
renowned earthquake professional expertise to assist the 
Interagency Coordinating Committee members in establishing 
program direction.
    In 2008, the NEHRP agencies released a new strategic plan 
that sets a new program vision: ``A nation that is earthquake 
resilient in public safety, economic strength, and national 
security.'' The plan sets three broad program goals, adds 
strategic priorities for the future, and describes a number of 
guiding philosophical principles. One key principle is that 
NEHRP will identify valuable areas of synergy with activities 
associated with other hazards.
    Recent NEHRP annual reports provide substantial information 
regarding agency activities, and I shall cover a few 
highlights.
    The USGS is the applied Earth science component of NEHRP 
and has made great strides in its delivery of comprehensive 
earthquake information from monitoring systems both in the 
United States and worldwide. In the United States, monitoring 
relies upon the Advanced National Seismic System. The National 
Earthquake Information Center assimilates monitoring the data 
on a 24/7 basis and issues rapid reports of earthquakes and 
their impacts.
    In 2008, USGS released new national seismic hazard maps 
that incorporate the most recent field observation and research 
results and are being used to develop design maps for national 
model building codes.
    NSF is the basic research arm for NEHRP supporting research 
that addresses Earth science, geotechnical and structural 
engineering, lifeline engineering, and the social sciences.
    NSF has established the George E. Brown Jr., Network for 
Earthquake Engineering Simulation, or NEES, providing world-
class experimental facilities at 15 U.S. academic institutions 
with the accompanying cyber infrastructure. NEES provides a 
platform for collaborative earthquake engineering research, 
education, and outreach.
    NIST links NSF basic research with FEMA's implementation 
activities. NIST is rebuilding its earthquake engineering 
research capabilities to bridge the research-to-implementation 
gap.
    The NIST program supports earthquake engineering practice 
and building code development, develops the technical basis for 
performance-based seismic design, and makes technologies 
available to the design and construction communities.
    FEMA is NEHRP's primary implementation arm and works with 
the practitioner community, the American Society of Civil 
Engineers, and the International Code Council to support model 
building code development. These codes have been adopted in 
whole or in part in all 50 states. FEMA is developing the next 
generation of the NEHRP recommended provisions for future use 
in model building codes. In this work, FEMA works closely with 
the Survey to incorporate new hazard mapping into recommended 
building code provisions. FEMA also provides technical and 
financial assistance to the states and to multi-State consortia 
to increase earthquake awareness and support training for State 
and local officials.
    In summary, there is still much to be learned about 
earthquakes and their impacts. This is true both in the 
scientific fields and in the engineering disciplines. What we 
know highlights the continuing need for greater preparedness 
and mitigation if the NEHRP vision for the Nation is to be 
realized.
    The four NEHRP agencies have a strong partnership, both 
among themselves and with the Nation's earthquake professional 
community. We intend to strengthen these partnerships while 
looking toward the future.
    This concludes my remarks, sir, and I am happy to answer 
any questions you may have.
    [The prepared statement of Dr. Hayes follows:]

                Prepared Statement of John R. Hayes, Jr.

Introduction

    Chairman Wu, Ranking Member Smith and Members of the Subcommittee, 
thank you for inviting me to testify on the reauthorization of the 
National Earthquake Hazards Reduction Program (NEHRP). My testimony 
focuses not only on the National Institute of Standards and Technology 
(NIST) but also on the four-agency NEHRP partnership. NEHRP's partner 
agencies are NIST, the Federal Emergency Management Agency (FEMA), the 
National Science Foundation (NSF), and the U.S. Geological Survey 
(USGS). It is also very important to note that the NEHRP partnership 
extends far beyond the four statutory federal agencies to include other 
federal agencies, State and local governments, professional 
organizations, model building code and standards organizations, and 
earthquake professionals in the private sector and academia. Without 
this extended network of organizations and individuals, NEHRP would not 
fulfill its statutory responsibilities effectively.
    In the five years since the last NEHRP reauthorization hearings 
were conducted, the U.S. has experienced a relatively quiet period of 
seismic activity. However, seismologists agree that large, damaging 
earthquakes in the U.S. are inevitable and unpredictable. Globally it 
has been anything but quiet, from the December 2004 magnitude-9 
earthquake and ensuing tsunami that devastated the Indian Ocean region 
to the May 2008 magnitude-7.9 earthquake in the Sichuan province of 
China, in which tens of thousands of people lost their lives. Both 
events followed decades or even centuries of quiescence on the faults 
where they struck and are sadly sobering reminders of the unexpected 
tragedies that can occur.
    The USGS has recently issued updated assessments of earthquake 
hazards in the U.S. that provide appropriate perspectives for us. In 
2008, the USGS, the Southern California Earthquake Center (SCEC), and 
the California Geological Survey (CGS), with the support from the 
California Earthquake Authority (CEA) jointly produced a forecast of a 
99+ percent certainty of California's experiencing a magnitude-6.7 or 
greater earthquake within the next 30 years. It is noteworthy that the 
recent L'Aquila earthquake in central Italy, in which over 300 people 
perished, had a magnitude of 6.3, slightly less than that which is 
postulated for California.
    While concern for future earthquake activity is always great in 
California and elsewhere along the West Coast, earthquakes with 
magnitudes ranging from 5 to 6 struck Nevada and along the Illinois-
Indiana border in 2008, the latter generating reports of shaking in 
sixteen states and into Canada.
    As you know, NEHRP was established by Congress in 1977, to ``reduce 
the risks of life and property from future earthquakes in the United 
States.'' The Program is predicated on the belief that earthquakes are 
inevitable and will occur without warning, but that there is much the 
Nation can do to minimize their consequences. The NEHRP agencies strive 
to perform the needed research and then translate the research results 
into actions that accomplish that goal. During the past five years, the 
NEHRP agencies have worked diligently to ensure that United States 
(U.S.) citizens are less threatened by devastating earthquakes.

NEHRP Organization

    The last reauthorization of NEHRP (P.L. 108-360) directed that a 
number of changes in program organization, leadership, and reporting be 
made: establishing NIST as the Program Lead Agency, directing the 
creation of the NEHRP Interagency Coordinating Committee (ICC) and the 
external Advisory Committee on Earthquake Hazard Reduction (ACEHR), and 
requiring a new Strategic Plan and annual Program reports.

Interagency Coordinating Committee
    Prominent among these changes has been the creation of the NEHRP 
ICC, which is composed of the Directors/Administrators of the four 
Program agencies and the Directors of the Office of Management and 
Budget (OMB) and the Office of Science and Technology Policy (OSTP). 
The ICC is chaired by the NIST Director. The ICC has met on eight 
occasions and has conducted informal exchanges of information on other 
occasions--the ICC has been very actively engaged in Program 
leadership. The creation of the ICC has resulted in a significant 
increase in program visibility in each agency and in the Executive 
Office of the President, and it has elevated key interagency decisions 
to be discussed and agreed to at the agency leader level. While many 
program decisions can be made at the working level, the direct 
involvement of the agency leaders has greatly improved program 
coordination and efficiency.
    For example, as a part of the process of preparing a new Strategic 
Plan for the program, the ICC asked the non-statutory working level 
Program Coordination Working Group (PCWG) to assess the then-existing 
Strategic Plan and ongoing program activities, so that ``gaps'' could 
be identified for inclusion in the new plan.
    The ICC has also actively overseen the development of NEHRP's 
annual reports and, most importantly, the development of the new 
Strategic Plan for the program that was released in October 2008. For 
each of these documents, the PCWG has briefed the ICC formally at one 
or more of its meetings. The ICC members viewed the significance of the 
Strategic Plan to be so great that it remained fully engaged with its 
development throughout the period of intense activity that went into 
its preparation.

Advisory Committee on Earthquake Hazards Reduction
    Paralleling the formation of the ICC was the requirement for the 
establishment of the Program advisory committee. The ACEHR was formed 
initially in 2007 and consists of 16 leading earthquake professionals 
from across the U.S., from all walks of the non-federal sector. The 
ACEHR has 15 appointed members and one ex officio member, the 
Chairperson of the USGS Scientific Earthquake Studies Advisory 
Committee (SESAC), an advisory body established by the 2000 Fire 
Administration and Earthquake Hazards Reduction Authorizations (P.L. 
106-503). While the ACEHR by statute provides its advice to the NIST 
Director, the committee is truly engaged across NEHRP, from fundamental 
seismological issues to building code implementation. In addition, 
social scientists on the committee ensure that economic issues and 
human factors are being considered by the NEHRP agencies. The ACEHR 
submitted its first formal report to the ICC in 2008 and followed that 
report with a May 2009 letter report. The ICC is committed to 
thoughtful consideration of these reports.

Lead Agency
    Accompanying the statutory requirements for creating the ICC and 
ACEHR, the 2004 reauthorization designated NIST as the NEHRP Lead 
Agency. To address this requirement, NIST established a formal NEHRP 
Secretariat office in early 2006. The Secretariat is responsible for 
supporting the activities of both the ICC and ACEHR. In addition, the 
Secretariat coordinates the working-level activities of the agencies 
and produces required reports in conjunction with the staff-level 
Program Coordination Working Group (PCWG), which includes 
representatives of the four program agencies. At this level, NEHRP also 
links its activities to those of the broader National Science and 
Technology Council Subcommittee on Disaster Reduction. While NIST 
``leads'' NEHRP activities through the Secretariat, it is only with the 
outstanding teamwork of all the agencies working together that NEHRP 
accomplishments occur. There is a genuine camaraderie, sense of common 
purpose, and dedication to improving earthquake safety among the agency 
representatives.

NEHRP Strategic Plan

    A major recent accomplishment of the program is its new Strategic 
Plan that was released in late 2008 (http://www.nehrp.gov/pdf/
strategic<INF>-</INF>plan<INF>-</INF>2008.pdf). The new plan was 
developed during two years of intense, thoughtful work by the PCWG. The 
ICC and ACEHR provided review and input. The NEHRP agencies initiated 
the plan development in 2006 by soliciting public comments on the 
previous plan that had been released in 2003 and again, at the end of 
the plan development period, solicited public comments on the pre-final 
draft before publishing its final version.

Vision
    The Strategic Plan sets a NEHRP vision:

         A nation that is earthquake-resilient in public safety, 
        economic strength, and national security.

    The NEHRP agencies see this vision as one that sets a fresh course 
for NEHRP. This course recognizes the importance of not only improving 
public safety in future earthquakes but also enhancing our economic 
strength and national security through greater resilience. For example, 
if a future southern California earthquake severely damaged the ports 
of Los Angeles and Long Beach, as happened to the ports of Kobe, Japan, 
in 1995, there would be national economic implications. Similarly, if a 
future New Madrid-type earthquake in the Central U.S. severely damaged 
one or more major Mississippi River crossings in the Saint Louis to 
Memphis region, transcontinental highway and rail transportation, as 
well as oil and natural gas transmission could be severely disrupted. 
Working with its partners in both the federal and non-federal sectors, 
NEHRP can and should provide tools to assist the government and 
corporate entities who must address those challenges.
    The new vision not only sets this broad focus beyond safety alone 
but also recognizes the national need for improving our resilience in 
the face of future damaging earthquakes. While many detailed 
definitions of resilience exist, the NEHRP agencies can simply view it 
as the Nation's capability to maintain its functions or recover from 
future earthquakes. While NEHRP's best intentions are to provide State 
and local governments, and the private sector, with the tools they need 
to improve the survivability of their infrastructure and real property 
in future earthquakes, future earthquakes will still inflict serious 
damage. Even though response and recovery activities are not the direct 
statutory focus of NEHRP, NEHRP does play a role in providing the means 
for improving response and recovery capacity. For example, led by FEMA 
and USGS, the NEHRP agencies are engaging in scenario demonstration 
projects, such as the 2008 Great Southern California Shakeout activity. 
These projects serve to catalyze both pre-earthquake mitigation 
measures and post-earthquake response and recovery activities to State 
and local leaders.

Plan Structure
    The strategic plan sets three overarching program goals, each with 
four or more key objectives--improve understanding of earthquake 
processes and impacts; develop cost-effective measures to reduce 
earthquake impacts on individuals, the built environment, and society-
at-large; and improve the earthquake resilience of communities 
nationwide. The goals are not agency-specific. Indeed all three goals 
involve synergies among the agencies. In addition to the goals and 
objectives, the plan sets out nine areas of strategic priority for the 
program, areas of great importance to the Nation that will be 
emphasized as resources become available to address them.
    The NEHRP strategic plan also outlines a number of significant 
guiding principles. These principles are not so much specific 
objectives as they are philosophies that the NEHRP agencies agree must 
be employed as NEHRP advances to achieve the new vision. Three of those 
principles are highlighted briefly here. First, the NEHRP agencies will 
continue and enhance their cooperation with the earthquake professional 
community, those professionals in all walks of life who deal with 
earthquake-related issues. NEHRP has enjoyed the benefits of a long 
partnership with this community, and attention to this relationship is 
critical. Second, the NEHRP agencies will seek, within their designated 
mission areas, closer ties to the international community. Not only can 
the NEHRP-developed technologies be applied to help others, but also 
the U.S. can also learn from advances that are being made abroad. 
Finally, the NEHRP agencies will seek to foster synergies among 
disciplines as well as with those who work with other hazards, such as 
wind, flood, and fire. Current examples of such synergistic work 
include:

        <bullet>  NSF has pioneered numerous inter and multi-
        disciplinary activities in its NEHRP-related programs.

        <bullet>  FEMA has extended its earthquake loss estimation 
        program, Hazards U.S. (HAZUS), to include flood and other 
        hazards.

        <bullet>  The USGS has launched multi-hazard demonstration 
        projects in southern California and the Pacific Northwest.

    In looking at interactions with leaders in multi-hazard areas, the 
NEHRP agencies are aware of both the similarities, significant 
differences and linkages that exist among the hazards. Most of the 
technical issues that are closely tied to monitoring hazard occurrence, 
assessing the resulting risks, and developing tools, standards, and 
guidelines for design and construction differ substantially from hazard 
to hazard, making direct interactions at that level difficult. However, 
there are opportunities for the coordination of some NEHRP activities 
with those that are ongoing for other hazards. There are similarities 
in disaster response that can and should be shared with those who work 
in the other hazard areas (FEMA), and there are similarities in 
structural response mechanisms that occur in earthquakes and in blast 
or impact situations (FEMA, NIST, NSF). Some key linkages provide some 
excellent opportunities for multi-hazard cooperation, e.g., tsunami 
warnings for such events that are caused by earthquakes (USGS-provided 
data used by the National Weather Service) and structural fire effects 
from any source (NIST). The NEHRP agencies are also aware of the 30+ 
year history of organized NEHRP interaction with the earthquake 
professional community and State and local governments; this provides 
much organizational experience that can be shared with those working in 
other hazards-related fields.

Recent NEHRP Accomplishments-Fostering Technology and Knowledge 
                    Transfer

    The NEHRP agencies have worked both individually and collectively 
in recent years on initiatives that are intended to improve the 
Nation's earthquake resilience. Recent NEHRP annual reports provide 
substantial information regarding program activities. Examples are 
highlighted below.

Workshops
    In 2007 and 2008, the four partner agencies worked with the 
national earthquake safety community, through a series of workshops, to 
identify future research and implementation needs that support the new 
strategic plan. The first such workshop addressed research and 
implementation issues associated with evaluating and strengthening 
existing buildings. Three subsequent workshops addressed research needs 
to support the full implementation of Performance-Based Seismic Design, 
which was mentioned prominently in the last reauthorization; the basic 
scope of a national Post-Earthquake Information Management System that 
would support both organized post-earthquake reconnaissance activities 
and the development of a national electronic repository of information 
gathered through such activities; and, guidance for communities of all 
sizes on how to formulate and conduct earthquake scenarios that meet 
community objectives. These workshop activities have effectively 
fostered communication and cooperation among the agencies and between 
them and the earthquake practitioner community. The agencies are 
strongly committed to other such workshops in the future.
    The NEHRP agencies form a team, with each member agency having key 
roles in the successful development and transfer of new knowledge into 
practice. Below are examples of successful implementation of knowledge 
transfer from one NEHRP agency to others:

USGS

    The USGS is the applied Earth science component of NEHRP. USGS 
efforts are complemented by basic research projects that are supported 
by NSF. USGS reports on earthquake size, location, and impacts; 
develops seismic hazard assessment maps and related mapping products; 
builds public awareness of earthquake hazards; and supports targeted 
research to improve monitoring and assessment capabilities. USGS 
carries out these responsibilities through partnerships with the other 
NEHRP agencies, State and local governments, and university 
researchers.
    The USGS supports targeted research activities, working in concert 
with NSF. As an example of its current research efforts, Light 
Detection and Ranging (LIDAR) topographic imaging is being used to map 
fault scarps that are hidden by vegetation and were previously unknown. 
This activity has revolutionized our understanding of earthquake 
hazards in the Pacific Northwest.

Monitoring
    Since the last reauthorization of NEHRP, the USGS has made great 
strides in its delivery of comprehensive earthquake information from 
monitoring systems, both in the U.S. and worldwide. In the U.S., 
monitoring is accomplished via the developing Advanced National Seismic 
System (ANSS), which has added enough modern seismic instruments to 
rapidly deliver instrument-based shaking intensity information in five 
high-risk metropolitan areas out of 26 planned and is now deployed at a 
total of 822 stations. The ANSS is a partnership between the USGS and 
its State and university partners. Internationally, USGS works in 
partnership with NSF and the Incorporated Research Institutions for 
Seismology (IRIS) to utilize the Global Seismographic Network for 
earthquake monitoring. Complementing the field monitoring capability is 
the USGS National Earthquake Information Center (NEIC), which 
assimilates all monitoring data on a 24/7 basis and issues rapid 
reports of potentially damaging earthquakes to key federal, State, and 
local institutions, as well as to an electronic mailing list of over 
100,000 users. Since the last reauthorization, USGS has implemented 
full on-site 24/7 operations at NEIC and developed products such as the 
Prompt Assessment of Global Earthquakes for Response (PAGER) system 
that provides rapid estimates of the population exposed to strong 
shaking and delivers that to aid agencies, emergency managers, and 
others who use it to prioritize response activities.

Mapping
    In 2008, USGS released new national seismic hazard maps that 
incorporate the most recent field observations and research results. 
These maps show that earthquakes are serious threats in 46 states. The 
maps are being used now to develop design maps for national model 
building codes. FEMA and USGS closely collaborate on these activities, 
ensuring that the most recent and technically sound hazard information 
is considered by the American Society of Civil Engineers (ASCE) and the 
International Code Council (ICC). The new maps differ from older maps 
primarily in their incorporation of recent research results in areas 
near significant known faults. The new research has resulted in ground-
motion models that increased expected shaking in western Washington and 
Oregon, near the Cascadia subduction zone, but decrease expected 
shaking in the Central and Eastern U.S. somewhat. In many areas of the 
western U.S., the new models lower expected shaking levels for taller, 
``long-period'' buildings. The USGS is also developing more detailed 
urban hazard maps for various areas; such maps have been released 
recently for Memphis and Seattle and are currently underway for St. 
Louis and Evansville, Indiana.

Scenario Exercises
    Also in 2008, the USGS, CGS, and SCEC produced a plausible scenario 
of a rupture of the southern end of the San Andreas fault that could 
result in about 1,800 deaths, 50,000 injuries, and economic losses 
exceeding $200 billion in the greater Los Angeles area. This scenario 
formed the basis for the Great Southern California Shakeout earthquake 
preparedness and response exercise in late 2008. The Shakeout was 
supported by FEMA, NSF, USGS, and numerous State and local 
organizations. Over five million Southern California residents 
participated in the Shakeout, making it the largest public preparedness 
event ever held in the U.S. Plans are underway for a statewide version 
in 2009.

NSF

    NSF provides the basic research arm for NEHRP, supporting research 
that addresses Earth science, geotechnical and structural engineering, 
lifeline engineering, the social sciences, and integrating all these 
disciplines.
    NSF supports fundamental research related to earthquake processes: 
seismology, geodesy, rock mechanics, paleoseismology (geologic studies 
of prehistoric earthquakes), structural geology, and relevant 
theoretical, modeling, and laboratory projects. Recent outcomes from 
these programs range from explanatory mechanisms for episodic tremor 
and slip observed along plate boundaries around the world to insight 
into the slip differential across the southern San Andreas Fault using 
interferometric synthetic aperture radar imagery, global positioning 
systems, and seismic measurements. This work has substantially improved 
the description and understanding of the strain building up along major 
plate boundary faults such as the southern San Andreas Fault and the 
San Jacinto Fault.
    The Southern California Earthquake Center (SCEC) is a five-year 
program funded by NSF and USGS. SCEC's main goal is to produce a 
physics-based understanding of Southern California earthquake phenomena 
through integrative study of tectonics, active fault systems, fault 
zone processes, fault rupture and ground motions. SCEC scientific 
accomplishments have been incorporated into practical products, such as 
the USGS National Seismic Hazard Maps, as well as new seismic 
attenuation relations developed by the Next Generation Attenuation 
(NGA) Project at the Pacific Earthquake Engineering Research (PEER) 
Center. NSF supports SCEC to advance seismic hazard research using 
high-performance computing, with the aim of utilizing petascale 
computing facilities when they become available in the 2010-2011 
timeframe. SCEC's Petascale Cyberfacility for Physics-based Seismic 
Hazards Analysis (PetaSHA) project has goals to reach earthquake 
simulations at frequencies up to 10Hz, including development of a 
dynamic rupture platform (DynaShake) that can generate kinematic source 
descriptions that emulate dynamic descriptions. DynaShake will be used 
to develop kinematic rupture models for several observed earthquakes 
(for validation), as well as several large San Andreas Fault ruptures 
and a large reverse faulting earthquake.

NEES

    Noteworthy among NSF activities since the last NEHRP 
reauthorization has been the completion of construction and initial 
operations of the George E. Brown, Jr. Network for Earthquake 
Engineering Simulation (NEES). NSF completed the $82 million Major 
Research Equipment and Facilities Construction for NEES in September 
2004, developing world-class experimental facilities at 15 academic 
institutions across the U.S. and accompanying cyberinfrastructure. The 
testing facilities include seismic shake tables, geotechnical 
centrifuges, a tsunami wave basin, large strong-floor and reaction-wall 
facilities with unique testing equipment, and mobile and permanently 
installed field equipment. The network's cyberinfrastructure technology 
links the facilities via the Internet2 grid, forming the world's first 
prototype of a distributed ``virtual instrument.'' The 
cyberinfrastructure also provides a national repository for 
experimental data, as well as numerical simulation and collaborative 
tools.
    NEES plays a major role in NEHRP. The NEES multi-user facility 
concept serves a unique role among NEHRP agency investments for basic 
earthquake engineering research, providing diverse experimental 
capabilities, substantial user support, emphasis on education and 
outreach, and a university environment characterized by openness for 
academic, industry, and government use. NSF works with the other NEHRP 
agencies to periodically update the NEES earthquake research agenda. 
NEES has promoted change in the research culture for the earthquake 
engineering community through open access to unprecedented experimental 
capabilities, collaboration with experimental facility staff to develop 
formal testing protocols, archival of all experimental data in a 
community data repository for reuse by other investigators, and a new 
generation of students trained in advanced experimentation techniques 
and analytical modeling.
    NSF supports research utilizing NEES through annual program 
solicitations. Many of these NSF-supported projects include 
practitioner and industry partners to help design experimental and 
analytical investigations and to speed technology transfer. NEHRP 
agency partners and other federal agencies support projects to transfer 
NEES research findings into technical briefs for practitioners, 
performance-based seismic design (PBSD) guidelines, and seismic 
provisions. For example, NIST plans to utilize NEES research facilities 
in any future earthquake-related testing that it conducts.
    Research using NEES is creating the underpinning knowledge for PBSD 
guidelines; expanding the knowledge base for incorporating high-
performance materials and advanced technologies in buildings, bridges, 
and critical utility systems; and developing new concepts for 
structural systems. NEES research also provides knowledge to mitigate 
the effects of ground failure caused during earthquakes by 
liquefaction, lateral spread, landslide, and soil failure at 
foundations. NEES experimental data are leading to more comprehensive 
analytical models for structures subject to near-collapse seismic 
loading. Research at the tsunami wave basin has produced the largest 
experimental data set to date for three dimensional granular landslide-
generated tsunamis.
    NSF's Memorandum Concerning Cooperation in the Area of Disaster 
Prevention Research with the Japanese Ministry of Education, Culture, 
Sports, Science, and Technology enables U.S. researchers to use both 
NEES and Japan's Earth Defense (E-Defense) shake table, the world's 
largest shake table, to simulate seismic performance on large- to full-
scale models with geotechnical and structural innovations. The first 
NSF-supported NEES research project to use E-Defense, a project on 
multi-story wood frame behavior, is commencing at E-Defense in summer 
2009.
    As of September 2007, the three NSF-supported research centers--the 
Multidisciplinary Center for Earthquake Engineering Research (MCEER) 
led by the University at Buffalo, the Mid-America Earthquake (MAE) 
Center led by the University of Illinois at Urbana-Champaign, and the 
PEER Center led by the University of California, Berkeley--completed 10 
years of NSF support. The centers are continuing through various 
combinations of university, State, and private sector support, and with 
other federal funding. Through NSF support, these centers have made 
major contributions to the development of performance-based seismic 
design; improved fundamental understanding of seismic performance of 
structures ranging from buildings, bridges, and acute care facilities 
to critical utility lifelines; and developed advanced technologies to 
improve earthquake mitigation and response.
    NSF has continued to provide support, along with other federal 
agencies, for the Natural Hazards Center at the University of Colorado, 
Boulder. The Center's annual workshop each July brings together leading 
U.S. natural hazards researchers, policy-makers, and practitioners. 
This is the major national forum for linking the producers of research 
with appropriate user communities.

NIST

    In 2006 and 2007, NIST devoted significant attention to the task of 
establishing the NEHRP Secretariat and initiating the various 
organizational functions that have already been discussed. A critical 
part of the NIST effort has been the establishment of the NEHRP web 
site (www.nehrp.gov) that contains much information about the Program, 
links to all of the NEHRP agency sites, and links to other 
organizations that are involved with earthquake-related research and 
implementation issues. Efforts are now underway to incorporate an 
electronic clearinghouse of documents produced by NEHRP activities 
within the web site. NIST also recently initiated a NEHRP-wide study by 
the National Research Council (NRC) that will provide a broad roadmap 
for the NEHRP agencies to consider as they implement the new Strategic 
Plan. The NRC study assembles a broad panel of national experts in all 
aspects of earthquake risk reduction to help identify and prioritize 
possible activities that could be considered to achieve the objectives 
set out in the NEHRP Strategic Plan.
    NIST's technical role in the Program may be summarized as one of 
linking the basic research products that come from NSF-supported 
university research with the implementation activities that are largely 
led by FEMA. Commencing in 2007, in a strong commitment to the Program, 
NIST began to rebuild its capabilities in the earthquake research 
arena, which had been largely dormant for a number of years, to bridge 
the research-to-implementation gap. This rebuilding effort has been 
enlarged for 2009. NIST has formed its research program around several 
key theme areas: providing technical support for the earthquake 
engineering practice and building code development process; developing 
the technical basis for performance-based seismic design (PBSD); 
supporting the development of technical resources that improve 
earthquake engineering practice; and, making evaluated technologies 
available to practitioners in the design and construction communities. 
These activities are consistent with the NIST mission of serving the 
measurement and standards needs of the building and fire safety 
industries. NIST is a critical source of metrics, models, and knowledge 
for predicting the extent of damage from natural and man-made hazards, 
mitigating their impact, and helping to enhance the disaster resilience 
of communities and the built environment.
    In 2007, NIST established a partnership with the NEHRP Consultants 
Joint Venture, which links NIST with the Nation's leading earthquake 
engineering researchers and practitioners. The first product of this 
effort was released in 2008, a short techbrief document for structural 
engineers who design reinforced concrete frame buildings in areas of 
high seismic activity. Several additional projects are ongoing. In 
addition, NIST began to rebuild its in-house capabilities in 2008 by 
hiring new earthquake research staff members; this process continues 
today, with staff increases anticipated in 2009 and 2010, contingent on 
available resources.
    Given the unique nature of the necessary interaction between NIST 
and FEMA in fulfilling their respective roles, the two agencies have 
formed a special partnership with their programs that involves 
complete, frequent exchanges of project information and in some 
instances actual direct collaboration on projects that involve 
complementary topic areas.

FEMA

    FEMA acts as NEHRP's primary ``implementation arm,'' though the 
other agencies contribute to Program implementation efforts. Similar to 
NIST, FEMA has demonstrated its commitment to NEHRP through a 
significant increase in support in 2009.
    FEMA has a very prominent NEHRP leadership role in working with the 
practitioner community, the ASCE, and the ICC to support the 
development of model building code provisions. As it has done for many 
years, FEMA is working with the Building Seismic Safety Council (BSSC) 
to develop the next generation of the NEHRP Recommended Provisions for 
Seismic Regulations for New Buildings and Other Structures that will be 
available in 2010 for future use in model building codes. USGS supports 
the development of the Recommended Provisions with its hazards mapping 
activities.
    While working on this document for the future, FEMA is also working 
directly with the model building code organizations to assist in the 
development of new seismic provisions for the 2009 editions of the 
International Codes, or ``I-Codes,'' that are promulgated by the ICC. 
The I-Codes have been adopted in part or whole by all 50 states, 
standardizing safe design practices nation-wide. At the ICC's initial 
code change hearings for the 2009 edition, FEMA staff and contractors 
attended various portions and provided testimony on many proposed code 
changes for the International Building Code (IBC), the International 
Existing Building Code (IEBC) and the International Residential Code 
(IRC). This testimony included supporting proposed code changes 
submitted by FEMA, proposed code changes where FEMA worked with the 
proponents, and proposed code changes that other parties submitted. In 
some instances, FEMA spoke in opposition to proposed code changes that 
weakened the code.
    While working with the national model building code and standards 
organizations on issues that are sufficiently mature to be considered 
for building code adoption, FEMA also continues to support projects to 
develop guidelines for designers. It is in this area that FEMA is 
working very closely with NIST, and this partnership and the resulting 
development, publication, dissemination, and promotion of building 
design and construction materials are signature elements of the NEHRP. 
In the past 30 years, FEMA has developed and published over 200 
earthquake design guidance publications on all aspects of earthquake 
mitigation, including: seismic design and construction of new 
buildings; the retrofitting of existing hazardous structures, including 
the need for affordable seismic retrofitting techniques; and other 
related structural and non-structural issues. FEMA also conducts or 
supports related outreach activities to promote training courses and 
publications.
    Existing buildings pose a much greater risk than new buildings, as 
most were constructed prior to current building codes and many are 
collapse hazards. FEMA has published an entire series of publications 
on existing buildings, from rapid screening of many buildings to 
guidance on seismic rehabilitation of an existing hazardous building.
    In another example, in 2008, FEMA completed the 50 percent draft of 
the Guidelines for Seismic Performance Assessment of Buildings, and an 
accompanying Performance Assessment Calculation Tool (PACT), which is 
the first phase of the multi-year project to develop the Next-
Generation Performance-Based Seismic Design (PBSD) Guidelines for New 
and Existing Buildings. The project is based on the Next-Generation 
Performance-Based Seismic Design Guidelines, Program Plan for New and 
Existing Buildings, published by FEMA as FEMA 445. As part of the PBSD 
project, FEMA also recently published a document that provides 
methodologies on how to test the performance of building components, 
Interim Protocols for Determining the Seismic Performance 
Characteristics of Structural and Nonstructural Components (FEMA 461). 
This publication was developed in concert with the three national 
earthquake engineering research centers that NSF supported through the 
end of 2007.
    A prominent new FEMA public outreach effort began in 2008 with the 
new QuakeSmart initiative, which is designed to encourage business 
leaders and owners in areas that are at risk from earthquakes to take 
actions that will mitigate damage to their businesses, provide greater 
safety for customers and employees, and speed recovery if an earthquake 
occurs. The goal of QuakeSmart is to build awareness within the 
business community of earthquake risks and to educate businesses, 
particularly small and emerging ones, on the relatively simple things 
they can do to reduce or mitigate the impacts of earthquakes, thus 
supporting community preparedness. The effort began with a series of 
Community Forums in four cities in the Midwest and on the West Coast. 
Further forums are scheduled for late 2009.
    To support and increase the adoption of their earthquake resiliency 
measures, the NEHRP agencies, led primarily by FEMA, maintain strong 
partnerships with other earthquake and hazards-related agencies, State 
and local governments, academia, the research community, code 
enforcement officials, design professionals, and the remainder of the 
private sector.
    FEMA provides technical and financial assistance to states and 
multi-State consortia to increase awareness of the earthquake hazard 
and to foster plans to reduce seismic vulnerability. To provide State 
financial assistance, FEMA administers the all-hazards Pre-Disaster 
Mitigation (PDM) Grant Program for states and communities; the Hazard 
Mitigation Grant Program (HMGP), an all-hazards post-disaster grant 
program; and the Emergency Management Performance Grants (EMPG) 
Program, which provides grants to states to improve emergency 
management performance and is administered by FEMA's Preparedness 
Directorate.
    FEMA also supports a series of multi-State consortia and 
organizations, including the Cascadia Regional Earthquake Working Group 
(CREW), which serves states in the Pacific Northwest affected by the 
Cascadia Subduction Zone and related faults; the Central United States 
Earthquake Consortium (CUSEC), which serves the states impacted by the 
New Madrid seismic zone; the Northeast States Emergency Consortium 
(NESEC), which serves northeastern states on a multi-hazard basis; and 
the Western States Seismic Policy Council (WSSPC). FEMA's support to 
these organizations is in the form of grants to support earthquake-
related outreach and educational activities that promote earthquake 
mitigation and awareness.
    FEMA also funds the National Earthquake Technical Assistance 
Program (NETAP), a program to support earthquake mitigation training 
for State and local officials. Through the National Earthquake 
Technical Assistance Program (NETAP), FEMA supports development of 
training curricula on earthquake mitigation topics and provides courses 
for State and local officials and businesses throughout the U.S.
    To improve education and awareness, FEMA has co-sponsored series of 
informational conferences, including the National Earthquake Conference 
held in St. Louis, MO in September 2004 and in Seattle in April 2008, 
as well as the 100 Year Anniversary of the 1906 San Francisco 
Earthquake. In total, several thousand individuals attended numerous 
presentations on earthquake-related topics.
    In a project closely related to its other NEHRP efforts, FEMA 
completed development and publication of its Guidelines for Design of 
Structures for Vertical Evacuation from Tsunamis. This document was 
jointly funded by FEMA and NOAA. Tsunami safety is a critical issue for 
several coastal communities along the West Coast of the U.S. that are 
vulnerable to tsunami. The States of Oregon and Washington have already 
expressed interest in using this publication.

Conclusion

    Damaging earthquakes, while infrequent in the U.S., can be among 
the costliest natural disasters, measured both in terms of economic 
impact and lives lost or disrupted. There is still much to be learned 
about earthquakes and their impacts. This is true both in the 
scientific fields and in the engineering disciplines. What we do know 
highlights the continuing need for greater preparedness and mitigation, 
if the NEHRP vision for the Nation is to be realized. The four NEHRP 
agencies have a strong partnership, both among themselves and with the 
Nation's earthquake professional community that continues to focus on 
that vision.
    Chairman Wu, thank you again for the opportunity to testify on 
NEHRP activities. This concludes my remarks. I will be happy to answer 
any questions you may have.

                    Biography for John R. Hayes, Jr.
    John Hayes joined the Building and Fire Research Laboratory in 
early 2006. He is the Director of NEHRP. NEHRP is the Federal 
Government's program to reduce risks to life and property from 
earthquakes. NEHRP consists of four federal agencies: FEMA, NSF, USGS, 
and NIST. As Director, Hayes provides overall program management, 
coordination and technical leadership; strengthens program 
effectiveness by facilitating implementation of earthquake risk 
mitigation measures; and builds and maintains effective partnerships 
with NEHRP agencies and stakeholders in industry, academia and 
government. Specific duties include strategic and management plan 
development and implementation; program evaluation and performance 
measurement; budget review, guidance and coordination; preparation and 
submission of coordinated annual program budgets; submission of an 
annual report to Congress on consolidated program priorities, budget 
and results, including an assessment of program effectiveness; 
information dissemination on earthquake hazards and loss-reduction 
measures; and related interagency programs and policies.
    Hayes joined NIST after serving since 1988 as leader of seismic and 
structural engineering research at the U.S. Army Engineer Research and 
Development Center's Construction Engineering Research Laboratory 
(CERL) in Champaign, IL. At CERL, Hayes was actively involved in 
earthquake engineering research for the U.S. Army Corps of Engineers. 
He also collaborated extensively with the earthquake engineering 
program at NSF, including work within the Mid-America Earthquake 
Center, and has been directly involved with a number of significant 
earthquake mitigation projects for FEMA. Working with key personnel at 
USGS, Hayes helped develop the seismic provisions for the American 
Society of Civil Engineers' ASCE 7-05 standard and a new Department of 
Defense tri-services seismic design manual.
    Prior to his tenure at CERL, Hayes was Research Civil Engineer and 
Senior Scientist at the Engineering Research Division of the U.S. Air 
Force Engineering and Services Laboratory (1984-1988); Structural 
Engineer at the U.S. Air Force Armament Division (1982-1984); Assistant 
Professor of Civil Engineering at the Virginia Military Institute 
(1980-1982); Civil Engineer and NATO Infrastructure Staff Officer at 
the Headquarters U.S. Air Forces in Europe (1977-1980); and Civil 
Engineer Officer at Tinker AFB, OK (1975-1977).
    Hayes is a retired Lieutenant Colonel in the U.S. Air Force 
Reserves and is a registered Professional Engineer in Florida and 
Virginia.

Education:

Ph.D., Civil Engineering, 1998, University of Illinois at Urbana-
Champaign

M.E., Civil Engineering, 1975, University of Virginia (Tau Beta Pi)

B.S., Civil Engineering, 1973, Virginia Military Institute 
(Distinguished Graduate)

    Chair Wu. Thank you, Dr. Hayes. Mr. Murphy, please proceed.

 STATEMENT OF MR. KENNETH D. MURPHY, IMMEDIATE PAST PRESIDENT, 
  NATIONAL EMERGENCY MANAGEMENT ASSOCIATION (NEMA); DIRECTOR, 
             OREGON OFFICE OF EMERGENCY MANAGEMENT

    Mr. Murphy. Thank you, Chair Wu and Ranking Member Smith, 
and distinguished Members of the Subcommittee for allowing me 
to testify today. In my statement, I am representing the 
National Emergency Manager's Association who are members of 
State emergency management directors in the states. As the 
Committee considers reauthorization of the NEHRP program, NEMA 
supports the program's reauthorization as a vital program that 
helps states prepare for earthquake specific hazards.
    There are four key areas that I want to highlight today, 
challenges faced by emergency managers in preparing communities 
for earthquakes and other natural hazards, support for 
reauthorization of the NEHRP program, differences in preparing 
for hazards, and tools and technology for emergency managers.
    The challenges we face as emergency managers are numerous 
challenges at each level of government and the private sector. 
I would be remiss if I did not state for the record that 
financial assistance to address earthquake hazards has been, 
and always will be, a challenge. Each state, city, county, 
tribal nation, and territory must deal with either consistent 
disasters, such as hurricanes or wildfires, which usually 
provide greater emphasis and support to be prepared for these 
type of events, or they have to deal with very infrequent 
disasters which lead to a lack of preparedness, which usually 
directs emphasis to other issues that are relevant and must be 
dealt with. Earthquakes are high consequence infrequent events 
that are often difficult to gain attention.
    As you stated, Mr. Chair, the Northridge Earthquake, with 
the deaths, the injuries, and the billions of dollars, just 
happened in a few minutes.
    The National Earthquake Hazards Reduction Program provides 
funding allowing for effective practices and policies to 
earthquake loss-reduction and accelerates their implementation. 
This program is currently authorized at $191 million for fiscal 
year 2009 and authorization expires in September of this year. 
However, according to the Central United States Earthquake 
Consortium, NEHRP funding has remained level since 1992, so we 
have lost considerable value over time for the investments made 
to build preparedness capability and research tools. NEHRP 
improves techniques to reduce seismic vulnerability of 
facilities and systems. NEHRP improves seismic hazard 
identification and risk assessment methods and their use and 
improves the understanding of earthquakes and their effects. We 
think the program must remain singularly focused on 
earthquakes. FEMA should maintain the NEHRP program uses for 
all four phases of emergency management, preparedness, 
response, recovery, and mitigation. FEMA should also ensure the 
program maintains both a State focus and a multi-State focus 
since earthquakes could hit multi-State regions, and as we have 
learned from recent hurricanes that our Nation relies on mutual 
aid assistance in response to disasters.
    NEMA supports the creation of the Advisory Committee for 
NEHRP that was created in the reauthorization of 2005 and 
appreciates that emergency management is represented on that 
Committee and hope that the Committee continues.
    The NEHRP plan and activities do align with local 
governments. As NEHRP has evolved during this reauthorization, 
thought should be given to focus on specific geographic areas, 
which would be of great benefit to the local needs and 
preparedness activities. While NEHRP is a valuable program for 
emergency managers, it is difficult sometimes to track the 
program's funding year to year, since the program is shared by 
four separate agencies and often buried in operational accounts 
for these agencies. Having a clear line item for NEHRP would 
assist in tracking the funds for the program and gaining more 
visibility before Congress, the Administration, and 
stakeholders at the State and local level who are charged with 
preparing for earthquakes or providing technological expertise 
for the program.
    The most significant issue concerning earthquakes is that 
earthquakes are no-notice disasters. Many other disasters do 
provide some types of advanced notice and warning, not all. 
Similar to other disasters, emergency managers really do not 
know how severe or how long an earthquake will last. 
Earthquakes must be planned for in the worst-case scenario, as 
emergency responders will not know exactly who is alive, who is 
injured, how large an area is affected initially, and how much 
damage you have really suffered. Emergency managers also have 
to be prepared for after-shocks, and on the coastal areas we 
have to plan for tsunamis. All of these factors make planning 
for earthquakes unique and specific for different geographical 
areas.
    In preparing for earthquakes it is important to have tools 
such as HAZUS, which is a modeling tool from FEMA, but I 
believe that this tool needs more refinement and to be specific 
to earthquakes and tsunamis allowing more specific modeling for 
each jurisdiction allowing governments to better implement 
preparedness response and recovery and mitigation programs. 
Geologists and seismologists need more research into the 
prediction of earthquakes and more sensors in the ground to 
give us warning and scientific data on Earth's movement during 
earthquakes.
    Applied research that is sponsored in part by NEHRP and its 
agencies may eventually lead to advancements in exciting new 
technologies, such as early warning earthquake systems which 
are vitally important to protecting human life and critical 
infrastructure as well as guiding response efforts.
    In conclusion, NEMA supports NEHRP reauthorization and 
looks forward to working with the Committee to enhance the 
program. If you have any questions, Mr. Chair, I will be 
available.
    [The prepared statement of Mr. Murphy follows:]

                Prepared Statement of Kenneth D. Murphy

Introduction

    Thank you Chairmen Wu and Ranking Member Smith, and distinguished 
Members of the Subcommittee for allowing me the opportunity to provide 
you with a statement for the record. I am Ken Murphy, the Immediate 
Past-President of the National Emergency Management Association (NEMA) 
and the Director of the Oregon Office of Emergency Management. In my 
statement today, I am representing NEMA, whose members are the State 
emergency management directors in the states, the U.S. territories, and 
the District of Columbia. NEMA's members are responsible to their 
Governors for emergency preparedness, homeland security, mitigation, 
response, and recovery activities for natural, man-made and terrorist 
caused disasters. In my state, the emergency management office is 
responsible for earthquake preparedness, response, recovery, and 
mitigation and we are actively engaged with the National Earthquake 
Hazards Mitigation Program (NEHRP).
    As the Committee considers reauthorization of the NEHRP program, 
NEMA supports the program's reauthorization as a vital program that 
helps states prepare for earthquake specific hazards. The NEHRP program 
works in concert with critical preparedness functions at FEMA, such as 
the newer Regional Catastrophic Grant Program and the Emergency 
Management Performance Grant Program, the only all-hazards preparedness 
program. Better integration of NEHRP in key activities like mitigation, 
all-hazards gap analysis, and all-hazards preparedness activities would 
benefit State preparedness activities and building the capabilities 
nationally and at the State and local level for catastrophic 
preparedness.
    There are four key areas that I want to highlight today:

        1.  Challenges faced by emergency managers in preparing 
        communities for earthquakes and other natural hazards;

        2.  Support for reauthorization of the National Earthquake 
        Hazards Reduction Program;

        3.  Difference in preparing for the hazards; and

        4.  Tools and technology for emergency managers.

CHALLENGES FACED BY EMERGENCY MANAGERS

    Emergency managers are faced with numerous challenges at each level 
of government and the private sector. I would be remiss if I did not 
state for the record that financial assistance to address earthquake 
hazards has been and always will be a challenge. Each state, city, 
county, tribal nation, and territory must deal with either consistent 
disasters, such as hurricanes or wildfires, which usually provide 
greater emphasis and support to be prepared for these type events or 
they have to deal with very infrequent disasters which lead to a lack 
of preparedness, which usually directs emphasis to other issues that 
are relevant and must be dealt with. Earthquakes are high consequence 
infrequent events and are often difficult to gain attention. I want to 
highlight some of the larger events so you get a picture of how 
earthquakes measure up to other disasters.

        <bullet>  During the Nisqually Earthquake of 2001, one of the 
        largest recorded earthquakes in Washington State history, one 
        casualty and 407 injuries were reported along with the 
        disruption of business, transportation, and government 
        functions for a number of days for extensive inspection, 
        repair, and clean-up efforts. The earthquake was Washington's 
        most expensive and widespread disaster, according to State and 
        federal coordinating officers for the disaster recovery 
        program, totaling over $322 million in federal disaster 
        recovery costs and not including damages to bridges or roadways 
        covered by the Federal Highway Administration System;

        <bullet>  The Northridge Earthquake in California in 1994 was 
        responsible for 72 deaths and over 9,000 injuries and left 
        25,000 people homeless. The earthquake caused an estimated $25 
        billion in damage, making it one of the costliest natural 
        disasters in U.S. history. An outbreak of Valley Fever also hit 
        the affected area directly following the earthquake due to the 
        large amount of dust and land movement during the quake and was 
        responsible for three deaths;

        <bullet>  The Loma Prieta Earthquake of 1989 killed 63 people, 
        injured 4,000, and left over 8,000 people homeless. The 
        earthquake caused between $8 billion and $12 billion in damages 
        to critical infrastructure, businesses, and homes;

        <bullet>  The 1906 San Francisco earthquake was estimated as a 
        magnitude 8.3 event, lasting 45 seconds. The casualties as a 
        result of the earthquake and resulting fire are estimated to be 
        above 3,000 and to this day is the greatest loss of life from a 
        natural disaster in California's history; and

        <bullet>  The 1812 New Madrid Earthquake and after-shocks, 
        though not officially recorded is often believed to be the 
        largest seismic activity in U.S. history, and induced shaking 
        strong enough to alarm the general population over an area of 
        2.5 million square kilometers, affecting territory that is now 
        occupied by over 10 states.

NATIONAL EARTHQUAKE HAZARDS REDUCTION PROGRAM (NEHRP)

    NEHRP provides funding allowing for effective practices and 
policies for earthquake loss-reduction and accelerates their 
implementation. The program is currently authorized at $191 million for 
FY 2009 and authorization expires on September 30, 2009. However, 
according to the Central United States Earthquake Consortium, NEHRP 
funding has remained level since 1992, so we have lost considerable 
value over time for the investments made to build preparedness 
capabilities and research tools. NEHRP improves techniques to reduce 
seismic vulnerability of facilities and systems. NEHRP improves seismic 
hazards identification and risk-assessment methods and their use and 
improves the understanding of earthquakes and their effects.
    The program must remain singularly focused on earthquakes. FEMA 
also should maintain the NEHRP program's uses for all four phases of 
emergency management--preparedness, response, recovery, and mitigation. 
FEMA should also ensure the program maintains both a State focus and a 
multi-State focus, since earthquakes could hit multi-State regions and 
as we have learned from recent hurricanes that our nation relies on 
mutual aid assistance in response to disasters. NEMA supports the 
creation of the Advisory Committee for NEHRP that was created in the 
reauthorization in 2005 and appreciate that emergency management is 
represented on the Committee. We hope that the Committee and emergency 
management representation will continue.
    In addition to NEHRP's scientific and research driven efforts, the 
program provides coordination with FEMA's Emergency Management 
Performance Grant (EMPG) that enables states to develop preparedness 
and response plans as well as increase earthquake awareness. A primary 
objective of NEHRP is to provide outreach and public education and NEMA 
strongly supports these efforts at a national, State, and local level. 
Some of the key NEHRP objectives include development of cost-effective 
measures to reduce earthquake impacts on individuals, the built 
environment, and society-at-large; providing guidance and 
recommendations on codes and ordinances to enhance seismic safety; and 
improving earthquake resilience of communities nationwide through 
effective policies.
    Some of the key accomplishments by states through NEHRP and FEMA, 
include preparedness, mitigation, training, and public education.

Training:

<bullet>  With support from FEMA/NEHRP Washington State EMD trains 250+ 
personnel annually on mitigation techniques, such as Rapid Visual 
Screening of Buildings for Potential Seismic Hazards as well as 
response and recovery techniques that include Post Earthquake Safety 
Evaluation of Buildings.

Exercises:

<bullet>  Major functional exercises have been conducted with the 
support of FEMA/NEHRP funds. Based on the Seattle Fault Earthquake 
Scenario, the Sound Shake 2008 exercise examined serious impacts to the 
region's transportation and communications systems. This exercise also 
allowed the state, counties, and cities in the greater Puget Sound 
region to test their emergency plans and systems. The exercise also 
provided an opportunity for the region as a whole to continually 
improve its readiness.

Public Education and Outreach:

<bullet>  Emergency management continues to promote public awareness of 
the State earthquake hazards through the annual preparedness month 
campaigns. Statewide ``Drop, Cover and Hold'' drills are conducted 
during both months in an effort to educate citizens on how to respond 
during an earthquake.

<bullet>  Awareness and educational videos, including Earthquake . . . 
Preparing Your Classroom--How Safe is Your Classroom? and Preparing 
Your Office for an Earthquake, have been developed and are utilized 
statewide to inform educators and business owners of non-structural 
mitigation techniques that can be employed with little or no cost. 
These instructional videos have been posted online for greater 
dissemination.

    The NEHRP plan and activities do align with local governments. As 
NEHRP has evolved, during this reauthorization thought should be given 
to focus on specific geographic areas, which would be of great benefit 
to the locals needs and preparedness activities.
    While NEHRP is a valuable program for emergency managers, it is 
difficult to track the program's funding from year to year, since the 
program is shared by four separate agencies and often buried in 
operational accounts for these agencies. Having a clear line item for 
NEHRP would assist in tracking the funds for the program and gaining 
more visibility before Congress, the Administration and stakeholders at 
the State and local level who are charged with preparing for 
earthquakes or providing technological expertise for the program.

EARTHQUAKES VERSE OTHER HAZARDS

    The most significant issue concerning earthquakes is that 
earthquakes are no notice disasters. Many other disasters do provide 
some types of advanced warning, not all. Similar to other disasters, 
emergency managers really do not know how severe or how long an 
earthquake will last. Earthquakes must be planned for in the worst case 
scenario, as emergency responders will not know who is alive, injured, 
how large an area is affected, and how much damage you have suffered. 
Emergency managers also have to be prepared for after-shocks and on the 
coastal areas we have to plan for tsunamis. All of these factors make 
planning for earthquakes unique and specific for different geographical 
areas.

TOOLS AND TECHNOLOGIES

    In preparing for earthquakes it is important to have the tools such 
as HAZUS, which is a modeling tool from FEMA, but I believe that this 
tool needs more refinement to be specific to earthquakes and tsunamis 
allowing more specific modeling for each jurisdiction allowing 
governments to make and implement better preparedness actions. 
Geologist and seismologist need more research into the prediction of 
earthquakes and more sensor systems in the grounds to give us some 
warning and scientific data on the Earth's movement during earthquakes.
    Additionally, even though I stated that earthquakes are no notice 
events it is still important to have technologies that allow 
jurisdiction to warn their citizens and visitors. NEMA has supported 
authorization for FEMA's Integrated Public Alert and Warning System 
(IPAWS) as a component of the warning systems for the emergency 
management tool-kit. IPAWS is an important technology which is designed 
to warn individuals through various systems such as text messaging and 
reverse 911 warnings for an impending event. As emergency managers, we 
have to be able to tell people what to prepare for, how to react, and 
what is important when disasters are eminent or have occurred. Having 
warning systems in place is not enough, if we don't tell them what to 
do with that information.
    Applied research that is sponsored in part by NEHRP and its 
agencies may eventually lead to advancements in exciting new 
technologies, such as early earthquake warning, which are vitally 
important to protecting human life and critical infrastructure as well 
as guiding response efforts.

CONCLUSION

    NEMA supports NEHRP reauthorization and looks forward to working 
with the Committee to enhance the program. Thank you for the 
opportunity to testify and we appreciate your support for our nation's 
emergency management system.

                    Biography for Kenneth D. Murphy

    Currently the Director of Oregon Emergency Management (OEM), 
Kenneth D. Murphy has been with OEM since July 1999. Early assignments 
at OEM involved functioning as the Administrative Operations Manager 
and the Deputy Director for the agency. These initial positions were 
integral to the overall organizational structure and management of 
administrative, operational processes and systems for the agency. Mr. 
Murphy has dealt with legislative issues, human resource management, 
public information and media liaison, as well as managing the 
development and implementation of projects to support and enhance the 
statewide emergency services system infrastructure. Murphy has been the 
Director of Oregon Emergency Management since April 1, 2003, and was 
also appointed Director of Oregon's Office of Homeland Security on June 
1, 2005.
    In 1980, Mr. Murphy left retail furniture business to pursue a 
full-time career with the United States Army as an active duty Guard/
Reserve officer assigned to the Oregon National Guard. Over a period of 
nineteen years, Mr. Murphy held numerous positions on Company, 
Battalion, Brigade, Corps and Army staffs. Mr. Murphy's final two 
assignments included: Chief of the U.S. Army's European Crisis Action 
Team stationed in Heidelberg, Germany, which had the responsibility to 
react, manage, coordinate and control emergency situations for 83 
European countries; and Director of Military Support to Civilian 
Authorities for the Oregon National Guard, responsible for the Oregon 
Guard's coordination and response procedures to State and national 
emergencies. Murphy retired from active military service in April 1999 
as a Lieutenant Colonel with twenty-nine years of service.
    Mr. Murphy currently serves on the Governor's Homeland Security 
Council and Governor's Statewide Inter-operability Executive Council 
for Oregon. Additionally, he serves as a member of the Board of 
Director's for the Western States Seismic Safety Policy Council, member 
of the Board of Directors for the Oregon Regional Maritime Security 
Coalition, FEMA Region Ten Regional Advisory Council; FEMA Headquarters 
National Advisory Council and is the immediate past President of the 
National Emergency Management Association for the United States.

    Chair Wu. Thank you very much, Mr. Murphy. Professor 
O'Rourke, please proceed.

  STATEMENT OF PROFESSOR THOMAS D. O'ROURKE, THOMAS R. BRIGGS 
  PROFESSOR OF ENGINEERING, SCHOOL OF CIVIL AND ENVIRONMENTAL 
                ENGINEERING, CORNELL UNIVERSITY

    Prof. O'Rourke. Thank you very much. Mr. Chair, and also 
Ranking Member Smith and Members of the Subcommittee, I am very 
happy to be here to testify today.
    [Slide]
    This first slide, by the way, illustrates Balboa Boulevard 
after the 1994 Northridge Earthquake in Los Angeles, and you'll 
see in this picture that ground failure here has ruptured high-
pressure gas and water transmission pipelines, and those houses 
that you are looking at were literally burned from the top and 
flooded from the bottom. Twenty-five percent of the water 
supply was lost in Los Angeles as a consequence of that 
earthquake, and as you have mentioned before, there were 
billions of dollars of damage.
    The National Earthquake Hazards Reduction Program is the 
backbone of U.S. seismic protection, and the risks are high. 
The risks are high because the population and assets in 
earthquake vulnerable areas are growing in the United States. 
NEHRP provides the support base for seismic monitoring, 
mapping, research, testing, code development, mitigation, 
emergency preparedness, but I think what is also equally 
important is that it served as an incubator for technology, for 
procedures and policy that go beyond earthquakes to reduce risk 
from all natural hazards and human threats. It has become a 
very important contributor to the technologies and the 
reduction of risks in all natural hazards.
    The 2004 reauthorization of NEHRP called for a number of 
changes in the program. NIST is the lead agency, Interagency 
Coordinating Committee, Advisory Committee for Earthquake 
Hazards Reduction and Strategic Plan. All of these have really 
supported and enhanced the interagency coordination, and I am a 
member, as is Michael Lindell to my left, and Jim Harris--are 
members of the Advisory Committee for Earthquake Hazards 
Reduction. I think we all feel that the interagency 
coordination with the new reauthorization has really gone 
forward and is looking very good.
    Support for NIST, which is the lead agency, because it is a 
lead agency. It is really in control and overseeing a vast 
portfolio, a large portfolio, of different programs, yet the 
support for NIST right now only accounts for about 1.4 percent 
of the enacted-year budget for fiscal year 2008. I think, and 
many other people do, too, that increased effort at NIST and 
additional support is a very important part of supporting the 
interagency coordination because as lead agency, they need the 
support and the resources to be able to do their job 
effectively.
    Engineering, research and development priorities include 
lifeline systems. These are the systems that really distinguish 
modern communities. They bring us energy, they bring us 
transportation, water supply, telecommunications, particularly 
looking at the interdependencies and the national impact, 
social and behavioral aspects of community response to 
earthquakes is actually important for engineering because 
actually the real infrastructure are the communities that the 
physical infrastructure serve. So getting the proper 
coordination there is important, performance-based seismic 
design, non-ductal concrete and other buildings with life 
safety threats.
    There are also two important programs, one of them is the 
Advanced National Seismic System operated by the U.S. 
Geological Survey calling for 6,000 new stations to monitor 
strong motion, concentration in urban areas, and defining urban 
risks and then real-time shake maps.
    The George A. Brown Jr., Network for Earthquake Engineering 
Simulation represents a tremendous opportunity for improving 
civil infrastructure, for being able to show new and emerging 
technologies and to be able to provide the evidence that is 
necessary for their implementation. With 15 sites across the 
United States, access worldwide, and by a whole number of 
different users, this is one of the gems of the earthquake 
program and certainly deserves support.
    Technology transfer: NEHRP has been very effective in 
developing codes and standards, and FEMA has been the key 
agency for tech transfer and implementation. It is important to 
recognize that FEMA again has only been enacted for about 26 
percent of its authorization, and so as the key agency for tech 
transfer implementation, we think that support should be 
increased so they could do their job more effectively. It is 
also, I think, important to revitalize the FEMA State 
earthquake programs and provide for mitigation fund. Supporting 
FEMA at authorized levels is the most effective way to promote 
technology transfer.
    And then natural hazards R&D.
    [Slide]
    There has been a recent report by the Earthquake 
Engineering Research Institute which is shown here--I have 
copies for both Chair Wu and Mr. Smith--but this report 
documents the strong NEHRP as the best way to support natural 
hazards mitigation. There are many, many contributions from 
NEHRP to hazards mitigation which are listed here and explained 
in detail in the report.
    And then finally, natural hazards R&D. One of the things to 
do to bring an R&D program for natural hazards that would 
include all hazards is to seek expert advice from the National 
Academies to the National Research Council [NRC]. This is a 
complex area with lots of different disciplines, and a study by 
the National Academies could be very effective in providing 
guidance on a good program.
    Multi-hazards demonstration projects, some of them are 
being led by USGS in Southern California. A further development 
of those would be very useful, and then interaction between 
NEHRP and the National Windstorm Impaction Reduction Program 
with NIST perhaps as the lead agency would be a good step 
toward being able to develop more coordination among the 
different hazards.
    So the way forward is a strong NEHRP support, NEHRP support 
that is consistent with authorized levels, and that we think is 
the highest priority investment in disaster resilient 
communities. And then of course the improved hazards 
coordination through an NRC (National Research Council) study, 
multi-hazards demonstration projects, and interaction between 
earthquake and windstorm communities perhaps with NIST as the 
lead agency. Thank you very much.
    [The prepared statement of Prof. O'Rourke follows:]

                Prepared Statement of Thomas D. O'Rourke

    The National Earthquake Hazard Reduction Program (NEHRP) is the 
backbone for seismic protection in the United States. It provides 
federal support for research, information dissemination, development 
and implementation of technology, and the application of planning and 
management procedures to reduce seismic risk. It provides the resources 
and leadership for understanding and reducing U.S. vulnerability to 
earthquakes, and supplies the support base for seismic monitoring, 
mapping, research, testing, code development, mitigation and emergency 
preparedness. This support is critically important because the United 
States faces serious earthquake risk. This risk is growing because 
population density, property, and infrastructure are increasing in 
locations affected by earthquakes. The Federal Emergency Management 
Agency (FEMA) estimates that 45 states and territories are destined to 
experience earthquake damage. This exposure equals an annualized loss 
exceeding $6 billion dollars per year, with a single event loss 
potential of $100 to $200 billion dollars and tens of thousands of 
casualties. (FEMA, 2001, adjusted to 2009 dollars).
    NEHRP is administered through four government agencies, with the 
National Institute of Standards and Technology (NIST) as the lead 
agency and the U.S. Geological Survey (USGS), National Science 
Foundation (NSF), and Federal Emergency Management Agency (FEMA) as the 
other partnering agencies. The USGS is the applied geosciences arm of 
NEHRP. It has successfully developed a procedure for translating Earth 
science into the information needed for seismic design. It reports on 
earthquakes worldwide, produces seismic hazard maps for use by design 
professionals, monitors for earthquake motions and effects, and helps 
develop public awareness, planning, and response preparations through 
coordination with the other NEHRP agencies and local communities. The 
NSF is the basic research arm of NEHRP, which supports research in 
engineering, Earth sciences, and the social sciences. It provides the 
engine that drives fundamental discoveries related to earthquake 
processes; seismic response and failure mechanisms of the ground, 
buildings, and lifeline networks; and human behavior, social response, 
and the economic conditions pertaining to earthquakes. FEMA is the 
primary implementation arm of NEHRP. It sponsors the development of 
guidelines and standards for the seismic evaluation and rehabilitation 
of existing buildings and for the design of new structures. It also 
provides technical and financial support to states, multi-State 
consortia, and individual communities to improve earthquake mitigation 
with grants to enhance public awareness, adopt earthquake resiliency 
measures, and support local projects. In addition to its role as lead 
agency, NIST supports the development of seismic codes and standards, 
and thus provides a critical link between the basic research supported 
by NSF and the implementation of that research, led largely through 
FEMA.
    NEHRP is an incubator for technology and policy that extend well 
beyond seismic risk to improve the security and economic well-being of 
U.S. citizens through the reduction of risk from other hazards, such a 
floods, windstorms, hurricanes, and human threats. The contributions of 
NEHRP affect our lives through improvements in the perception, 
quantification, and communication of risk (EERI, 2008). They involve 
advanced technologies for strengthening the built environment, loss 
assessment methodologies, emergency response procedures, and a process 
for achieving disaster preparedness. They also involve a unique, 
multidisciplinary culture that integrates basic and applied research 
into design codes, construction methods, and public policy (EERI, 
2008).
    Not only does NEHRP protect lives and property from earthquake 
hazards, it contributes markedly to improvements in U.S. civil 
infrastructure. For example, research supported by NEHRP has 
substantially improved the modeling of complex lifeline systems, 
structural health monitoring, protective systems for buildings and 
bridges, and remote sensing for response and recovery from extreme 
events (EERI, 2008). Lifeline systems, including electric power, water 
supplies, gas and liquid fuel delivery, and telecommunications, are 
essential for the proper functioning and economic stability of modern 
communities. NEHRP sponsorship of lifelines research has led to break-
through discoveries about the functionality and interdependence of 
critical infrastructure systems, and has stimulated interdisciplinary 
work among social scientists and engineers to quantify and reduce the 
community and economic impacts of lifeline losses after extreme events.
    U.S. civil infrastructure is made all the more vulnerable to 
earthquakes and other natural hazards by its poor state of repair. 
Grades issued by the American Society of Civil Engineers (2009) are 
barely passing for every element of the built environment at a time 
when conditions have underscored the importance of infrastructure for a 
viable and competitive economy. NEHRP, through its basic research and 
implementation agencies at NSF, NIST, and FEMA, is ideally positioned 
to provide proof of concept for emerging technologies as well as the 
evidence needed to sustain their implementation. For example, the 
George E. Brown, Jr. Network for Earthquake Engineering Simulation 
(NEES) supported by NSF provides a national resource for demonstrating 
the cost-effectiveness of performance-based design, new materials to 
reduce the impact of earthquakes and other extreme events, and improved 
retrofit strategies that improve infrastructure performance on a daily 
basis as well as under conditions of unusual stress. The current 
reconstruction of the Nation's transportation networks has 
significantly benefited from NEHRP-sponsored research, including the 
USGS mapping program. The newest design guidelines and codes for bridge 
design include advanced seismic design and characterization provisions. 
Thus, the hundreds of billions of dollars our nation is investing in 
infrastructure reconstruction are better protected from significant 
earthquake effects because of the NEHRP program.
    NEHRP distinguishes the U.S. as being at the forefront of globally 
important and life-saving technology. Our nation gains leverage from 
earthquake engineering research through worldwide improvements in 
safety, protection of life, and the exportation of our technology and 
engineering services overseas.

INTERAGENCY COORDINATION

    There are several distinguishing features of the last NEHRP 
reauthorization (Public Law 108-360), including the establishment of 
NIST as Program Lead Agency, creation of the NEHRP Interagency 
Coordinating Committee (ICC), and appointment of an external committee 
of experts, known as the Advisory Committee on Earthquake Hazards 
Reduction (ACHER), to provide recommendations to the NEHRP agencies on 
implementing the program. The last NEHRP reauthorization also requires 
the preparation of a strategic plan by the ICC to guide and coordinate 
interagency activities within the program. All these aspects of NEHRP 
have been helpful in stimulating interagency coordination.
    The establishment of the ICC has worked especially well. The ICC is 
composed of the Directors/Administrators of the four partner agencies 
plus the Directors of the Office of Science and Technology Policy and 
Management and Budget. The ICC met on numerous occasions since its 
inception in 2006. The meetings have been regularly attended by the 
National Science Advisor and prominent leaders of the other agencies, 
including the Directors of NSF and USGS. Such high level, active 
involvement has given NEHRP significant program visibility among agency 
leaders, which in turn has encouraged interagency coordination. 
Increased coordination has been achieved through ICC oversight of the 
NEHRP Strategic Plan, annual reports, and exchange of partnering agency 
budget preparation plans well in advance of the President's annual 
budget request.
    NIST has provided focused and positive leadership for NEHRP. It has 
been active in developing a sound Strategic Plan, coordinating with the 
partnering agencies and the external earthquake community, and 
convening the ACEHR for guidance on the program.
    Sixteen experienced earthquake professionals were first convened as 
members of the ACEHR in 2007. Biannual meetings of ACEHR have been held 
with representatives of the partnering agencies. The meetings have been 
held at the NIST headquarters in Gaithersburg, MD, and also at key 
locations around the U.S., such as the USGS National Earthquake 
Information Center in Golden, CO and the Pacific Earthquake Engineering 
Research Center at the University of California at Berkeley, CA. In 
addition, there have been several conference calls, in which the ACHER 
members have exchanged views and made recommendations about program 
content. All meetings and conference calls have been open to the 
public. Frequent meetings and interchange with ACEHR have fostered 
interagency cooperation by providing a forum for collective agency 
reporting, collective dialogue with the external advisory committee, 
and the circulation of ACHER recommendations on NEHRP to all agencies. 
In its first annual report ACEHR (2008) observes that NEHRP ``benefits 
from a high level of interagency coordination and a common focus.'' An 
excellent example of this collaboration is the NEHRP Strategic Plan for 
FY 2009-2013 (ICC, 2008). The plan outlines strategic priorities, each 
with a designated agency lead, and provides a template for coordinated 
and collaborative efforts among the NEHRP partner agencies.
    A key opportunity to improve coordination is to increase the level 
of effort at NIST in NEHRP. The previous NEHRP reauthorization 
envisioned leadership at NIST that would grow from 2004 to 2009 with 
increasing levels of funding authorized to support expanding managerial 
and technical activities. This makes sense. As lead agency, NIST has 
stewardship for the entire program and requires a level of support 
commensurate with oversight of the sizable NEHRP portfolio of projects 
and activities. As of FY 2008, NEHRP support enacted for NIST was only 
1.4 percent of the enacted budget.
    As discussed previously, NIST plays a pivotal and integrating role 
in NEHRP by acting as the vehicle for channeling basic research from 
NSF projects to implementation with the assistance of FEMA. Enabling 
this role with the support that was envisioned in the last NEHRP 
reauthorization would help greatly to foster increased coordination by 
tying together more effectively the programs at NSF, FEMA, and USGS. 
The funds enacted for NIST account for only 12.8 percent of its support 
authorized for FY 2008. This is too low, and presents an opportunity to 
increase the productivity of NEHRP. Increasing support for NIST to be 
consistent with current authorized levels is perhaps the most effective 
way to improve interagency coordination as well as increase the overall 
effectiveness of NEHRP.
    Enhanced interagency coordination and support is needed for 
earthquake reconnaissance. Because earthquake occurrences are rare, it 
is imperative to invest substantial resources in learning from them. 
Reconnaissance of an earthquake affected area within a short time after 
the event will capture unique, time-sensitive and perishable data of 
great value for improved understanding of earthquake effects and a 
real-world test bed for existing models. There should be coordinated 
support for earthquake reconnaissance activities from all NEHRP 
agencies.
    Recommendations by ACEHR (2008) call for a transfer of leadership 
from USGS to NIST for coordinating post-earthquake reconnaissance 
efforts. ACEHR recommends that ``NIST should serve as the single point 
of coordination, without any discipline-specific individual 
responsibility, to ensure that all key aspects of an event are captured 
in a balanced manner.'' This change is recommended for incorporation in 
the current reauthorization cycle.
    Preparing for earthquake reconnaissance and coordinating missions 
is time-intensive and demanding work. Adequate staff and funding are 
required for successful reconnaissance, thus emphasizing further the 
need for additional resources to NIST to fulfill its NEHRP leadership 
role.
    Care and coordination needs to be exercised in the collection and 
archiving of data from earthquake reconnaissance. ACEHR (2008) 
recommends archiving reconnaissance data in a Post-Earthquake 
Information Management System (which is introduced in the new Strategic 
Plan), where data would be available in a set of discipline oriented 
interactive media with information related to the short- and long-term 
effects of earthquakes.

PRIORITIES FOR EARTHQUAKE ENGINEERING R&D

    Earthquake engineering R&D must be judged in context of the earth 
science quantification of design hazards and the societal impact 
associated with the engineering and construction that are proposed for 
the real world. Hence, a robust engineering R&D program must be 
integrated with strong earth and social science R&D activities.
    USGS is building the Advanced National Seismic System (ANSS) that 
will modernize and expand the earthquake monitoring system in the U.S., 
with concentrations in urban environments and the collection of data 
pertaining to actual building response. If we are to arrest the growth 
of earthquake risk in the United States, the USGS must enhance our 
understanding of earthquake ground motion throughout the country so we 
can identify areas that need concentrated mitigation activities, 
recognize those areas where conservatism can be reduced (thus realizing 
considerable savings), and refine our modeling and design procedures 
for seismic soil-structure interaction. This problem is so large and 
expensive that we cannot afford to rely solely on the current 
information to guide our engineering approaches and policy decisions. 
The ANSS is currently deployed at about 15 percent of its planned 
capacity. The deployment of ANSS needs to be accelerated with a strong 
commitment to achieving the completion of this program in a timely 
manner.
    NSF is operating the George E. Brown, Jr. Network for Earthquake 
Engineering Simulation (NEES), which consists of state-of-the-art 
experimental facilities distributed across the U.S. working in unison 
through advanced telecommunications and high performance Internet. The 
network is focused on the large-scale behavior of critical facilities 
under complex earthquake loadings and the validation of analytical and 
computer models needed for effective engineering. NEES links sites 
throughout the U.S. and globally to create a shared resource that 
benefits from open access and the contributions of leading researchers 
at multiple locations. If we are to arrest the growth of earthquake 
risk in the U.S., we must discover how large-scale structures and 
lifelines actually respond to earthquake effects and develop more cost 
efficient methods for reducing their vulnerabilities to acceptable 
levels. NEES is critically important for accomplishing this. As 
discussed previously, NEES is a national resource for advancing 
technologies to improve U.S. infrastructure. Recent ACEHR (2008) 
recommendations include developing support from other federal agencies 
to leverage NSF investments in NEES.
    The resilience of communities and the built environment are 
interrelated, and thus research into the social and behavioral aspects 
of community response to earthquakes is a natural complement to 
research that increases the resiliency of the built environment. The 
National Research Council report, Facing Hazards and Disasters: 
Understanding Human Dimensions (National Research Council, 2006) 
identifies a number of research priorities, including the effects of 
changes over time in hazard-related laws, policies, and programs; human 
dynamics and incentives for adopting mitigation measures; and the 
challenges of catastrophic events. The most recent ACEHR report (2008) 
calls attention to this report and encourages an integrative R&D effort 
into the political, social, and economic circumstances that motivate 
society to achieve community resilience to earthquakes.
    As discussed previously, lifeline systems are critically important 
parts of the built environment. They deliver the resources and services 
necessary for the health, economic well-being, and security of modern 
communities, which are susceptible to malfunctioning under the effects 
of severe hazards, such as earthquakes. Thus, a strong R&D effort 
focused on lifeline systems is important for NEHRP. Research and 
development in lifeline earthquake engineering was supported within 
NEHRP by FEMA under the American Lifelines Alliance. Unfortunately, 
this program was discontinued in 2007 with no replacement. Future R&D 
within NEHRP should place more emphasis on lifelines. To accomplish 
this, it would be appropriate to ask NIST, the lead agency, to convene 
a workshop of experts from academia, public and private utility 
companies, practicing engineers, social scientists, and economists to 
advise the NEHRP partner agencies on the most promising areas of R&D 
and the most effective process for achieving and implementing the 
needed research. Greater emphasis on lifelines is recommended by ACEHR 
(2008), which points out that there has not been sufficient attention 
given to the interdependencies among lifeline systems or the national 
impact that a single outage can have. ACEHR recommends that all NEHRP 
agencies expand their activities related to lifeline systems.
    R&D support should be increased for Performance-Based Seismic 
Design (PBSD). A recent report by NIST (2009) provides a blueprint for 
the needed research. PBSD is a process that supports the design of new 
buildings or upgrades to existing buildings, with a realistic 
understanding of the risk of life, occupancy, and economic losses that 
may occur as a result of future earthquakes. The design of the building 
is adjusted so that the projected risks of loss are deemed acceptable, 
given the cost of achieving the intended level of performance. With 
PBSD, buildings are designed with an explicit understanding of the risk 
of loss (physical, direct economic, and indirect economic). The PBSD 
concepts can be applied readily to other hazards, such as wind, flood, 
and blast effects.
    A serious life safety threat exists with respect to non-ductile 
concrete, soft story, and unreinforced masonry buildings. A non-ductile 
concrete building is one that does not contain sufficient reinforcing 
steel to accommodate deformation during earthquake shaking with the 
result that failure of concrete structural members can occur 
catastrophically with loss of life. Catastrophic failure can also occur 
in buildings with soft stories, unable to accommodate the transient 
distortion imposed by earthquake motion, and in unreinforced masonry 
buildings. Additional work is needed to identify and either remove or 
retrofit such buildings. Thousands of non-ductile concrete structures 
exist in various parts of the U.S. with more than 2000 in southern 
California alone. Research is needed both to identify such structures 
and to develop cost-effective methods to rehabilitate them.
    A research and outreach plan was developed by the Earthquake 
Engineering Research Institute (EERI, 2003), called Securing Society 
Against Catastrophic Earthquake Losses. The plan was developed by a 
broad and multi-disciplinary cross-section of experts. It includes both 
practical and basic research, and contains an outreach component that 
addresses implementation, education, and technology transfer. The plan 
calls for a five-fold program, consisting of research and development 
pertaining to Understanding Seismic Hazards, Assessing Earthquake 
Impacts, Reducing Earthquake Impacts, Enhancing Community Resilience, 
and Expanding Education and Public Outreach. Detailed descriptions of 
topics and work are provided in the document for each program area, 
with a recommended level of funding of $330 million per year to achieve 
national resiliency against earthquakes within a 20-year time frame. 
Enacted NEHRP funding for FY 2006 through 2008 has averaged $119.5 
million, which is only 64 percent of the FY 2008 authorized level.

TECHNOLOGY TRANSFER

    A major component of technology transfer in earthquake engineering 
is the promulgation of codes and standards. Much has been accomplished 
by the earthquake engineering community under NEHRP with respect to the 
development of codes and standards, including methods for predicting 
earthquake damage, evaluating the seismic capacity of existing 
buildings, rehabilitating buildings to improve their seismic 
resistance, and evaluating and repairing earthquake-damaged buildings. 
The bridge community has developed seismic design specifications 
through the American Association of State Highway and Transportation 
Officials. Earthquake-resistant design procedures have been 
incorporated into the International Building Code (ICC, 2006), which is 
promulgated by one recognized building code authority, and into the 
standard, Minimum Design Loads for Buildings and Other Structures, 
issued by the American Society of Civil Engineers (ASCE, 2006).
    As previously discussed, FEMA is the NEHRP agency with primary 
responsibility for implementation. Its roles include sponsorship of 
guidelines and standards for the design of new structures and for the 
seismic evaluation and rehabilitation of existing buildings, as well as 
the support of states, multi-state consortia, and individual 
communities to improve earthquake mitigation. It is a critically 
important agency for technology transfer.
    Until 2001, FEMA had a dedicated program to provide assistance to 
states with high earthquake risks through direct support to their State 
earthquake program managers. Since 2003, that assistance has been 
subsumed into other State and local Department of Homeland Security 
grant programs. The net effect has been to reduce markedly the overall 
preparedness of many of the State earthquake programs as well as the 
visibility and effectiveness of the earthquake managers of those State 
programs. Numerous State earthquake program managers have lost there 
identity and very few can gain access to the resources they previously 
received. It is important now to re-establish support for the State 
programs so they can be ready to respond in a future earthquake. There 
are indications that this is beginning to occur in 2009, which is a 
promising development that needs encouragement and continued support.
    In FY 2008 NEHRP funds enacted for FEMA were only 26 percent of 
their authorized level. ACEHR (2008) recommends revitalizing the State 
earthquake programs and support for pilot studies to mitigate 
earthquake risk in communities. In addition to the continued 
development of guideline documents for code preparation and practice, 
ACEHR further recommends funding for FEMA at authorized levels. 
Additional support for FEMA and restoration of the State programs is 
the most effective way to promote technology transfer and assure 
support dedicated to risk reduction.

RESEARCH AND DEVELOPMENT FOR NATURAL HAZARDS

    One of the best ways to support natural hazards mitigation is to 
support a strong and effective NEHRP. Investments in earthquake 
engineering through NEHRP make a significant impact on life safety and 
the protection of property from all kinds of natural hazards such as 
wildfires, flood, wind, and hurricanes, and from human threats such 
terrorism and severe accidents. The Earthquake Engineering Research 
Institute (2008) has produced a report, Contributions of Earthquake 
Engineering to Protecting Communities and Critical Infrastructure from 
Multi-hazards, which documents the ways by which NEHRP has been the 
incubator for new ideas, advanced technologies, emergency management 
practices, and public policy affecting multi-hazard reduction and 
improvements in critical civil infrastructure. The report was assembled 
with input from a multi-disciplinary team of experts, representing 
practicing engineers, geoscientists, applied social scientists, and 
academic researchers.
    The contributions of NEHRP are legion, and have had a substantial 
impact on public perception and assessment of seismic risk, advanced 
technologies for reinforcing and monitoring the built environment, loss 
assessment methodologies, emergency preparedness and response 
procedures, and a culture for integrating basic and applied research 
into design codes, construction methods, and public policy. Among the 
notable achievements of NEHRP with significant impact outside 
earthquake engineering are the modeling methods for probabilistic 
seismic hazard assessment, which are used worldwide by the insurance 
industry to distribute risk associated with all types of natural 
hazards. NEHRP is responsible for advanced remote sensing technologies, 
initially developed for post-earthquake reconnaissance, but also 
applied to damage assessment and recovery after hurricanes, such as 
Hurricanes Katrina and Rita. Other examples include methodologies for 
modeling and managing interdependent lifeline systems, active and 
passive control systems to protect buildings and bridges during 
transient loading, seismological contributions to nuclear test and 
explosion monitoring, developments in the Incident Command System for 
multi-agency response to earthquakes and other natural disasters and 
human threats, and post-earthquake building inspection protocols that 
were adapted to evaluate New York City buildings after the World Trade 
Center Disaster.
    NEHRP has been a cornerstone program for technologies and 
methodologies applied to natural hazards. At the same time, it has 
generated a culture of multi-disciplinary innovation through the 
collective enterprise of architects, emergency managers, engineers, 
geoscientists, and social scientists. The multi-disciplinary character 
of NEHRP is one of its most enduring legacies, providing a model for 
future mitigation of natural hazards and human threats.
    As pointed out by EERI (2008), the reauthorization of the 
Earthquake Hazards Reduction Act in 2004 was used as the legislative 
vehicle for introducing and passing the National Windstorm Impact 
Reduction Act of 2004. The multi-agency oversight of NEHRP was used as 
the model for the National Windstorm Impact Reduction Program (NWIRP). 
Both programs are administered with the assistance of a federal 
interagency committee for coordination and an external national 
advisory group that provides guidance and recommendations for program 
activities.
    Designating NIST as the lead agency for NWIRP would provide NIST 
with oversight of both NEHRP and NWIRP. Common leadership would provide 
an opportunity to promote dialogue and coordination between the 
earthquake and windstorm research communities. There should be separate 
funding sources for NEHRP and NWIRP. Strong and secure funding for 
NEHRP is needed to build on the foundation of a successful, multi-
disciplinary earthquake program to support multi-hazard R&D.
    Coordinated hazards R&D is being promoted through USGS with a 
Multi-hazard Demonstration Project in Southern California (USGS 
California Water Science Center, 2009). The objective of this project 
is to increase resiliency to natural hazards by using southern 
California as a testbed. Partners include State, county, and city 
governments, public and private utilities, private businesses, academic 
researchers, emergency response agencies, and representatives of USGS, 
FEMA, and NOAA. The hazards involved in the project are earthquakes, 
floods, wildfires, landslides, coastal erosion, and tsunamis. Similar 
projects in other locations would help develop better coordination of 
hazards R&D across the Federal Government.
    Coordinated hazards research involves diverse research communities 
and constituencies associated with earthquakes, windstorms, floods, 
coastal hazards, wildfires, etc. Each hazard involves scientific 
causes, modeling processes, and engineering practices that differ from 
those related to the other hazards. Coordinating hazards research must 
accommodate different institutional cultures and stakeholders as well 
as a multitude of different government agencies, all of which need to 
be carefully integrated in an effective collaboration. Given the 
complexity of this undertaking, expert advice should be sought from the 
National Academies through the National Research Council (NRC). A 
comprehensive, multidisciplinary study by the NRC should be convened to 
explore the barriers, opportunities, and most promising strategies for 
coordinated hazards research within the Federal Government.

CONCLUDING REMARKS

    The National Earthquake Hazard Reduction Program (NEHRP) provides 
the underpinning for the resilience of U.S. communities to earthquakes. 
It provides federal support for research, information dissemination, 
development and implementation of technology, and the application of 
planning and management procedures to reduce seismic risk. This support 
is critically important because the United States faces serious 
earthquake risk. NEHRP also serves as an incubator for technology, 
practices, and policy for the reduction of risk from other hazards, 
such a floods, windstorms, hurricanes, and human threats. A strong 
NEHRP not only protects U.S. citizens from seismic hazards, but 
provides a cornerstone program for the multi-hazard resilience of U.S. 
communities.
    The most recent reauthorization of NEHRP has brought about changes 
that have been effective in promoting interagency coordination as well 
as a more integrated and cohesive program. An excellent example of 
interagency collaboration is the NEHRP Strategic Plan for FY 2009-2013, 
which outlines strategic priorities, and provides a template for 
coordinated and collaborative efforts among the NEHRP agencies. One of 
the best ways to promote interagency coordination is to increase 
support for NIST to be consistent with current authorized levels. NIST 
plays a pivotal and integrating role in NEHRP, and enabling this role 
with the support envisioned in the last NEHRP reauthorization would 
help greatly to foster increased coordination and effectiveness of the 
program.
    Priorities for earthquake engineering R&D include enhanced support 
for ANSS and NEES. They include a strong and collaborative research 
effort on lifeline systems, with emphasis on the interdependencies of 
critical infrastructure and the national impact of critical lifeline 
losses on regional and national economies. Priorities involve research 
on the social and behavioral aspects of community response to 
earthquakes and other natural hazards, and the interaction of social 
and political factors with engineering design and construction. R&D 
emphasis should be given to Performance Based Seismic Design and the 
identification and development of cost-effective retrofitting 
technologies for non-ductile concrete and other life-threatening 
buildings.
    To promote technology transfer and implementation of research 
findings in U.S. communities, it is vitally important to increase 
support for FEMA. There has been serious erosion in FEMA's dedicated 
program to provide assistance to states with high earthquake risks 
through direct support to their State earthquake program managers. The 
FEMA State earthquake programs and community pilot studies to mitigate 
earthquake risk should be re-vitalized during this reauthorization.
    Of critical importance is the enactment of support for NEHRP that 
was envisioned in the last reauthorization. As expressed in the first 
annual report of the Advisory Committee for Earthquake Hazards 
Reduction (ACEHR), there is concern for the withering of enacted funds. 
Funding for the program has either been flat or below inflation levels 
for the last 30 years. Many effective NEHRP projects important for life 
safety and community resilience have been successfully undertaken 
within the limits of the enacted budgets. These successes show the 
potential for greater impact and effectiveness if the authorized levels 
of support can be realized. Support consistent with authorized levels 
represents the highest priority investment in developing disaster-
resilient communities.

REFERENCES

Advisory Committee for Earthquake Hazards Reduction (ACEHR) (2008) 
        ``Effectiveness of the National Earthquake Hazards Reduction 
        Program,'' May, available through the National Institute of 
        Standards and Technology, Gaithersburg, MD.

American Society of Civil Engineers (2009) ``2009 Report Card for 
        America's Infrastructure,'' American Society of Civil 
        Engineers, Reston, VA http://www.asce.org/report card/2009/

American Society of Civil Engineers (ASCE) (2006) ``Minimum Design 
        Loads for Buildings and Other Structures,'' ASCE/SEI 7-05, 
        American Society of Civil Engineers, Reston, VA.

Earthquake Engineering Research Institute (EERI) (2003), ``Securing 
        Society Against Catastrophic Earthquake Losses,'' Earthquake 
        Engineering Research Institute, Oakland, CA, March.

Earthquake Engineering Research Institute (EERI) (2008), 
        ``Contributions of Earthquake Engineering to Protecting 
        Communities and Critical Infrastructure from Multi-hazards,'' 
        Earthquake Engineering Research Institute, Oakland, CA, Nov.

Federal Emergency Management Agency (FEMA) (2001), ``HAZUS 99 Estimated 
        Annualized Losses for the United States,'' Federal Emergency 
        Management Agency, Mitigation Directorate, FEMA 366.

Interagency Coordinating Committee (ICC) (2008) ``Strategic Plan for 
        the National Earthquake Hazards Reduction Program, Fiscal Years 
        2009-2013,'' Oct., available through the National Institute of 
        Standards and Technology, Gaithersburg, MD.

International Code Council (ICI) (2006), International Building Code, 
        International Code Council, Falls Church, VA.

National Research Council (2006) ``Facing Hazards and Disasters: 
        Understanding Human Dimensions,'' National Academies Press, 
        Washington, DC.

National Institute for Standards and Technology (NIST) (2009), 
        ``Research Required to Support Full Implementation of 
        Performance-Based Seismic Design,'' NIST GCR 09-917-2, Apr., 
        National Institute of Standards and Technology, Gaithersburg, 
        MD.

Public Law 108-360 (2004), ``Earthquake Hazards Reduction Act of 
        1977,'' Public Law 95-124, 42 U.S.C. 7701 et seq. as amended by 
        Public Law 108-360.

USGS California Water Science Center (2009), ``Urban Earth: A Multi-
        hazards Demonstration Project in Southern California,'' http://
        ca.water.usgs.gov/projects/hazards.html

                    Biography for Thomas D. O'Rourke

    Professor O'Rourke is the Thomas R. Briggs Professor of Engineering 
in the School of Civil and Environmental Engineering at Cornell 
University. He is a member of the U.S. National Academy of Engineering 
and a Fellow of American Association for the Advancement of Science. He 
has received several awards from professional societies, including the 
Collingwood, Huber Research, C. Martin Duke Lifeline Earthquake 
Engineering, Stephen D. Bechtel Pipeline Engineering, and Ralph B. Peck 
Awards from American Society of Civil Engineers (ASCE), Hogentogler 
Award from American Society for Testing and Materials, Rankine Lecture 
sponsored by the British Geotechnical Association, Trevithick Prize 
from the British Institution of Civil Engineers, and Japan Gas and 
Earthquake Engineering Research Institute (EERI) Awards for outstanding 
papers. He served as President of EERI, as a member of the National 
Academies Committee for New Orleans Regional Hurricane Protection 
Projects, and currently as a member of both the Advisory Committee for 
Earthquake Hazards Reduction, which provides oversight advice the 
National Earthquake Hazards Reduction Program, and the National 
Academies Board on Water Science and Technology. He has authored or co-
authored over 340 technical publications. He has served as Chair or 
member of the consulting boards of many large underground construction 
projects, as well as the peer reviews for projects associated with 
highway, rapid transit, water supply, and energy distribution systems. 
He has been involved in numerous earthquake reconnaissance missions. 
His research interests cover geotechnical engineering, earthquake 
engineering, underground construction technologies, engineering for 
large, geographically distributed systems, and geographic information 
technologies and database management.

    Chair Wu. Thank you very much, Professor O'Rourke. Dr. 
Lindell, please proceed.

   STATEMENT OF DR. MICHAEL K. LINDELL, PROFESSOR, LANDSCAPE 
    ARCHITECTURE AND URBAN PLANNING; SENIOR SCHOLAR, HAZARD 
       REDUCTION & RECOVERY CENTER, TEXAS A&M UNIVERSITY

    Dr. Lindell. Good morning. My remarks today in support of 
the NEHRP reauthorization will be based substantially on 
recommendations of the National Science Foundation's Second 
Assessment of Research on Natural Hazards and the National 
Academy of Sciences Committee on Disaster Research in the 
Social Sciences.
    I would like to address the first question, what is the 
role of social science research in making communities hazard 
resilient, by noting that one of the Second Assessment 
committees concluded that households and businesses typically 
are unaware of the risks they face, underestimate the risks of 
which they are aware, and overestimate their ability to cope 
when disaster strikes. These limitations lead them to encroach 
into high hazard areas, underutilize pre-impact hazard 
mitigation and preparedness and rely too much on post-impact 
emergency response and disaster relief.
    Thus, the role of social scientists is to better understand 
the psychological, social, economic, and political causes of 
community hazard vulnerability. Second, we want to 
scientifically test possible ways to increase hazard 
resilience. Third, we seek to work with other disciplines to 
disseminate administrative as well as technological innovations 
that increase community hazard resilience.
    Regarding the second question, how has social science been 
integrated into NEHRP activity and other federal hazards R&D, I 
want to say that the cornerstone of NEHRP support for social 
science hazards research over the past decades has been the 
NSF's Engineering Directorate, either alone or in collaboration 
with its Social, Behavioral, and Economic Sciences Directorate. 
In addition, USGS and FEMA have supported research and 
dissemination of social science findings.
    Regarding the third question, what are the priorities for 
social science for a reauthorization of NEHRP and other federal 
hazards R&D programs, I want to discuss priorities in three 
areas, hazard and vulnerability analysis, pre-impact actions, 
and post-impact actions.
    Regarding hazard vulnerability analysis, the major social 
science question is which population segments and economic 
sectors are most vulnerable to disasters, what are their points 
of vulnerability, and what can government and non-governmental 
organizations do to reduce this vulnerability? We have already 
identified vulnerable population segments, but we need to learn 
more about the specific difficulties they have in hazard 
mitigation, emergency preparedness, disaster recovery, and 
insurance purchase. Similarly, we need to know more about 
businesses and how their vulnerability varies by economic 
sector and what specific difficulties they experience. 
Addressing these questions through longitudinal studies that 
track households and businesses over time will tell us how 
government and non-governmental organizations can more 
effectively provide assistance.
    With regard to pre-impact actions, we know that households 
and businesses are not taking adequate levels of pre-impact 
action, and we have some explanations for why this is so. In 
some cases the solution is to invest in risk communication 
programs, but we still have much to learn about how to persuade 
people to prepare for low-probability, high-impact events such 
as earthquakes. In addition, research is needed to determine 
how to design extrinsic inducement programs--incentives and 
sanctions--so they provide the greatest increase in community 
resilience for the minimum cost to government and non-
governmental organizations. In particular, we need large-scale, 
coordinated field experiments that involve collaboration 
between communities that are willing to adopt innovative 
programs and social scientists who will evaluate these 
programs.
    With regard to post-impact actions, this country made a 
major commitment after 9/11 to implement the Incident Command 
System [ICS]. ICS is a major improvement over the multiplicity 
of idiosyncratic systems that it is displacing, but it deserves 
systematic evaluation to assess its limitations and identify 
improvements. In the more than 30 years since its inception, 
there have only been a handful of empirical studies on its 
effectiveness; a program that the Federal Government mandates 
for local governments to qualify for disaster reimbursement 
should be examined more thoroughly than that.
    We know that communities recover more rapidly if they 
engage in pre-impact recovery planning, but most wait until 
after disaster strikes to plan for the recovery. As a 
consequence, recovery is slow, stakeholders are frustrated, and 
hazard mitigation is poorly integrated into the recovery 
process. Thus, systematic social science is needed in this area 
also.
    Finally, I strongly endorse efforts to promote a multi-
hazard approach to increasing community resilience. Over the 
past 30 years, I have done research in floods, volcanic 
eruptions, volcanic hazards at fixed-site facilities and 
transportation, toxic chemical facilities, earthquakes, 
hurricanes, and tsunamis. Although there are findings that are 
specific to each of these hazards, there are many commonalities 
that would provide multi-hazard research with an opportunity to 
achieve extremely beneficial outcomes that would reinforce the 
findings in different hazards. Thank you.
    [The prepared statement of Dr. Lindell follows:]

                Prepared Statement of Michael K. Lindell

    Good morning. My name is Dr. Michael K. Lindell; I am a Professor 
at Texas A&M University and conduct emergency management research in 
the Hazard Reduction & Recovery Center. I want to thank you for the 
opportunity to speak on behalf of the many social scientists who are 
conducting research supported by NEHRP agencies. My remarks today will 
be based substantially on the analyses and recommendations of the 
National Science Foundation's Second Assessment of Research on Natural 
Hazards and the National Academy of Sciences Committee on Disaster 
Research in the Social Sciences (see Attachments 1 and 2).

1.  What is the role of social science research in making communities 
hazard resilient?

    One of the committee reports from the NSF's Second Assessment 
concluded that households and businesses typically are unaware of the 
risks they face, underestimate the risks of which they are aware, and 
overestimate their ability to cope when disaster strikes. In addition, 
they have competing demands for their attention, short planning 
horizons, bounded rationality, and limited economic resources. These 
limitations increase communities' hazard vulnerability because they 
lead households and businesses to encroach into high hazard areas, 
underutilize pre-impact hazard mitigation and preparedness, and rely 
too much on post-impact emergency response and disaster relief.
    Thus, the role of social scientists is threefold. First, we seek to 
better understand the psychological, social, economic, and political 
causes of community hazard vulnerability. Second, we want to 
scientifically test possible ways to increase hazard resilience. Third, 
we seek opportunities to work with emergency managers, architects, 
engineers, planners, and public administrators to disseminate 
administrative and technological innovations that increase community 
hazard resilience.

2.  How has social science been integrated into NEHRP activity and 
other federal hazards R&D?

    The cornerstone of NEHRP support for social science hazards 
research has been NSF's Engineering Directorate either alone or in 
collaboration with its Social, Behavioral, and Economic Sciences 
Directorate. NSF has primarily supported unsolicited proposals 
submitted by individual investigators and solicitations in response to 
domestic and international disasters. In addition, USGS has supported 
social science evaluations of some of its hazard awareness programs 
(Mileti & Darlington, 1995; Mileti & Fitzpatrick, 1993; Perry, 1990; 
Perry & Lindell, 2008) and FEMA has supported dissemination of social 
science research findings through its Higher Education Initiative 
(training.fema.gov/EMIWeb/edu/). Most of the social science projects 
funded by federal research programs have involved investigators from a 
single discipline. However, there have also been projects involving 
collaboration among multiple social science disciplines and, sometimes, 
social scientists collaborating with engineers and physical scientists. 
There have also been a few interdisciplinary efforts such as NSF's 
Human and Social Dynamics Program and its Earthquake Engineering 
Research Centers. As yet, these efforts are only beginning to develop 
the kinds of interdisciplinary cooperation that is needed to increase 
community hazard resilience.

3.  What are the priorities for social science for a reauthorization of 
NEHRP and other federal hazards R&D programs?

    I will discuss priorities in three major areas--hazard and 
vulnerability analysis, pre-impact actions (hazard mitigation and 
disaster preparedness) and post-impact actions (emergency response and 
disaster recovery). I will conclude with a discussion of the utility of 
an all-hazards approach in social science research.

Hazard/vulnerability analysis
    Although it is something of an oversimplification, we can say that 
physical scientists identify which geographic areas are exposed to 
hazards and engineers address which structures are most likely to fail. 
The corresponding social science question is ``Which population 
segments and economic sectors are most vulnerable to disasters, what 
are their points of vulnerability, and what can government and non-
governmental organizations (NGOs) do to reduce this vulnerability?'' Of 
course, we know that ethnic minorities, female-headed households, 
poorly educated, low income, physically or mentally disabled, and 
socially isolated citizens are disadvantaged--even under the best of 
circumstances. Thus, we expect them to be most vulnerable to disasters 
(e.g., Bolin & Stanford, 1998; Peacock, Morrow & Gladwin, 1997). 
However, we need to learn more about the specific difficulties they 
have in hazard mitigation, emergency preparedness, and insurance 
purchase. We also know in broad terms that small businesses are more 
vulnerable to disasters. However, we need to know more about how 
businesses' vulnerability varies by economic sector and what specific 
difficulties they experience (Alesch, Taylor, Ghanty, & Nagy, 1993; 
Webb, Tierney & Dahlhamer, 2000). For both households and businesses, 
we need to know more about how government and NGOs can more effectively 
provide assistance. Answering these questions will require longitudinal 
studies that track households and businesses over extended periods of 
time.

Pre-impact actions
    In general terms, we already know what needs to be done to make 
communities more disaster resilient. At the household level, pre-impact 
actions include hazard mitigation (bolting structures to their 
foundations and strapping water heaters to walls) and disaster 
preparedness (storing food and water, purchasing first aid kits and 
learning how to treat minor injuries, and purchasing hazard insurance). 
For emergency response organizations, pre-impact actions include 
developing plans, acquiring resources, and conducting training and 
exercises to support emergency response--as well as engaging in 
mitigation actions to ensure their buildings and material resources 
survive a disaster. At the community level, pre-impact actions include 
land use plans that discourage intensive development of high hazard 
areas and prohibit the siting of highly vulnerable facilities such as 
hospitals, nursing homes, and schools in high hazard areas. They also 
include programs such as building codes and standards to increase 
buildings' elevation (for flooding) and structural resilience (for wind 
and earthquakes) if they are built in high hazard areas.
    At all levels--households, businesses, and communities--we know 
that the level of pre-impact action is inadequate. Social scientists 
have published many small-scale studies that suggest why this is so 
(Lindell, Arlikatti & Prater, in press; Lindell & Perry, 2000). We know 
that people will voluntarily adopt hazard adjustments that are high in 
efficacy--ones that protect persons and property and are useful for 
other purposes. We also know that they will not voluntarily adopt 
hazard adjustments that are high in resource requirements--ones that 
are expensive, or require substantial time and effort, specialized 
knowledge and skill, specialized tools and equipment, or substantial 
amounts of cooperation with others. A major obstacle to improving 
community hazard resilience is that some of the most promising hazard 
adjustments--hazard insurance for example--have very low rates of 
adoption. In some cases, the problem is that people have erroneous 
beliefs about these hazard adjustments. That is, people underestimate 
efficacy or overestimate resource requirements. Worse yet, people often 
don't know about the existence of many of the hazard adjustments that 
are available. In such cases, the level of hazard adjustment adoption 
might be increased by investing in risk communication programs. 
Although we know much more about risk communication than we did thirty 
years ago, we still have much to learn about how to persuade people to 
prepare for low-probability events such as earthquakes (Lindell & 
Perry, 2004). Especially when people fail to adopt hazard adjustments 
because the personal cost of a hazard adjustment exceeds the short-term 
personal benefits, extrinsic inducement programs--incentives and 
sanctions--may be needed. However, research is needed to determine how 
to design these inducements so they provide the greatest increase in 
community resilience for the minimum cost to government and NGOs.
    Current research provides an adequate base of small-scale studies 
for designing comprehensive research on the effects of incentives, 
sanctions, and risk communication. What we most need to do next is to 
conduct large-scale coordinated field experiments. We know that there 
are many communities that are willing to undertake--and in many cases 
have actually implemented--innovative programs to promote hazard 
resilience. Unfortunately, only a few of these programs are documented 
and fewer still have been scientifically evaluated. This is a major 
disappointment because every one of these situations represents a 
squandered opportunity to learn from experience. As noted earlier, USGS 
has supported some small studies that begin to address this issue. 
However, we can do much more if NEHRP will support collaboration 
between communities that are willing to adopt innovative programs and 
social scientists who will collect and analyze data from these programs 
to evaluate their effectiveness.

Post-impact actions
    Although household actions are important, some of the most 
important emergency response and disaster recovery actions are taken by 
community organizations. Coordination has repeatedly been identified as 
a major problem in emergency response and the challenges seems to 
increase with the magnitude of the disaster. This country made a major 
commitment after 9/11 to adopting the Incident Command System (ICS) as 
a mechanism for coordinating disaster response. ICS is a major 
improvement over the multiplicity of idiosyncratic systems that it is 
displacing, but it deserves systematic evaluation to assess its 
limitations and identify improvements. In the more than thirty years 
since its inception, there have been only a handful of empirical 
studies on ICS effectiveness (see Lutz & Lindell, 2008). A program that 
the Federal Government mandates for local governments to qualify for 
disaster reimbursement should be examined more thoroughly than that.
    We have textbooks (Phillips, 2009) and planning guidance (Natural 
Hazards Center, 2001; Schwab, Topping, Eadie, Deyle & Smith, 1998) that 
identify problems and recommend solutions for a timely and effective 
disaster recovery. There is evidence that communities recover more 
rapidly if they engage in pre-impact recovery planning (Wu & Lindell, 
2004) but most communities wait until after a disaster strikes to plan 
their recovery. As a consequence, the pace of recovery is slow, 
stakeholders (especially vulnerable populations) are frustrated, and 
hazard mitigation is poorly integrated into disaster recovery plans, 
causing communities to recreate their pre-existing hazard 
vulnerability. Thus, systematic social science research is needed on 
communities of different sizes and different economic bases to 
determine what can be done to improve post-disaster recovery planning. 
This will help all population segments and economic sectors recover 
more rapidly and completely and reduce the problem of repetitive 
losses.

All-hazards social science research
    Finally, I would like to conclude by presenting some reasons why 
NEHRP agencies should support social science research on a variety of 
hazards. A basic premise for hazards researchers is that we have 
limited opportunities to study earthquake emergency response and 
recovery in the U.S. because major earthquakes are, thankfully, rare. 
We can learn much by studying societal response to earthquakes in other 
countries and numerous Earthquake Engineering Research Institute 
studies have done so. However, we also need to take advantage of the 
lessons that can be learned from studying other, more frequent, hazards 
in this country. Indeed, most environmental hazards are relevant and 
there are two reasons why this is so. First, earthquakes can themselves 
generate secondary threats--including tsunami, landslides, dam 
failures, urban conflagrations, and hazardous materials releases. In 
fact, earthquakes and their secondary hazards cover most of the 
spectrum of disaster impacts to which the U.S. is vulnerable.
    Second, there appear to be significant similarities in societal 
responses to different hazards. Specifically, even though a hazard 
agent might be caused by physical mechanisms that are quite different 
from those that cause earthquakes, the two hazards can still have 
critical impact characteristics in common (see Lindell, Prater & Perry, 
2006, for further discussion of cross-hazard similarities). For 
example, tornadoes are generated by quite different physical systems 
than are earthquakes. However, both are rapid onset disasters that 
provide minimal or no warning. The similarity in the impact 
characteristics of the two events produces similar societal responses. 
As a consequence of this principle, hazard mitigation functions (such 
as land use planning and building codes) and emergency preparedness 
functions (such as planning, training, and exercising) are similar for 
most environmental hazards. The same is true for disaster recovery 
functions such as debris removal, donations management, temporary 
housing. Even the needs for emergency response functions such as search 
and rescue, emergency sheltering, interagency coordination, and 
emergency public information are similar across disasters. It is true 
that there are some emergency response functions such as pre-impact 
warning and evacuation that are not possible with current earthquake 
detection technology. However, earthquakes' secondary hazards such as 
dam failures and tsunami can be detected far enough in advance to 
support even these functions. Consequently, what social scientists can 
learn from mitigation, preparedness, response, and recovery associated 
with seemingly dissimilar hazards--such as hurricanes, floods, and 
tornadoes--can be effectively applied to reducing community 
vulnerability to earthquakes.

                               REFERENCES

              Reports from the National Science Foundation
            Second Assessment of Research on Natural Hazards

Burby, R.J. (ed.) (1998). Cooperating with Nature: Confronting Natural 
        Hazards with Land Use Planning for Sustainable Communities. 
        Washington, DC: Joseph Henry Press.

Cutter, S.L. (2001). American Hazardscapes: The Regionalization of 
        Hazards and Disasters. Washington, DC: Joseph Henry Press.

Kunreuther, H. & Roth, R.J., Sr. (1998). Paying the Price: The Status 
        and Role of Insurance Against Natural Disasters in the United 
        States. Washington DC: Joseph Henry Press.

Lindell, M.K., with Alesch, D., Bolton, P.A., Greene, M.R., Larson, 
        L.A., Lopes, R., May, P.J., Mulilis, J-P., Nathe, S., Nigg, 
        J.M., Palm, R., Pate, P., Perry, R.W., Pine, J., Tubbesing, 
        S.K. & Whitney, D.J. (1997). Adoption and implementation of 
        hazard adjustments. International Journal of Mass Emergencies 
        and Disasters Special Issue, 15, 327-453.

Mileti, D.S. (1999). Disasters by Design: A Reassessment of Natural 
        Hazards in the United States. Washington DC: Joseph Henry 
        Press.

Sorensen, J.H. (2000). Hazard warning systems: Review of 20 years of 
        progress. Natural Hazards Review, 1, 119-125.

Tierney, K.J., Lindell, M.K. & Perry, R.W. (2001). Facing the 
        Unexpected: Disaster Preparedness and Response in the United 
        States. Washington DC: Joseph Henry Press.

              Report from the National Academy of Sciences
         Committee on Disaster Research in the Social Sciences

Committee on Disaster Research in the Social Sciences. (2006). Facing 
        Hazards and Disasters: Understanding Human Dimensions. 
        Washington DC: National Academy of Sciences.

Other References

Alesch, D.J., Taylor, C., Ghanty, S. & Nagy, R.A. (1993). Earthquake 
        risk reduction and small business. In Committee on 
        Socioeconomic Impacts (eds.) 1993 National Earthquake 
        Conference Monograph 5: Socioeconomic impacts (pp. 133-160). 
        Memphis TN: Central United States Earthquake Consortium.

Bolin, R.C. & Stanford, L. (1998). The Northridge earthquake: 
        Vulnerability and disaster. London: Routledge.

Lindell, M.K., Arlikatti, S. & Prater, C.S. (in press). Why people do 
        what they do to protect against earthquake risk: Perceptions of 
        hazard adjustment attributes. Risk Analysis.

Lindell, M.K. & Perry, R.W. (2000). Household adjustment to earthquake 
        hazard: A review of research. Environment & Behavior, 32, 590-
        630.

Lindell, M.K. & Perry, R.W. (2004). Communicating Environmental Risk in 
        Multiethnic Communities. Thousand Oaks CA: Sage.

Lindell, M.K., Prater, C.S. & Perry, R.W. (2006). Fundamentals of 
        Emergency Management. Emmitsburg MD: Federal Emergency 
        Management Agency Emergency Management Institute. Available at 
        www.training.fema.gov/EMIWeb/edu/fem.asp

Lutz, L.D. & Lindell, M.K. (2008). The Incident Command System as a 
        response model within emergency operation centers during 
        Hurricane Rita. Journal of Contingencies and Crisis Management, 
        16, 122-134.

Mileti, D.S. & Darlington, J.D. (1995). Societal response to revised 
        earthquake probabilities in the San Francisco Bay area. 
        International Journal of Mass Emergencies and Disasters, 13, 
        119-145.

Mileti, D. & Fitzpatrick, C. (1993). The Great Earthquake Experiment: 
        Risk Communication and Public Action. Boulder CO: Westview 
        Press.

Natural Hazards Center. (2001). Holistic Disaster Recovery: Ideas for 
        Building Local Sustainability After a Natural Disaster. Boulder 
        CO: University of Colorado Natural Hazards Center.

Peacock, W.G., Morrow, B.H. & Gladwin, H. (1997). Hurricane Andrew: 
        Ethnicity, Gender and the Sociology of Disaster. London: 
        Routledge.

Perry, R.W. (1990). Volcanic hazard perceptions at Mt. Shasta. The 
        Environmental Professional, 12, 312-318. 1990.

Perry, R.W. & Lindell, M.K. (2008). Volcanic risk perception and 
        adjustment in a multi-hazard environment. Journal of 
        Volcanology and Geothermal Research, 172, 170-178.

Phillips, B.D. (2009). Disaster Recovery. Boca Raton FL: CRC Press.

Schwab, J., Topping, K.C., Eadie, C.C., Deyle, R.E. & Smith, R.A. 
        (1998). Planning for Post-Disaster Recovery and Reconstruction, 
        PAS Report 483/484. Chicago IL: American Planning Association.

Webb, G.R., Tierney, K.J. & Dahlhamer, J.M. (2000). Business and 
        disasters: Empirical patterns and unanswered questions. Natural 
        Hazards Review, 1, 83-90.

Wu, J.Y. & Lindell, M.K. (2004). Housing reconstruction after two major 
        earthquakes: The 1994 Northridge earthquake in the United 
        States and the 1999 Chi-Chi earthquake in Taiwan. Disasters, 
        28, 63-81.

Attachment 1

         Committee on Disaster Research in the Social Sciences
        Summary of the Current State of Social Science Research
    The [Committee on Disaster Research in the Social Sciences] 
assessment of the current state of social science research is based on 
a detailed review of scientific literature in the field. The report's 
authoring committee also benefited from presentations and discussions 
that took place during two workshops held in conjunction with committee 
meetings, one in Washington, DC and the other in Irvine, California. 
Participants in the first workshop included researchers from the multi-
disciplinary hazards and disaster research community, practitioners, 
and representatives from various agencies. All participants in the 
second workshop were practitioners. Based on this input, the report 
draws the following conclusions about the current state of social 
science research:

1.  Social science hazards and disaster research has advanced in the 
United States and internationally.

    Under NEHRP social science knowledge has expanded greatly with 
respect to exposure and vulnerability (physical and social) to natural 
hazards in the United States, such that the foundation has been 
established for developing more precise loss estimation models and 
related decision support tools for hazards and disasters generally. The 
contribution of NEHRP to social science knowledge on natural hazards is 
less developed internationally as is its contribution nationally and 
internationally on exposure and vulnerability to technological and 
willful threats.

2.  Social science knowledge about the responses of U.S. households to 
natural hazards and disasters is well-developed.

    There is a solid knowledge base at the household level of analysis 
on vulnerability assessment, risk communication, evacuation and other 
forms of protective action, and expedient disaster mitigation 
activities--for example, how people in earthquake or flood prone 
regions communicate about risks and warning messages, and how they 
respond to warning messages. The knowledge base and related explanatory 
modeling under NEHRP are skewed toward natural hazards (most notably 
earthquakes) as opposed to technological and willful hazards, and so 
far they have been confined primarily to national rather than 
international contexts.

3.  Far less is known about how the characteristics of different types 
of hazards affect disaster preparedness and response.

    There has been little systematic comparative work on the special 
characteristics of natural, technological, and willful disasters (e.g., 
predictability and controllability; length of forewarning, magnitude, 
scope, and duration of impact) and their relationships with physical 
and social impacts. For example, how does the variation in warning 
time--little or no warning for an earthquake, short-term warning for 
tornadoes, longer-term warnings for hurricanes, and indeterminate 
warnings for terrorist attacks--affect preparedness and response? 
Greater understanding of event/impact relationships would directly 
facilitate the adoption of more effective disaster preparedness and 
mitigation practices.

4.  More is known about immediate post-disaster responses of groups, 
organizations, and social networks than about mitigation or disaster 
recovery policies and practices.

    While less so than the post-World War II studies that preceded 
NEHRP's establishment in 1977, NEHRP-sponsored social science research 
has still tended to focus more on the immediate aftermath of disasters 
(post-disaster responses) and related emergency preparedness practices 
than on the affects of pre-disaster mitigation policies and practices, 
disaster recovery preparedness or longer term recovery from specific 
events. Research over several decades has contradicted myths that 
during disasters panic will be widespread, that large percentages of 
those who are expected to respond will simply abandon disaster roles, 
that local institutions will break down, that crime and other forms of 
anti-social behavior will be rampant, and that psychological impairment 
of victims and first responders will be a major problem. The more 
interesting and important research questions have become how and why 
communities, regions, and societies leverage expected and improvised 
post-impact responses in coping with the circumstances of disasters. 
While much of organizational response to disaster is expected and 
sometimes planned, improvisation is an absolutely essential complement 
of predetermined activities.

5.  The circumstances of terrorist threats could alter societal 
response to disasters.

    The possibility exists that some future homeland security 
emergencies could engender responses that are different from those 
observed in previous post-disaster investigations of natural and 
technological disasters. Particular attention is being given post-
September 11, 2001 to vulnerability assessment of national energy, 
transportation, and information systems, terrorist threat detection and 
interdiction, the special requirements of nuclear, biological, and 
chemical agents, and the organizational requirements of developing 
multi-governmental preparedness and response systems. Fortunately these 
concerns are readily subsumed within the historically mainstream topics 
of hazards and disaster research depicted in Figure 1 above.

6.  NEHRP has made important contributions to understanding longer-term 
disaster recovery.

    Prior to NEHRP relatively little was known about disaster recovery 
processes and outcomes at different levels of analysis (e.g., 
households, neighborhoods, firms, communities, and regions). While 
research on disaster recovery remains somewhat underdeveloped, NEHRP 
funded projects have refined general conceptions of disaster recovery, 
made important contributions in understanding the recovery of 
households (primarily) and firms (more recently), and contributed to 
the development of statistically based community and regional models of 
post-disaster losses and recovery processes. Moreover, interest in the 
relationship between disaster recovery and sustainable development has 
become sufficiently pronounced in this field that the committee has 
allocated an entire chapter of the report to its consideration.

7.  The management and accessibility of data needs immediate attention.

    Thus far social scientists have not confronted systematically 
issues related to the management and accessibility of data--from its 
original collection and analysis, to its longer-term storage and 
maintenance, and to ensuring its accessibility over time to multiple 
users. What the committee has termed the ``hazards and disaster 
research informatics problem'' is not unique to this research 
specialty, or to the social sciences, natural sciences, and engineering 
generally. But the informatics problem demands immediate attention and 
resolution as a foundation for future research and application of 
findings.

8.  How research is communicated and applied is not well understood.

    More systematic research is needed on how hazards and disaster 
information generated by the social sciences and other disciplines is 
disseminated and applied. Such research will provide clearer 
understanding of what can be done within hazards and disaster research 
to further the dissemination of knowledge, thereby advancing sound 
mitigation, preparedness, response, and recovery practices.

9.  A more diverse, interdisciplinary, and technologically 
sophisticated social science workforce is needed in the future.

    Given the national and international importance of natural, 
technological, and willful disasters, the next generation of social 
scientists studying these events should become larger, more diverse, 
and more conversant with interdisciplinary perspectives and state-of-
the-art research methods and technologies than the previous generation.

Recommended Improvements to Hazards and Disaster Research

    Grounded in the above conclusions, the report offers 38 separate 
recommendations for improving how hazards and disasters research in the 
social sciences is conducted and used to inform policy and decision-
making. The recommendations, the majority of which relate to the need 
for comparative studies of societal responses to natural, technological 
and willful hazards and disasters, are encapsulated in the following 
three summary recommendations.

Summary Recommendation 1:

    Comparative research should be conducted to refine and measure core 
components of societal vulnerability and resilience to hazards of all 
types, to address the special requirements of confronting disasters 
caused by terrorist acts, and to advancing knowledge about mitigation, 
preparedness, response, and recovery related to disasters having 
catastrophic physical and social impacts. The recommended comparative 
research is essential for isolating common from unique aspects of 
societal response to natural, technological, and willful hazards and 
disasters. A key contribution of NSF through NEHRP over the years has 
been that, while necessarily emphasizing earthquakes, since its 
inception the program has encouraged and supported comparisons of 
societal responses to earthquakes with other natural as well as 
technological hazards and even with terrorist induced events, though 
less so. This historical emphasis within NEHRP dictates that a rigorous 
approach should prevail in making generalizations to terrorism and that 
there is a continuing need for systematic comparisons of all societal 
hazards and disasters using the conceptual and methodological tools 
summarized in this report. A comparative perspective should be 
sustained within NSF and also prevail in the new DHS.

Summary Recommendation 2:

    Strategic planning and institution building are needed to address 
issues related to the management and sharing of data on hazards and 
disasters (hazards and disaster informatics), sustain the momentum of 
interdisciplinary research, advance the utilization of social science 
findings, and sustain the hazards and disaster research workforce. Of 
particular importance because of its direct relationship to Summary 
Recommendation 1 is the call for strategic planning to address issues 
of data management and data sharing. A Panel on Hazards and Disaster 
Informatics should be created to guide these efforts. The Panel should 
be interdisciplinary and include social scientists and engineers from 
hazards and disaster research as well as experts on informatics issues 
from cognitive science, computational science, and applied science. The 
Panel's mission should be, first, to assess problems of data 
standardization, data management and archiving, and data sharing as 
they relate to natural, technological, and willful hazards and 
disasters, and second, to develop a formal plan for resolving these 
problems to every extent possible within the next five years.

Summary Recommendation 3:

    NSF and DHS should jointly support the comparative research, 
strategic planning, and institution building called for in Summary 
Recommendations 1-2. The proposed leveraging of NSF with DHS support is 
critical because these two agencies are focal points of federal funding 
for research on all types of extreme events. The two agencies should 
take advantage of opportunities to leverage their resources by jointly 
funding social science hazards and disaster research whenever possible. 
This could lead to a better understanding of the similarities and 
differences between natural, technological, and human-induced hazards 
and disasters. It could also provide the foundation for sound science-
based decision-making by policy-makers and practitioners, whether they 
are developing measures to counter a major natural disaster like 
Hurricane Katrina or a terrorist-induced event like the September 11th 
attacks on the World Trade Center and Pentagon. Social science research 
on the September 11, 2001 terrorist attacks as well as more limited 
observations that have been made thus far on Hurricane Katrina 
indicate, first, that many previous findings about societal response to 
hazards and disasters remain valid, and second, that there is still 
much to be learned about responses to truly catastrophic events.

    Source: http://dels.nas.edu/dels/rpt<INF>-</INF>briefs/
facing<INF>-</INF>hazards<INF>-</INF>brief<INF>-</INF>final.pdf

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    Biography for Michael K. Lindell

    Dr. Lindell has a Ph.D. in Social Psychology from the University of 
Colorado (1975) with a specialty in disaster research and has completed 
hazardous materials emergency responder training through the Hazardous 
Materials Specialist level. During his 35 years in emergency 
management, he has conducted research on the processes by which 
individuals and organizations respond to natural and technological 
hazards. In addition, he has provided technical assistance to 
government agencies, industry groups, and private corporations in 
development of emergency plans and procedures. His recent teaching 
duties have included one emergency management course at the 
undergraduate level (Introduction to Emergency Management) and three at 
the graduate level (Community and Organizational Response to Disasters, 
Disaster Recovery and Hazard Mitigation, and Disaster Response 
Planning). He has also served as an adjunct faculty for the Federal 
Emergency Management Agency's National Emergency Training Center, 
lecturing on disaster psychology and public response to warning.
    Dr. Lindell has made over 170 presentations before scientific 
societies and in short courses for emergency planners in this country 
and abroad. He organized and chaired an American Society of Civil 
Engineers (ASCE) Specialty Conference on Hazardous Facilities, served 
on the ASCE Task Committee on Natural Disaster Reduction, and served 
twice as Secretary of the Executive Committee of the ASCE Council on 
Natural Disaster Reduction. He co-chaired the organizing committee for 
a conference on protective action decision-making in nuclear power 
plant accidents and was a member of the steering committee for a 
similar conference on protective action decision-making in chemical 
emergencies. He participated in the NSF's Second Assessment of Research 
and Applications on Natural Hazards, serving as a member of the 
committee on Preparedness and Response, and chairing the committee on 
Adoption, Implementation, and Evaluation of Hazard Adjustments. He has 
served seven times as a consultant to the International Atomic Energy 
Agency in developing planning guidance for response to nuclear and 
radiological incidents, has made three presentations to National 
Academy of Sciences panels, and was a member of two National Academy of 
Sciences panels--Disaster Research in Social Sciences and Assessing 
Vulnerabilities Related to the Nation's Chemical Infrastructure. He 
recently served as an external reviewer for the National Oceanographic 
and Atmospheric Administration's National Tsunami Hazard Mitigation 
Program and the U.S. Department of Homeland Security's Center for 
Studies of Terrorism and Responses to Terrorism, and currently is a 
member of the National Earthquake Hazard Reduction Program's Advisory 
Committee on Earthquake Hazard Reduction. He has conducted research or 
provided technical services to 40 different organizations in the public 
and private sectors. In addition, Dr. Lindell has reviewed research 
proposals for 20 different foreign, federal, and State agencies as well 
as performing manuscript reviews for over 40 different journals in the 
social, environmental, and engineering sciences. He has written 
extensively on emergency management and is the author of 70 technical 
reports, 90 journal articles and book chapters, and ten books. He 
recently published a book on risk communication in multiethnic 
communities (Sage, 2004) and a textbook on community emergency planning 
(Wiley, 2006). He also completed an introductory textbook on emergency 
management under contract to the Federal Emergency Management Agency, a 
condensed version of which has been published by Wiley (2006). Dr. 
Lindell is currently the editor of the International Journal of Mass 
Emergencies and Disasters.

    Chair Wu. Thank you very much, Dr. Lindell. Dr. Harris, 
please proceed.

STATEMENT OF DR. JAMES ROBERT HARRIS, PRESIDENT, J.R. HARRIS & 
                 COMPANY, STRUCTURAL ENGINEERS

    Dr. Harris. Thank you, Chair Wu, and Members of the 
Committee. Good morning. My name is James Harris, and I am 
pleased to be here as you consider reauthorization of the 
National Earthquake Hazards Reduction Program. By the way, I 
will typically refer to it as NERRP [National Earthquake Risk 
Reduction Program] because old habits die hard, and that is a 
fact of life.
    I am a structural engineer. My business is designing 
structures, mainly buildings, to be useful and economical for 
their owners and to be safe for their users and the general 
public. NEHRP impacts what I do, and how well I achieve those 
objectives of my services. I am also a member of and affiliated 
with several other organizations that are deeply interested in 
the success of NEHRP, including the Structural Engineering 
Institute of the American Society of Civil Engineers, the 
Applied Technology Council, The Masonry Society, the American 
Concrete Institute, the American Institute of Steel 
Construction, the Building Seismic Safety Council [BSSC], and 
the Advisory Committee that Tom O'Rourke mentioned earlier.
    My opinions are certainly informed and affected by all of 
those affiliations, but my opinions should be taken as my own 
statements. They are not really endorsed by any organization.
    With regard to how the program has fared since the last 
reauthorization and the changes that were made, I believe the 
level of interagency coordination has improved and the 
effectiveness of the program is beginning to show the result of 
that improvement. In large measure this is due to the work of 
Dr. John Hayes, the man that NIST selected to become the 
director of the program in their agency, but of course he could 
not succeed without the backing of senior management at NIST. I 
have observed the agencies working together on the new 
Strategic Plan for NEHRP, and I have been impressed that they 
did collaborate strongly in putting that plan together.
    It appears to me that the Interagency Coordinating 
Committee is a key element of making that cooperation 
effective, and I encourage Congress to maintain the emphasis 
that the highest levels of management in each of the NEHRP 
agencies be committed to the program. I do want to note my 
appreciation for the leadership that FEMA offered to the 
program in the past. Their focus on implementation of 
mitigation measures is very close to my central focus, and I 
think NEHRP has been singularly successful over the years.
    There are opportunities for improvement. One obvious issue 
is that the appropriated funding of the program should reach 
the authorized levels. I appreciate that arriving at a federal 
budget is an awesome task, but I do want to note that the 
appropriated funds are less than either the authorized amounts 
or the proposed funding in the President's budget for fiscal 
year 2009. The Strategic Plan lays out a very ambitious 
program, but it does not contain budgets. The authorized 
funding levels provide a base level to work towards the goals 
of that plan, and any smaller amounts will simply delay 
progress. Another opportunity for improvement is to either 
deepen the commitment of DHS [Department of Homeland Security] 
to NEHRP or to enhance the ability of the earthquake program at 
FEMA to carry out its mission within the large and developing 
organization that is DHS.
    With regard to the priorities for R&D funding, I certainly 
support the priorities set forth in the recent Strategic Plan 
for improving earthquake resilience of communities that is one 
of the overarching goals of that plan. It is not possible to 
achieve that goal without effective technology transfer. That 
is certainly close to my heart. The continued implementation of 
an expanded, coordinated program of problem-focused research 
and development in earthquake engineering, started at NIST in 
2008 in response to strong recommendations from industry, is a 
key feature of NIST technology transfer. The recommended 
program includes systematic support of the seismic code 
development process, development of resources and tools to 
improve seismic design and construction productivity.
    Another high priority item is continuing the FEMA-funded 
program to develop next-generation performance-based seismic 
design guidelines for new and existing buildings, and there is 
a program plan--I want to make reference to a NIST publication 
prepared with the assistance of BSSC called Research Required 
to Support Full Implementation of Performance Based Seismic 
Design. I want to highlight that to you as high priority R&D.
    About the multi-hazard issue, as a structural engineer I am 
required to consider many natural hazards in the conduct of my 
practice. Earthquake, wind, snow, flood, ice and expansive 
soils all can have significant effects on the designs that I 
prepare. The role of the Federal Government in R&D is quite 
varied across these areas. Earthquakes are a prime example of a 
situation that requires a strong federal effort to make 
progress towards disaster resilience, and NEHRP is a shining 
example of a successful federal program. In my view the needs 
are not the same across this spectrum of hazards, but there are 
certainly unfulfilled needs.
    On the engineering design side, earthquakes are unlike 
wind, snow, flood, or ice. That calls for a lot more support of 
engineering R&D in the earthquake area. On the natural hazard 
definition side the differences do not appear to me to be as 
significant, and the whole idea of predicting the future from 
observation of the past is in the best tradition of strong 
science. The rarity of earthquake events certainly make it an 
interesting problem there.
    I want to note that a recent survey of practicing engineers 
pointed to the wind load provisions of the standard that I am 
deeply involved, and which is the root of the building code 
provisions for structural safety. It is called ``Minimum Design 
Loads for Buildings and Other Structures.'' It is published 
under the designation ASCE/SEI 7. The survey pointed to the 
wind load provisions being very difficult to understand, more 
so than the seismic design provisions, even though conceptually 
they are considerably more difficult, the seismic design 
provisions are. I attribute at least a part of that discrepancy 
to NEHRP because there is no equivalent of BSSC out there for 
wind engineering, and BSSC in no small measure has made our 
seismic design provisions all that much better.
    So overall, I want to compliment the Congress for keeping 
NEHRP going. I want to encourage you to continue to do that, 
and I certainly support the idea of expanding into other 
hazards. Thank you.
    [The prepared statement of Dr. Harris follows:]

               Prepared Statement of James Robert Harris

Chairman Wu and Members of the Committee:

    Good morning. My name is James Harris, and I am pleased to be here 
as you consider reauthorization of the National Earthquake Hazards 
Reduction Program (NEHRP). I am a consulting structural engineer 
employed at J.R. Harris & Company in Denver, Colorado. My business is 
designing structures, mainly buildings, to be useful and economical for 
their owners and to be safe for their users and the general public. 
NEHRP impacts what I do, and how well I achieve the objectives of my 
service.
    I am also a member of and affiliated with several other 
organizations that are deeply interested in the success of NEHRP:

        <bullet>  I am currently the President of the Board of 
        Governors of the Structural Engineering Institute of the 
        American Society of Civil Engineers. SEI endeavors to serve the 
        structural engineering profession and the public by 
        continuously improving technical and professional practices. I 
        am also a member and past Chair of the committee that produces 
        the standard ASCE/SEI 7 Minimum Design Loads for Buildings and 
        Other Structures, which is directly impacted by NEHRP.

        <bullet>  I am the immediate Past President of the Board of 
        Directors of the Applied Technology Council. ATC is a nonprofit 
        organization specializing in technology transfer to improve 
        engineering practice to resist natural and other hazards. A 
        majority of ATC's work is relevant to NEHRP and is performed 
        under contract with FEMA and NIST.

        <bullet>  I am a member of the Board of Directors of The 
        Masonry Society. TMS is a professional, technical, and 
        educational association dedicated to the advancement of the 
        knowledge of masonry. It produces standards for design and 
        construction that are directly impacted by NEHRP.

        <bullet>  I am a member of standards development committees of 
        the American Concrete Institute and the American Institute of 
        Steel Construction, both of which produce standards for design 
        and construction that are directly impacted by NEHRP.

        <bullet>  I am a member of various committees of the Building 
        Seismic Safety Council, an arm of the congressionally-chartered 
        nonprofit National Institute of Building Sciences. BSSC brings 
        together nearly all the national, State, and regional 
        organizations concerned with improving resistance to the 
        effects of future damaging earthquakes.

        <bullet>  I am a member of the Advisory Committee on Earthquake 
        Hazard Reduction, convened over the past two years by the 
        National Institute of Standards and Technology, in response to 
        the most recent reauthorization of NEHRP.

    I cite all these activities and relations for two reasons: my 
testimony is certainly informed by each and every one of these 
affiliations, as well as others in the past, but my opinions are my own 
and must not be interpreted as the official position of any one of 
these organizations.
    In your invitation, you asked me to answer four questions, and I 
will organize my testimony in that fashion.

Please comment on the level and effectiveness of interagency 
coordination and program performance since the previous reauthorization 
of NEHRP. Where are there opportunities for improvement?

    I believe the level of interagency coordination has improved and 
the effectiveness of the program is beginning to show the result of 
that improvement. In large measure this is due to the work of Dr. John 
Hayes, the man that NIST selected to become the Director of the program 
in their agency, but of course he could not succeed without the backing 
of senior management at NIST. I have observed the agencies working 
together on the new Strategic Plan for NEHRP, and I have been impressed 
that they did collaborate strongly in putting that plan together. 
Thirty years ago I was an employee at the (then) National Bureau of 
Standards (now NIST) as NEHRP was being created. I know that 
cooperation of agencies across major departments of the Federal 
Government to jointly achieve programmatic objectives is not nearly as 
simple as might be desired. It appears to me that the Interagency 
Coordinating Committee is a key element of making the cooperation 
effective, and I encourage the Congress to maintain the emphasis that 
the highest levels of management at each of the NEHRP agencies be 
committed to the program.
    I will cite two examples of recent interagency coordination with 
which I am personally involved:

        <bullet>  USGS and FEMA have worked together to prepare a 
        significant update to the maps of seismic ground shaking hazard 
        used for design of most structures. The activity began at least 
        three years ago in a committee of the BSSC, and it incorporates 
        results of the newest research on attenuation of ground motion 
        waves with distance and a more sophisticated method of 
        considering both the nature of the hazard and the nature of 
        structural response to produce what we call ``risk-targeted'' 
        ground motions. The new maps have been approved at BSSC and are 
        well on their way to approval within ASCE 7. If all goes well 
        the new maps will be the basis of building codes in cities and 
        states within two to three years. This would simply not be 
        possible without true cooperation between USGS and FEMA.

        <bullet>  FEMA and NIST are targeting their funds for the 
        support of applied research in a coordinated fashion to move 
        forward as rapidly as feasible a potentially promising method 
        for systematic quantification of parameters used by structural 
        engineers in design to resist earthquakes. In the past these 
        parameters have been established mostly on the basis of 
        professional judgment, which is a political process and subject 
        to powers of persuasion. This new work offers the opportunity 
        to exchange some of the subjective judgment with objective 
        analysis. It appears to be eagerly sought by professionals in 
        the field, and the accelerated testing of the methodology would 
        not be possible without the cooperation of FEMA and NIST.

    I do want to note my appreciation for the leadership that FEMA 
offered to the program in the past. Their focus on implementation of 
mitigation measures is very close to my central focus, and I think 
NEHRP has been singularly successful over the years. It appeared to me 
that FEMA's ability to lead the program was being impaired by the 
change from being an independent agency to being a part of the new 
Department of Homeland Security, and thus I supported the change 
directed by Congress to make NIST the lead agency.
    In addition to the enhanced cooperation that I mentioned earlier, I 
believe that the change to NIST has truly made the program a four 
agency program. Even though NIST was listed as one of the four agencies 
in the past, their budget, and therefore their commitment to and 
effectiveness within the program became so small as to be 
inconsequential.
    There are opportunities for improvement. One obvious issue is that 
the appropriated funding of the program should reach the authorized 
levels. I appreciate that arriving at a federal budget is an awesome 
task, but I do want to note that the appropriated funds are less than 
either the authorized amounts or the proposed funding in the 
President's budget in FY 2009. The Strategic Plan dated October 2008 
lays out a very ambitious program, but it does not contain budgets. The 
authorized funding levels provide a base level to work towards the 
goals of that plan, and any smaller amounts will simply delay progress. 
Another opportunity for improvement is to either deepen the commitment 
of DHS to NEHRP or to enhance the ability of the earthquake program at 
FEMA to carry out its mission within the large and developing 
organization that is DHS.

What are the priorities for earthquake R&D to increase community 
resiliency? How well does NEHRP address these priorities? What would 
you recommend to ensure these priorities are addressed by NEHRP?

Please assess the technology transfer efforts supported by NEHRP. What 
would you recommend to improve the adoption of earthquake mitigation 
measures?

    I will answer these two sets of questions together. I certainly 
support the priorities set forth in the recent Strategic Plan, and 
improving earthquake resilience of communities is one of the 
overarching goals of that plan. It is not possible to achieve that goal 
without effective technology transfer. Given my interest in design and 
construction, I will take this opportunity to highlight the activities 
necessary to support the objectives pertinent to those fields.
    The productivity and effectiveness of the Nation's seismic design 
and construction community is affected by a variety of factors (see the 
ATC 57 report, The Missing Piece: Improving Seismic Design and 
Construction Practices, prepared in a project supported by NIST). These 
include

        <bullet>  the makeup of the industry, which consists of a large 
        number of small design offices, clients, vendors, and 
        contractors, who do not have the resources or business models 
        for supporting research and development in seismic risk 
        reduction;

        <bullet>  the complexity and wide variety of construction 
        types, including buildings of varying height, size, and 
        construction materials, and a wide range of transportation and 
        utility infrastructure facilities;

        <bullet>  the ever expanding number of buildings and structures 
        in the Nation's inventory, which naturally and routinely 
        increases our exposure to seismic risk; (4) the availability of 
        modern tools to improve efficiency; and

        <bullet>  the availability of new technology and information 
        for reducing the effects of earthquakes on the built 
        environment.

    Future NEHRP plans must recognize and acknowledge these factors, 
and identify, promote, and fund actions that not only promote the 
development of new knowledge and methods for earthquake risk reduction, 
but also halt the ever widening gap between knowledge development and 
its application. The gap is one of the major factors affecting the 
decline in productivity of the U.S. design and construction industry 
over the last two decades (ATC-57). To this end, a wide variety of 
recommended actions are necessary, some of which are already underway. 
These include:

        <bullet>  The continued implementation of an expanded, 
        coordinated program of problem-focused research and development 
        in earthquake engineering, which was started by NIST in 2008 in 
        response to strong recommendations from industry. The 
        recommended program includes:

                  Systematic support of the Seismic Code Development 
                process:

                        <bullet>  Provide technical support for the 
                        seismic practice and code development process, 
                        including research to support development of 
                        more rational methods for determining critical 
                        design variables;

                        <bullet>  Support the development of 
                        performance-based seismic engineering through 
                        the conduct of research to develop fragility 
                        information on the broad range of structural 
                        and nonstructural components for which such 
                        information is not available;

                  Improve seismic Design Productivity:

                        <bullet>  Support the development of technical 
                        resources (e.g., guidelines and manuals) to 
                        improve seismic engineering practice, focusing 
                        on structure types (e.g., infrastructure) for 
                        which guidelines are not currently available or 
                        no longer reflect the state of practice, or the 
                        state of research;

                        <bullet>  Make evaluated technology available 
                        to practicing professionals in the design and 
                        construction community through the development 
                        of technical briefs and other means;

                        <bullet>  Develop tools to enhance the 
                        productivity, economy and effectiveness of the 
                        earthquake resistant design and construction 
                        process, including improved processes for 
                        computer aided design.

        <bullet>  Continued support of the FEMA-funded program to 
        develop next-generation performance based seismic design 
        guidelines for new and existing buildings, following the 
        program plan that has been established for this purpose;

        <bullet>  Continued support of FEMA-funded programs for 
        supporting mitigation activities necessary to improve technical 
        quality in the field of earthquake engineering, including the 
        investigation of seismic and related multi-hazard technical 
        issues as they are identified by FEMA, the development and 
        publication of technical design and construction guidance 
        products, the dissemination of these products, and support of 
        training and related outreach efforts based on these products;

        <bullet>  Expanded support of research being carried out under 
        NSF-funded NEES Program, which was established to conduct 
        research to improve the seismic design and performance of our 
        nation's civil and mechanical systems, with improved 
        coordination and planning of research to support the major 
        development programs being carried out by FEMA and NIST;

        <bullet>  Expanded support of efforts to identify research 
        needs from the perspective of design professionals and of 
        efforts to coordinate research to enhance its effectiveness;

        <bullet>  New programs to encourage local communities to adopt 
        and enforce programs to identify and reduce the numbers of 
        seismically hazardous structures in their community;

        <bullet>  Involvement in international cooperative efforts, 
        such as the Global Earthquake Model (GEM), to better understand 
        and evaluate how seismic hazard, structural vulnerability, and 
        seismic risk are characterized and determined by other 
        countries, thereby enhancing the potential for improving our 
        competitiveness world wide.

    I am particularly hopeful about the performance based seismic 
design program. NIST has published Research Required to Support Full 
Implementation of Performance-Based Seismic Design (NIST GCR 09-917-2) 
making use of the assistance of BSSC that defines the needs. To me the 
work appears to be ground-breaking, and I believe there will be many 
ancillary, or spinoff, benefits to this research.

How should the Federal Government address R&D for other natural 
hazards? What opportunities exist to coordinate hazards R&D across the 
Federal Government?

    As a structural engineer I am required to consider many natural 
hazards in the conduct of my practice; earthquake, wind, snow, flood, 
ice and expansive soils can all have significant effects on the designs 
that I prepare. The role of the Federal Government in R&D is quite 
varied across these areas. Earthquakes are a prime example of a 
situation that requires a strong Federal effort to make progress 
towards disaster resilience, and NEHRP is a shining example of a 
successful federal program. In my view the needs are not the same 
across this spectrum of hazards, but there are unfilled needs.
    On the engineering design side, earthquake is unlike wind, snow, 
flood or ice. The nature of the action upon the structure couple with 
the extreme rarity and severity of strong earthquakes makes realistic a 
design strategy to accept significant damage to ordinary structures 
while still protecting against large loss of life. This brings a 
complexity to the engineering design and analysis that is simply 
unmatched in design for wind, snow, flood or ice. And this is the 
strongest underlying reason why so much R&D is necessary in earthquake 
engineering.
    On the natural hazard definition side the differences do not appear 
to me to be quite as significant. Predicting the future from 
observation of the past is in the best tradition of strong science. The 
rarity of earthquake events does make seismology a challenging field, 
in my opinion, but I am sure there are comparable difficulties in 
meteorology.
    I have long had a research interest in snow loads on roofs, and I 
think a contrast with the information available for definition of the 
hazard between earthquake and snow is instructive here. The USGS has 
done a very commendable job as the central focus for the applied 
science of defining the ground shaking hazard across the U.S. Their 
program does strongly benefit from the earth sciences research at NSF, 
and the USGS is very cooperative with the engineering community, 
especially in their interactions with BSSC. In ASCE/SEI 7, and 
therefore in the building codes used across the Nation, we directly 
incorporate the maps that are produced by USGS. ASCE/SEI 7 also has 
hazard maps for snow, wind, and ice. These hazard definition maps are 
all produced by committee members in what amount to volunteer efforts.
    The map for snow has a federal relation; the committee member most 
responsible was Wayne Tobiasson, an engineer now retired, who worked 
for the U.S. Army Corps of Engineers at their Cold Regions Research and 
Engineering Laboratory. It was not central to the role of the Corps; it 
was this man's professional convictions that led him to wade through 
available data from the Weather Service and the (former) Soil 
Conservation Service to prepare these maps. Even though the maps are 
extremely useful and the basis of our legal building codes, they have 
huge voids in mountainous regions where the snow loads are the largest, 
and the most difficult to discern. There is very little private sector 
incentive to collect, archive, and analyze the data necessary for the 
improved definition of the snow load hazard. In my opinion it is most 
appropriate for the Federal Government to fulfill at least the data 
collection and archiving of the information, if not the analysis. Yet 
the Weather Service has in recent years reduced their collection of 
information vital to predicting the weight of accumulated snow. The 
amount of money necessary is minor compared to the NEHRP budget, but 
there should be some way to accomplish the mission. The ASCE/SEI 7 map 
for ice has a similar story and a similar champion, Kathy Jones a 
scientist who also works for the Army Corps at CRREL.
    The ASCE/SEI 7 map for wind speed is also produced by a volunteer 
committee. I know that this committee has heard testimony in the past 
concerning national needs for reducing the risk associated with high 
winds, and I will not attempt to repeat that here. But I will state 
that I certainly support increased federal support for R&D to reduce 
the consequence of high winds, including support for technology 
transfer. I previously stated that the engineering side of the 
earthquake problem is complex. I want to note that a recent survey of 
practicing engineers pointed to the wind load provisions of ASCE/SEI 7 
as being very difficult to understand or apply (more so than the 
seismic design provisions of the same standard). I attribute at least a 
part of this discrepancy to NEHRP. There is no wind equivalent of BSSC, 
which FEMA has supported for nearly three decades. The critical mass 
assembled and the continuity at BSSC have in no small measure made our 
seismic design provisions better. We need similar help in the wind 
area.
    I am confident that Katrina has focused the attention of the 
Federal Government on coastal flood issues. It appears to me that there 
are large public policy issues that need to be resolved, included the 
proper level of safety and the appropriate means for funding 
protection. I will say that the level of safety from flooding is 
considerably lower that the level of safety provided against other 
natural hazards. There are very likely benefits to be gained from 
coordinated social science, engineering, and physical science research 
on these public policy issues.
    Overall, I believe that NEHRP stands as an example of how to 
assemble a critical mass of expertise to move the Nation forward. This 
has involved developing consensus on R&D priorities among all 
stakeholders, funding a wide group of interests to develop the 
expertise and to carry out the work, and focusing on implementation. 
These lessons can and should be applied to other natural hazards, but 
not at the expense of diluting the critical mass necessary for the 
synergy that has been realized.

                   Biography for James Robert Harris

Experience

    Jim is well versed in structural engineering practice and research. 
He has designed or evaluated hundreds of structures ranging from 
dwellings to high-rise buildings including industrial facilities, long 
spans, buildings in the highest seismic zones, excavation bracing, pile 
and pier foundations, vibration issues, and renovations of historic 
buildings. This background spans nearly all types of construction and 
structural materials and includes responsibility for management of all 
design disciplines. His experience includes six years of full-time 
research. His research has focused on the loading and response of 
structures, particularly earthquake and snow loadings. A second focus 
is on improving the formulation and use of engineering standards. He 
has written over 30 reports and journal articles on the results of his 
research and practice. He is an active member of several committees 
that produce national standards for structural engineering practice, 
and his expertise there was recognized by his election to the National 
Academy of Engineering.

Education

Ph.D.--University of Illinois, 1980, Structures and Foundations

MSCE--University of Illinois, 1975, Structures

BSCE--University of Colorado, 1968, Structures

Registration

Colorado: Professional Engineer #11118

Idaho: Professional Engineer #10309

California: Civil Engineer #34192; Structural Engineer #2640

National Council of Engineering Examiners Record #8449 (currently 
inactive)

Professional Employment

1984--J.R. Harris & Company, Principal, Denver

1981-84--Structural Consultants, Inc., Principal, Denver

1975-81--National Bureau of Standards, Center for Building Technology, 
        Research Structural Engineer, Gaithersburg, MD

1973-75--University of Illinois, Graduate Research and Teaching 
        Assistant

1969-73--Zeiler and Gray, Engineer and Associate, Denver

1968-69--Ken R. White Company, Engineer, Denver

Awards

        <bullet>  Distinguished Engineering Alumnus, University of 
        Colorado, Boulder, 2007

        <bullet>  National Academy of Engineering, elected 2005

        <bullet>  Structural Engineering Inst. of the Am. Soc. of Civil 
        Engineers, Walter P. Moore, Jr., Award, 2002

        <bullet>  Building Seismic Safety Council of the Nat'l Inst. of 
        Bldg Sci, BSSC Honor Award, 1997

        <bullet>  Colorado Engineering Council, Certificate of Honor, 
        1997

        <bullet>  U.S. Federal Emergency Management Agency Outstanding 
        Public Service Award, 1986

        <bullet>  U.S. Department of Commerce Bronze Metal Award for 
        Superior Federal Service, 1981

        <bullet>  District of Columbia Council of Engineering and 
        Architectural Societies National Capital Award for Special 
        Achievement, 1981

        <bullet>  Univ. of Colorado Department of Civil Engineering, 
        Ketchum Award for outstanding graduate, 1968.

Professional Society Membership

        <bullet>  American Concrete Institute; Fellow

        <bullet>  American Consulting Engineers Council

        <bullet>  American Institute of Steel Construction

        <bullet>  American Society of Civil Engineers

        <bullet>  American Society for Testing and Materials

        <bullet>  American Welding Society

        <bullet>  Coalition of American Structural Engineers

        <bullet>  Colorado Association of Geotechnical Engineers

        <bullet>  Earthquake Engineering Research Institute

        <bullet>  International Association for Bridge and Structural 
        Engineering

        <bullet>  International Code Council

        <bullet>  The Masonry Society

        <bullet>  National Society of Professional Engineers

        <bullet>  National Trust for Historic Preservation

        <bullet>  The Post Tensioning Institute

        <bullet>  Structural Engineers Association of Colorado

Professional Committees and Activities (current)

        <bullet>  Advisory Committee on Earthquake Hazard Reduction 
        (for the National Institute for Standards and Technology), 
        Member

        <bullet>  American Concrete Institute: Member, Committee 318, 
        Standard Building Code, and subcommittees on Seismic Provisions 
        and on Prestressed and Precast Concrete

        <bullet>  American Institute of Steel Construction: Member of 
        Task Committee on Seismic Provisions, Emeritus Member of 
        Specification Committee; Former Chair, Committee for the Design 
        for Blast Resistant Steel Buildings

        <bullet>  American Society of Civil Engineers: Member and Past 
        Chair, Standards Committee for Minimum Design Loads for 
        Buildings and Other Structures (ASCE 7); formerly Chairman, 
        Task Committee on Earthquake Loads; also Member and 
        Subcommittee Chair, Standards Committee for Loads on Structures 
        During Construction

        <bullet>  American Society of Civil Engineers: Member, core 
        team for the Pentagon to study building performance in the wake 
        of the September 11, 2001, attacks

        <bullet>  Applied Technology Council: President, Board of 
        Directors

        <bullet>  Building Seismic Safety Council: Member, Provisions 
        Update Committee, Technical Subcommittee on Structural Design; 
        Code Resource Support Committee; formerly chair of committee 
        that produced 1985 edition of NEHRP Recommended Provisions 
        (first edition), plus activity on several other technical 
        subcommittees

        <bullet>  International Standards Organization, Past Chair of 
        U.S. Technical Advisory Group for TC 98, Bases for the Design 
        of Structures

        <bullet>  Mid-American Earthquake Engineering Research Center: 
        Member, Executive Advisory Board (Chair 2002-3)

        <bullet>  Structural Engineering Institute of ASCE: President 
        of Board of Governors; also former Chair, Executive Committee 
        for Codes and Standards Activities Division

        <bullet>  Structural Engineers Association of Colorado: 
        Chairman, Committee on Seismic Standards and Member, Committee 
        on Snow Loads; President, 1990

        <bullet>  The Masonry Society: Member, Board of Directors

                               Discussion

    Chair Wu. Thank you very much, Dr. Harris, and I just want 
to assure you that hearings are important. Concepts disseminate 
quickly, and Congress can respond. I think that we are going to 
call NEHRP, NERRP from now on, and we will just immediately 
make that change.
    Dr. Hayes, many bouquets and accolades have been thrown 
your way and NEHRP's way in this hearing and through other 
reports, so let me ask you about something that you may or may 
not be doing correctly which is that there has been some 
testimony that the level of support for managerial and 
technical activities at NIST, that expanding that level of 
support would be integral to strengthening NEHRP. Why hasn't 
NIST requested the fully authorized funding levels and what 
other priorities might be met? And this is a question for the 
rest of the panel, and for you, Dr. Hayes. What other 
priorities could be met if those functions did have full 
funding at NIST?
    Dr. Hayes. Sir, first, let me thank you for the accolades, 
but they are not that well-deserved. This is a teamwork 
operation that we have, and it involves partners from the other 
three agencies that are sitting behind me now. And without 
them, this wouldn't be successful.
    Insofar as your question is concerned, the President's 
budget the last couple of fiscal years has requested increased 
funds for NIST, and we are really happy that this year in the 
2009 budget we did see a very meaningful increase of about $2.5 
million--$2.4 million to be exact--in the NIST research budget 
for supporting earthquake research. And we are in the process 
now of doing a couple of things. One is that we are working 
very diligently to rebuild the earthquake engineering workforce 
at NIST, and we have hired a couple of folks already and are 
looking to hire other people this summer and fall. We also have 
contract support that has been very helpful for us as well, and 
I think we are making really good headway toward improved size 
and scope for the program through the funding that came this 
year, and we anticipate seeing a gradual growth process. I 
think it would be unwise to do it all overnight, if you will, 
anyway. I think we have to be smart about the way we grow back 
into things, and we are very diligently doing that as we speak 
right now, interviewing people, trying to find good people for 
the team. So we are definitely making headway in that area, 
sir.
    Chair Wu. Well, Dr. Hayes, I think just between the lines, 
what I am saying is we are from the Congress, we are here to 
help, and consider the question asked about what expansions in 
this particular budget would help the functions of all of 
NEHRP.
    Dr. Hayes. Thank you, sir.
    Chair Wu. Dr. Lindell, you stated that social scientists 
learn in one disaster things that can be applied across 
different kinds of disasters and to different disasters of the 
same kind. Could you address this a little bit for us, a couple 
of examples about lessons learned and whether this might argue 
for bringing different hazards together because of some 
commonality and avoiding some of the stove piping and 
replication of function?
    Dr. Lindell. Sure. I could provide a very large number of 
examples over the past 30 years, but I want to focus on one 
that is ongoing right now. About four years ago, my wife and I 
submitted a project proposal to the National Science Foundation 
in collaboration with Professor Harry Yeh and Cherri Pancake at 
Oregon State University. Their background was in tsunamis and 
in engineering. Ours was in social science and hurricanes. The 
four of us saw that there were substantial commonalities in our 
research because both of those are hydrological hazards, the 
storm surge in the case of hurricanes and the tsunami wave. 
There are some differences, but there are some similarities as 
well. And so the objective of a project that was funded by the 
National Science Foundation was to integrate some of the ideas 
that we had learned about how to evacuate from hurricanes. 
There has been a lot of research on hurricane evacuation over 
the years, not so much in the case of tsunamis. This project 
provided an opportunity to take what had been learned on 
hurricanes and apply that to tsunami research. And so that was 
a very profitable research area for us to engage in.
    Other areas are ones where we have learned from research 
that we did on the accident at Three Mile Island in 
radiological emergency preparedness, as well as the toxic 
chemical accident in Bhopal and the subsequent toxic chemical 
emergency preparedness initiatives after that. Many lessons 
were learned, particularly in response to the Superfund 
Amendments and Reauthorization Act--the Emergency Planning 
Community Right-to-Know Act of 1986--which established local 
emergency planning committees. I did a study of local emergency 
planning committees in Indiana, Illinois, and Michigan that 
provided a lot of ideas about how to improve community 
emergency preparedness for earthquakes as well.
    So those are just two examples, but like I said, there are 
many others as well.
    Chair Wu. Thank you, Dr. Lindell. My time has expired. I 
will come back with further questions.
    The gentleman from Nebraska is recognized for five minutes.
    Mr. Smith. Thank you, Mr. Chair, and thank you to the panel 
for sharing your expertise. I stand here or sit here as a 
Nebraskan who has experienced, believe it or not, an earthquake 
in the mid-'80s. Fortunately, there was not a great deal of 
damage, but we have obviously other hazards. You know, perhaps 
there is overlap in some of the mitigating or planning 
circumstances, whether it is snow load, wind resistance, what 
have you, so some codes that help in one area probably helped 
in another.
    When it comes to adoption of building codes, though, I am 
wondering if you could maybe give us an update, Dr. Harris, on 
the acceptance of the recommended building codes and maybe what 
we need to work on. I would also submit that sometimes building 
codes find their way into the law so to speak that maybe have 
other interests other than public safety and the value of 
property and so forth. But we do want to have the utmost of 
requirements or the intent to protect human lives and property. 
How would you respond?
    Dr. Harris. Actually, the program has been very successful, 
but that doesn't mean it is universally successful in terms of 
affecting the building codes in cities and states across the 
Nation. The path to those building codes is a somewhat 
torturous path if you will. Almost all building codes are laws 
of cities or in some cases of states, and now almost all of 
those make reference to a model building code. There is one 
predominant model building code in this country called the 
International Building Code. With respect to the seismic safety 
issue as well as most other structural concerns, that model 
building code makes reference to lots of structural engineering 
standards. In other words, the safety provisions aren't really 
in the building code. They are in the referenced standards. The 
standard I mentioned earlier, the ASEC-7 standard, sets forth 
the loading side of it, and then there are lots of standards 
produced by other entities that set forth how you design in a 
given material, whether it be steel, concrete, masonry, or 
timber, for example.
    The great success of the NEHRP program with respect to 
implementation, I think, has been FEMA's long and consistent 
support of the Building Seismic Safety Council, which is a 
forum that brings together all of these stakeholders that are 
interested in how seismic safety is promulgated through 
building codes.
    It turns out that one national organization with 50 or 60 
organizational members doesn't necessarily assure--when that 
group agrees that something ought to be done, it doesn't 
necessarily assure that every city is going to adopt it. And 
there are cities here and there that are, I think, for good 
reasons dragging their feet on moving into the best current 
practice for seismic safety. These are cities where the seismic 
hazard is high. Therefore, the cost of compliance is high. But 
the experience of earthquakes in a human lifetime isn't there 
because the event is such a rare event, and specifically I am 
talking about the Middle Mississippi Valley area. And it is a 
serious concern as to how we best protect places like this 
where the event is so rare that, you know, a person of a 
decision-making age has never experienced an earthquake, nor is 
he related by blood to anyone who has, who is still alive. You 
are talking about the interplay then of social science with 
technical sciences, physical sciences, and it is a difficult 
sell. I think the program is doing a good job. It is not heavy-
handed. It is relying upon consensus in these standards bodies. 
The model code building process has a semblance of consensus to 
it also. By the time it comes down to adoption in a particular 
city, the art of persuasion is particularly important, and it 
becomes a very political process.
    But all I can say is that I think the NEHRP program has 
been more successful than any other federal program I am aware 
of in terms of bringing improved safety levels to bear more or 
less generally across the Nation. It is not a battle that is 
won, it has to continue to be fought.
    Mr. Smith. Okay. Thank you. My time has expired, so I will 
wait for the next round. Thank you.
    Chair Wu. The gentleman from New York is recognized for 
five minutes.
    Mr. Tonko. Thank you, Mr. Chair, and thank you to our 
panel. Professor O'Rourke, we are both fortunate to claim New 
York as our work ground, and I just had a question of you as 
one in the area of civil engineering as to how you interact 
with researchers who are dealing with the social sciences of 
the research that needs to be done? How is that interaction put 
together?
    Prof. O'Rourke. I can give you some examples. For a number 
of years, we actually had support from the National Science 
Foundation to work with social scientists at the Wagner School 
of Public Service in New York City. This was a group of 
engineers but primarily social scientists who were in city 
planning, the applied social sciences with respect to decision-
making, and that I think led to a lot of very interesting 
insights and some excellent opportunities to reach out to 
people in urban environments and begin to formulate approaches 
that would allow us to, number one, from the engineering and 
scientific side become aware and informed about the social 
dimensions of our technologies.
    You know, it is one thing for us to be able to invent a new 
process or propose a new development or piece of 
infrastructure, but it is quite another thing for the 
communities to accept that because there is quite a lot of 
disruption. There is quite a lot of interference with the 
normal activities, and frankly, the lack of this coordination 
between social science and engineering and science, hard 
science, was actually getting in the way of getting important 
civil infrastructure projects put into place in a timely 
fashion. And as there has been a number of more effective ways 
of approaching this dialogue.
    Just being able to support a continuing dialogue between 
the engineering professions and the social science professions 
has been extraordinarily important for enlightening both groups 
because you have to pay some serious translational fees when 
you try to find common language across both sides. But the 
final product has been, I think, exceptional, and I think very 
helpful for putting civil infrastructure into play. I made a 
comment before that real civil infrastructure are the 
communities, the actual people, that benefit from the physical 
infrastructure. So unless we can bring those two together, we 
are not really doing it in the holistic and correct way.
    Mr. Tonko. And are there major impediments to that 
interaction that you believe we need to address in order to 
make the work more effective?
    Prof. O'Rourke. Yes, there are. For example, there are 
institutional impediments. If you look at civil infrastructure, 
it is actually, if you want to use the word, Balkanized. You 
will have water supply and power and telecommunications with 
entirely different corporate cultures, different reward 
systems, different agenda. And so getting everybody to sort of 
sing in the same choir and getting everybody to coordinate 
properly on the process is an extraordinarily important part of 
getting this job done. We don't depend on just one system at a 
time, we don't just rely on water supply for fire following a 
major disaster like an earthquake or a World Trade Center 
disaster, we don't just depend upon electric power, we depend 
upon them all concomitantly and at the same time; and 
therefore, dealing with the interdependencies, both physical, 
interoperational, and institutional, becomes a very, very 
important part of how we proceed.
    Mr. Tonko. Thank you. Dr. Harris, you had, in earlier 
questioning, spoken to disasters that have huge amounts of 
wind-related to them. I am assuming that wind speed maps become 
critical when it comes to design. Who do you rely upon? Is 
NEHRP there to provide these bits of data or how simply do you 
get the details that you need, the maps that you may need for 
wind speed?
    Dr. Harris. Thank you for your question. NEHRP actually 
doesn't have anything to do with the maps that we use for wind 
speed. They are produced in a committee by volunteers, a 
committee of the American Society of Civil Engineers. These 
volunteers make extensive use of data that is compiled in 
something called a National Climatic Center which is related to 
NOAA [National Oceanic and Atmospheric Administration] and the 
National Weather Service. But the analysis of the data is 
pretty much purely done by volunteers who put this map 
together, responding to overall community decisions on how safe 
is safe enough. The overall wind program, if you will, if it 
were supported as proposed in the National Wind Hazard Impact 
Reduction Program, I think would become more sophisticated and 
a better overall program, probably more intelligent expenditure 
of construction dollars. I think it would reduce cost in some 
areas and would increase cost in others because the safety 
level would become more consistent then.
    Mr. Tonko. Thank you. Thank you, Mr. Chair.
    Chair Wu. I thank the gentleman from New York. The 
gentleman from Nebraska is recognized for five minutes.
    Mr. Smith. Dr. O'Rourke, you noted or you referenced FEMA's 
support for earthquake preparedness has been perhaps subsumed 
into a more generic State and local hazard preparedness 
program, and obviously FEMA always has a lot on their plate it 
seems. And with the so-called moving target of geography of 
disasters and the velocity of disasters, certainly I don't want 
to criticize FEMA, but would you believe there are ways to 
reestablish a good, distinct focus on earthquake mitigation 
within FEMA without compromising this all-hazards mission and 
approach within DHS?
    Prof. O'Rourke. Absolutely. I think in order to make any 
hazards mitigation effective, you have to get down to the 
community level. That is where the implementation occurs, and 
FEMA, frankly, has been quite effective in being able to reach 
out to the communities. As envisioned within NEHRP, FEMA is the 
implementation arm. They are the group that works through the 
codes and standards process. They are the group that developed 
HAZUS which is applied at the local community level, and they 
are the folks that come in and work with the states and multi-
State organizations and so forth. Their support for the State 
program, since about 2003, has been subsumed into a broader 
sort of DHS approach to things, and there has been kind of a 
loss of identity during that period of time on the part of the 
State managers and mitigation and earthquake programs. We 
believe that those programs were very effective because they 
were targeted, people did have an identity, they were able to 
get access to resources that made them effective, and putting 
more emphasis on the State programs, in particular, for 
mitigation programs within the states' targeted earthquakes is 
a good idea, that it doesn't necessarily compete with other 
hazards. It fits into a jigsaw puzzle as a complimentary piece 
of support with other types of hazards. And actually, it is 
kind of a natural, shall we say, stimulus for support and other 
hazards area, and I will give you an example. When HAZUS, which 
is this computer decision support system that is very effective 
in helping communities understand the impacts of natural 
hazards and their local jurisdictions, was originally created, 
it was created for earthquakes. But since then, it has been 
extended to floods and to windstorm effects. So starting from 
the incubation of this particular technology for earthquakes, 
it has been able to be developed and applied to other 
locations.
    Mr. Smith. Thank you. And then also, Dr. Harris, if you 
might respond. Certainly there is a lot of discussion lately 
about carbon footprint and the impact of carbon emissions. Do 
you see any of these efforts perhaps compromising building 
codes along the way?
    Dr. Harris. If they were applied in an unthinking fashion, 
that might be the case, but in reality, I think the smallest 
carbon footprint, with respect to the topics we are talking 
about, is building the infrastructure that is the most 
resilient, that you don't have to reconstruct after every 
natural disaster. And it does mean in some cases spending more 
money and more carbon in the initial construction because it 
pays off in the long run. If you look at the carbon footprint 
issue as a true life cycle cost, then I don't think there are 
conflicts. If it gets narrowed to just carbon in a given year, 
then perhaps there are conflicts.
    Mr. Smith. I appreciate your response. I hear you saying 
that there may need to be some flexibility and that we should 
look beyond perhaps just that first carbon footprint and what 
might happen down the road.
    Dr. Harris. I concur. That is the flexibility that is 
necessary.
    Mr. Smith. Thank you very much.
    Chair Wu. The Chair recognizes himself. Dr. Hayes, you 
testified that NEHRP has almost 30 years' worth of experience 
at interaction with State and local government and other 
earthquake professionals which has provided a good deal of 
organizational experience that can be shared with those working 
with other hazard fields. What lessons are the lessons learned 
from earthquakes and how can these lessons be extended to other 
hazard fields?
    Dr. Hayes. I probably won't think of all of them. There are 
many similarities, and there are some dissimilarities and we 
have to distinguish between the two. But I think as Dr. Lindell 
testified earlier, one of the major areas of possible 
commonality is in the disaster preparation and response 
recovery that really involves many activities that are very 
similar. It is irrelevant what the hazard might be. There are 
other issues that we clearly see involve work that NEHRP has 
done over the years. But for example, cascading effects that 
can occur in the lifeline systems of a community that is 
impacted by any natural disaster, whether it is a flood, 
tsunami, earthquake, wildfire, where one system is impacted 
that then affects another system is another area that has many 
areas, I think, of common interest.
    Looking specifically within the structural world, we 
certainly see that there are some similarities with wind 
effects but not close similarities between wind effects and 
earthquake effects. There are things that can be learned there, 
and again, looking more narrowly at structural engineering, if 
we look at what we call progressive collapse, which in effect 
is a cascading effect, there are similarities there as well. 
When a structural element fails, it almost doesn't matter 
really what the original impetus was that caused that failure 
to occur if things start spreading throughout a structure. And 
so there are similarities there, and it is something that I 
think we haven't completely studied in a comprehensive way yet, 
and it is certainly something that could be done in the future.
    Chair Wu. Thank you, Dr. Hayes. Mr. Murphy, what type of 
activities does NEHRP currently support with respect to 
tsunami, and what are some other things that NEHRP perhaps 
ought to be looking at with respect to tsunami preparedness?
    Mr. Murphy. I think probably the most--what I consider 
significant and beneficial thing--that NEHRP provides is the 
support of our public education and warning campaigns. I think 
the most significant thing as you know, Mr. Chair, there is not 
a whole lot of time to evacuate and not a whole lot of space on 
the Oregon coast, and I will only speak for our area, but 
public education not only to the citizens but to the visitors 
to the states that may not be familiar. So, I think those types 
of programs and financial support to help us makes a huge 
difference, and I think that would apply to any state as you 
look at these.
    I think also, too, you know, as far as NEHRP goes, you 
know, the more tools that at least in the emergency management 
community can be provided, you know, not necessarily for us but 
through the science, you know, to help us know as soon as we 
can about it or the potential resulting after-effects. I think 
the science is very important, and I know I have learned a 
great deal from our geologists, our seismologists, our civil 
engineers, you know, and using those to try and predict through 
HAZUS as has been mentioned here, the modeling system, you 
know, and I think the continued support and hopefully 
increasing support in those areas will help us do a better job 
as emergency managers trying to prepare for it. And whether it 
is in the preparation mode or the response or recovery mode, 
any of those types of tools that NEHRP has provided or can 
provide would help us in the future.
    Chair Wu. Thank you very much, Mr. Murphy, and Mr. Tonko?
    Mr. Tonko. Yes, thank you, Mr. Chair. Prof. O'Rourke, you 
recommend a post-earthquake information management system. Can 
you further detail that for us, please?
    Prof. O'Rourke. When people come into an earthquake 
stricken area, there are many, many different forms of data 
that they collect. They may collect photographs, they may 
collect high-resolution satellite imagery, they may collect 
observations, they may collect actual information about the 
subsurface soil conditions. These then become somewhat 
extraordinarily complex as the information starts to come in. 
And the intention, of course, is not to have this information 
just available to a few individuals who are expert in the area 
but to make it generally available to the community at large 
and ultimately to the community that has been affected or may 
be affected by the next event. And it is not a trivial task to 
try to take all of these disparate sources of information and 
integrate them into a system where people can get access that 
their appropriate metadata which are data that allow them to 
identify where the specific information is that they are 
looking for and to create that in a user-friendly way. The 
earthquake community, I think, has kind of led the group in 
terms of acquiring information after disasters and have 
experimented with a number of, I think, very exciting 
technologies. One of the areas that they piloted has been the 
use of high-resolution satellite imagery that has been tied 
into GPS systems on the ground so that as people acquire 
information as they travel through earthquake-stricken areas or 
disaster-affected areas, this information is immediately 
integrated into the satellite view of things and then is 
integrated by advanced geographical information systems into a 
whole series of databases which are map-based. And this was 
done for earthquakes in the 1990's and early 2000 and actually 
has been very effective in acquiring information after 
hurricanes, like Hurricane Katrina and Hurricane Rita. And so 
this is a part of that type of information system where we are 
looking for high-tech, very visual, very precise, very visual 
ways of collecting and cataloging that information for access 
by others.
    Mr. Tonko. Then who do you envision would be responsible 
for implementation?
    Prof. O'Rourke. That is an integrating role, and I would 
look to the integration of post-earthquake information to the 
lead agency which would be NIST because that would be the 
natural place to place that type of oversight. And I know that 
NIST in the previous year has actually supported some workshops 
that have been focused on trying to acquire, and FEMA has also 
been in part of this. Of course, FEMA is important because of 
the implementation part of it. Ultimately, as I mentioned 
before, one of the important applications for this information 
is in the actual community where the problems have occurred. 
When you have to reconstruct after a major earthquake like 
Northridge or you have to reconstruct after a major hurricane 
like Katrina, you need to have this type of information with 
the planners and the civil engineers and the public utilities 
and the communities so that they have that data available to do 
the most effective job on reconstructing their environments.
    Mr. Tonko. It sounds like it would provide some good 
preventative therapy, too, in the response that would be 
required in situations that would follow after those given 
circumstances.
    Prof. O'Rourke. Absolutely.
    Mr. Tonko. Mr. Murphy, you shared the thought that perhaps 
we should look at geographic constructs with the 
reauthorization of NEHRP. Could you describe that for us, 
please?
    Mr. Murphy. Yes, sir. Really trying to focus NEHRP programs 
is a priority, so that we ensure that we are good stewards of 
the money in the NEHRP program. In looking at trying to focus 
the program we need to ensure that there's clear evidence like 
the New Madrid earthquake fault which runs through the Central 
United States. It includes eight states. Out in my part of the 
United States, the Cascadia Subduction Zone that affects 
Alaska, Washington, Oregon, and Northern California and you 
know, where we have clear, good, empirical data if possible 
that we try and focus the money and efforts to help in those 
areas that clearly have evidence and that we can spend the 
time, whether it is in preparedness mitigation, response, or 
recovery to focus that effort toward those geographical areas.
    Mr. Tonko. Thank you.
    Chair Wu. I thank the gentleman. Dr. Harris, given the 
number and magnitude and the frequency of wind-related 
disasters such as hurricanes and tornadoes, why do these wind-
related disasters receive comparatively, it seems, less 
attention in codes and the standards development process, and 
what is the wind equivalent of the Building Seismic Safety 
Council?
    Dr. Harris. The engineering problem is actually approached 
in a different fashion. The nature of the earthquake action on 
a structure allows one to take advantage of certain kinds of 
damage and still protect life, at the risk of losing 
substantial dollars of constructed inventory, but when one does 
a cost benefit analysis, that makes sense. So what it means 
then from the engineering side is that the solution of a design 
to resist an earthquake is a very complicated problem.
    For the solution to designing the structure to resist wind, 
or in fact any load that is related to gravity, snow on the 
roof, occupancy within the structure, and so on, a much simpler 
approach is taken. Effectively it is the difference between, 
you know, let us say a college education and a post-graduate 
education in terms of the level of the sophistication of the 
structural design. That has driven the need for an extensive 
R&D program in earthquake engineering, if you will, not 
necessarily hazard definition, in the engineering side of it, 
which we haven't had to have for wind. So there is less 
attention paid, if you will, in building codes and building 
code development processes to the wind problem than there is to 
the earthquake problem. But in the end, it turns out that it is 
to all of our detriment. It turns out that the provisions we 
have are not as clear and easy to understand. They don't have 
the same, I think, depth of technical consensus behind them 
that we do in the earthquake world.
    The equivalent to BSSC for wind is in fact a subcommittee 
of this ASCE-7 committee that produces the standard on 
``Minimum Design Loads for Buildings and Other Structures.'' 
There are roughly 30 to 40 highly qualified professionals 
involved in that volunteer committee, and they do what BSSC 
does, if you will, but for wind. They produce the map, they 
produce the provisions. The fact that it is a volunteer effort 
means that it is just--it doesn't receive the same attention.
    Chair Wu. Dr. Harris, this is stunning. What you are saying 
is that because it is a simpler problem and easier problem, 
wind resistance and codes concerning wind resistance receive 
less attention than seismic research and resistance to seismic 
stress, even though on a per-dollar basis and on a per-life 
basis it might be a higher risk?
    Dr. Harris. Yes, both parts of your statement are right. It 
receives far less attention in the research community, it 
receives less attention in the code development processes, and 
in reality, year in, year out we lose lives and we lose 
property because of high-wind events. It is my personal opinion 
that this society in this country continues to move toward a 
desire for increasing levels of safety which means that in the 
end we are going to have some very difficult technical problems 
to solve on the engineering side because we are going to soon 
be at the point where I think we can no longer say, ``it is a 
tornado,'' and ``we do not design for tornadoes,'' and that 
becomes a very difficult problem to solve then.
    Chair Wu. So on a per-dollar-spent basis, there might be a 
lot more bang for the buck in research on structures and 
developing codes, promulgating better codes for wind 
resistance?
    Dr. Harris. I concur with that.
    Chair Wu. Just very quickly for the entire panel, as my 
time is winding down here, the report, Securing Society Against 
Catastrophic Earthquake Losses, recommends $330 million per 
year over 20 years to achieve national resiliency for 
earthquakes. What could be done with a triple-fold increase in 
funding, and that is a difficult thing to do, but what could be 
done with a triple-fold increase in funding and how might that 
help both our mitigation and our preparation steps?
    Prof. O'Rourke. That report that you refer to was put 
together by quite a distinguished group of multi-disciplinary 
people who have thought about it for a long time. That kind of 
level of support would accelerate, and acceleration is 
important because the risk increases constantly. Activities 
that are already under way and then would provide the kind of 
strength and basis to deliver on the products. We have heard, 
for example, about a number of the areas that deserve research. 
That would be able to be accomplished by that type of level of 
funding. For example, the performance-based seismic design. It 
is a very tricky problem because you are trying to deal with 
the design of the structure to fit a certain level of 
performance in terms of what the owner would desire from that 
structure, and that performance, which is translated into human 
terms has to then be linked to computer analyses and methods of 
assessment and then also the level of seismic risk. So there is 
a lot of effort that goes into that. It is a very important 
part of making communities resilient, and that would be able to 
be accelerated and put into place.
    Similarly, one of the areas that I think is a tremendous 
opportunity for the entire country is understanding the 
interdependence of complex lifeline systems. We know from not 
only earthquake events but from issues relating to hurricanes 
and other kinds of natural disasters that there are tremendous 
interdependencies among these systems, and I will give you an 
example. After Hurricane Katrina, there was virtually all the 
infrastructure in place to take oil from the Louisiana off-
shore oil part, and take it on the pipeline system because that 
was buried. It wasn't affected by the hurricane--and take it 
into the Midwest where it was absolutely necessary for energy. 
But it was unable to function because the pump stations were 
without electricity having had those transmission lines blown 
down and substations under water because of Hurricane Katrina.
    So these interdependencies and understanding them and 
earthquakes have really led the way because of the large 
geographic extent of the damage and the interdependencies and 
the interaction and all these different functionalities have 
really helped being illustrated. And there have been a number 
of sophisticated models that have been put forward. This kind 
of work could accelerate, and I think not only do you end up 
with that type of support securing this country against 
earthquakes, but you have an enormous additional benefit in 
terms of the technology, the procedures, the processes that 
spread out and are applied to all sorts of hazards, including 
human threats in the form of major accidents and then also 
terrorism.
    So a lot of what is done in the earthquake area affects 
other hazards, and it also affects our critical civil 
infrastructure. And trying to leverage this kind of support, 
this kind of investment we make in the earthquake area to 
affect our civil infrastructure, make it better--you know, if 
you can make civil infrastructure better during an earthquake, 
I guarantee you, you have made it better for everything.
    Dr. Harris. I would like to add to Tom's remarks just a 
little bit and say that a substantial increase would allow, I 
think, a lot more attention to be paid to the substantial 
problem of evaluating and rehabilitating existing structures, 
especially in the area where earthquake hazards is of the 
nature where it occurs relatively frequently. No place is it 
truly frequent but relatively frequently. We have a tremendous 
inventory of built construction that is not earthquake 
resilient, and the real money is making those structures 
resilient. Increasing the funding for the program in a 
substantial way is the first step toward figuring out how we 
come up with the right economic models to fund the 
rehabilitation of existing hazardous construction. There is a 
strong tradition in the regulation of buildings: laws are not 
made retroactive. There are a few sterling exceptions, such as 
the invention of the smoke detector a little bit less than a 
half-century ago, which led to building code provisions that 
existing structures had to be retrofitted with smoke detectors 
because it was such a low-cost item and saved so many lives. We 
don't have that analogy for almost anything that is structural, 
and so private sector buildings, there are no mandatory--they 
are very limited, pardon me--mandatory, retroactive provisions 
in building codes to reduce existing hazards.
    Chair Wu. Is there an exception for that, say, in the San 
Francisco Bay area that when you redo even a residential 
structure that you have to upgrade the structure?
    Dr. Harris. Yes, and these rules are complicated as you 
might expect. When you are giving essentially extended life to 
existing buildings, there are rules that vary from one 
jurisdiction to another as to whether you have to actually even 
evaluate the existing seismic hazard, and then if you do have 
to do that, what you have to do in terms of upgrading. It is 
unusual that you would have to bring existing structure up to 
the level expected for new construction. And the rules are not 
necessarily consistent. FEMA has been working on this problem 
for a long time. They have supported the development of tools 
that the engineering profession is finding useful, but the 
engineering profession also finds gaps, holes, et cetera, in 
these tools. The enhanced funding could accelerate this process 
so the engineering tools are better, and frankly there has to 
be the public policy side of this to decide how we are actually 
going to get things implemented.
    Chair Wu. Thank you. Would the gentleman from New York like 
to ask any further questions?
    Mr. Tonko. No, Mr. Chair, I am set. Thank you.
    Chair Wu. Thank you very much then. Let me move toward 
closing, and I would like to ask a question of Dr. Lindell or 
anybody else who would like to respond, and this is a 
curiosity/speculation question.
    Dr. Lindell, in your testimony earlier you said that 
depending on social, economic and other factors of the 
population affected, there are potentially different responses 
or different outcomes to various disasters. And I would just 
like to invite you to speculate for me. And if this is 
something to which you have not devoted any professional 
thought, I am fine if you decline to speculate. But one 
natural, one man-made disaster, if you will, if Hurricane 
Katrina had hit a different city with a different ethnic 
makeup, a different social economic mix, what kinds of 
outcomes, what kinds of reactions might have been different. 
And similarly, instead of the airplanes crashing into the World 
Trade Center on 9/11 if say that had happened--you are at Texas 
A&M--and if those airplanes had crashed into buildings or a 
school where there are 3,500 kids in Houston rather than two 
office towers in New York City, how might things have been 
different. And if you are comfortable speculating about those 
scenarios, I would invite you to illuminate the situation for 
me.
    Dr. Lindell. I am a professor, and so speculation is my 
profession.
    First, regarding Hurricane Katrina, I think it is 
instructive to note that in 1992, Hurricane Andrew struck 
Miami. Andrew was actually a stronger storm. It was at the top 
of the category four and was subsequently reclassified as a 
five on the Saffir-Simpson scale. Even though it was actually a 
stronger storm than Hurricane Katrina, it created fewer 
casualties, less damage, and less long-term disruption. Now, 
part of the reason for that--as a matter of fact, we know a 
number of the reasons why there was such a big difference 
between Andrew and Katrina. First of all, we know that much of 
New Orleans is below sea level and that Katrina had a stronger 
surge than Andrew did. And so the hazard exposure of the city 
made a difference. Had the land use plans in the City of New 
Orleans prohibited development in areas, let us say, below 10 
feet below sea level, the damage and death toll probably would 
have been much less. Had the building codes required elevation 
of the structures so that they could withstand the flooding of 
the city, the damage and the death toll would have been even 
smaller. Those land use plans and building codes deal with 
hazard exposure and physical vulnerability, respectively. There 
is also social vulnerability, which is another preexisting 
condition. We know that some of the greatest damage and the 
greatest death tolls were in areas where people were in lower 
income, lower education, population segments and were ethnic 
minorities, as well. All of these are indicators of or 
predictors of social vulnerability. These were people that 
didn't have the cars to--they either had no cars to evacuate, 
had cars that were not sufficiently reliable to travel out of 
the city, or had insufficient funds to be able to travel 
outside the city for an extended period of time. Because all 
their relatives lived in the city, they didn't have any 
relatives or other people that they could stay with because 
that is where most people who evacuate do stay. Few people go 
to public shelters: it is usually only a maximum of about 15 
percent in most cases. Most people stay with friends and 
relatives, or if they have the money, they go to commercial 
facilities, hotels and motels.
    So those are a few ways in which the consequences would 
have been different had it been a city that had a lower 
proportion of ethnic minorities or households with low incomes. 
On the other hand, what if there had been compensatory measures 
that had recognized adequately the social vulnerability, the 
physical vulnerability and the hazard exposure? That is, what 
if the local emergency plans had provided for the training of 
bus drivers and made arrangements to ensure that bus drivers 
would have been there to drive the school buses that many 
pictures show were flooded out, that were never used for 
evacuation? So had there been better mitigation measures, 
better emergency response preparedness, and better disaster 
recovery preparedness measures; had there been a higher 
proportion of people that not only had flood insurance but had 
a flood insurance and also homeowner's insurance through high-
quality insurance companies.
    One of the things that was found in Hurricane Andrew is 
that many of the ethnic minorities and lower income population 
segments had their homeowner's insurance with regional 
companies that went bankrupt. They either got nothing or got a 
very low payment on their losses, sometimes what happened was 
that it took a very long time to go through the State of 
Florida to get any kind of funds for reconstruction.
    So there are all these social science factors. We have 
talked about building codes, but it takes political will within 
a jurisdiction to get those codes adopted, implemented, and to 
get the inspections done to make sure that they are actually 
effectively implemented. So there are a large number of social 
science issues that follow on from just about all of the 
physical science and engineering issues that relate to this 
question of how would things have been different if there was 
good physical science and engineering research. It could have 
been different but only if that research was properly 
implemented.
    Chair Wu. Thank you, Dr. Lindell, for that very thoughtful 
response. I think that underscores the Science Committee credo 
that information is important and the opportunity to think 
about it is very, very precious.
    I want to start something new with this subcommittee here. 
We have gone on for a while, but I want to turn it back over to 
the panel. If the panel has anything else to add because it 
occurs to me that you all have traveled, many of you 
significant distances, and in the course of a dialogue like 
this, I think one of the most frustrating things is to have 
come a long distance and to sit there with a sense of, you 
know, I have something to say about that or if the guy just 
asked me a different question. So consider the question asked, 
and we will take just a couple minutes so that if there is a 
burr under your saddle blanket, please proceed in whatever 
order.
    Dr. Harris. I will offer one thing which follows directly, 
I think, some of Mike's comments about Katrina, and one of the 
things that has become clear in my service on committees 
writing things that end up in building codes is that 
fundamental question that I as a structural engineer worry 
about in terms of how safe is safe enough has really different 
answers depending upon what kind of environment, local, 
political, or natural hazard one is talking about, and from the 
Science Committee's perspective, I think the natural hazard 
differences are really of interest. We are not designing 
structures to resist earthquakes to be as safe as we are with 
respect to wind, snow, or any other natural hazard except 
flood. Flood is almost out in a different room, if you will, 
maybe in the same building, but our hazard level that we 
consider the design criterion for flood is something on the 
order of 100 or 200 years, mean recurrence interval. That means 
that within a given year, you have a one percent or one-half 
percent chance of your flood protection system failing. The 
current earthquake criterion is a one out of 5,000 chance per 
year. For a wind load failure on a structure that meets the 
building code, it is more like one out of 125,000 to one out of 
50,000 chance per year. This is a public policy question that 
engineers alone shouldn't necessarily be answering. And if 
there's something that I would like to see a multi-hazard 
approach taken on. It is--what are the appropriate safety 
levels?
    Dr. Lindell. I would like to return to this issue of multi-
disciplinary research because it is one that the NRC Committee 
on Disaster Research in the Social Sciences addressed at some 
length. One of the things I would like to remind you is that as 
a rule, universities award degrees in disciplines, not in 
problems. Earthquake hazard mitigation, like other hazard 
mitigation, is a problem, not a discipline.
    And so it is really--part of the problem is to figure out 
ways in which to get universities--and the research faculty in 
those universities--to collaborate in trying to address these 
problems. A consequence of the fact that we are trained in 
disciplines is that we view the world very much like a very 
famous New Yorker cover in which it shows a view from 
Manhattan, and Manhattan island takes up one half of the cover, 
and then New Jersey and Pennsylvania take about the next 
quarter, and then on the distant horizon are California and 
Japan. That is the way that every discipline trains its members 
to view the world. We look at very fine distinctions within our 
disciplines and think they are very large. And so what happens 
as a consequence is that social scientists are trained to think 
of physical scientists and engineers are pretty much 
interchangeable, and that physical scientists and engineers see 
the different social sciences--psychology, economics, 
sociology, political science--as all the same. Of course, this 
is horrifying to anybody within those disciplines. The problem 
is that universities need to create incentives to get people 
out of their own disciplines simply because all the rewards are 
to doing things within your own discipline.
    NSF had a brilliant idea a number of years ago to require 
in some programs that submission of proposals required that 
there would be at least one physical scientist or engineer and 
one social scientist as a key member of the project staff. That 
requirement had a huge influence on people's willingness to 
engage in interdisciplinary research. It is as a philosopher 
once said, a journey of 1,000 miles but are only at the very 
first steps. There are some engineers that are further along 
than others. There are some social scientists that are further 
along than others. But those kinds of incentives are definitely 
effective in improving the amount of multi-disciplinary 
research.
    Prof. O'Rourke. Chairman Wu, there is a well-known person 
in our community, that is, the natural hazards and earthquake 
community, by the name of Dennis Mileti who says that natural 
hazards never went to college, they never had to major in any 
particular area of engineering or science. And I think that 
sort of speaks to the way that communities look at natural 
hazards. If they are affected by earthquakes, they are very 
seriously affected and concerned. If they are affected by 
hurricanes, it is similar for that particular hazard. In other 
words, if I could give one more quote, that would be from 
Voltaire, ``We are all victims of our virtue but there is no 
virtue in being a victim.'' What we want to do is to protect 
our communities, and perhaps the best way to do that is to find 
a multi-hazard approach. However, natural hazards, R&D, and 
coordinated hazards research involves science, modeling and 
engineering. It really does differ among the hazards, and so 
they do have to be approached on a technological basis 
differently, and it also involves a lot of institutional 
cultures and stakeholders and a multitude of governmental 
agencies. And that is why, I think, a very good way to approach 
this on a broad level and a level that would help to integrate 
it is to pursue the National Academies in trying to put 
together an NRC study that would bring together all the 
stakeholders and look at this problem from an integrated 
perspective and give us the time to reflect and understand how 
to go forward and in that process to recognize that NEHRP is 
really the gem within the programs that address natural 
hazards. The wonderful things that have come from this program, 
and the reduction in risk that it has been able to generate for 
communities affected by seismic and tsunami hazards, has been 
extraordinary but also the fact that it has generated so much 
technology, so much procedure, and so much policy which is 
shared and used by the other natural hazards. You know, one of 
the great examples is the World Trade Center disaster. When the 
World Trade Center disaster occurred, the buildings surrounding 
the World Trade Center site had to be inspected, but there was 
no existing protocol for how to examine a building next to a 
terrorist attack. But they used protocols from inspecting 
buildings for earthquakes and adapted it, and that allowed some 
very important trading companies to participate in the market 
much more quickly than they would have and helped really to 
establish financial order worldwide.
    So supporting NEHRP is also an important part of this, and 
I hope we can perhaps increase some of the authorized levels 
modestly but certainly try to achieve in our enactment the 
authorized levels to use this program as the cornerstone for 
going forward in multi-hazards.
    Chair Wu. Thank you, Professor O'Rourke. Mr. Murphy, 
please.
    Mr. Murphy. Thank you, Mr. Chair. From the emergency 
management community, we are interested in using things like 
NEHRP and different programs to look at things from a multi-
hazard viewpoint, but I also don't want us to lose focus on the 
specific subject of earthquake. I think it is unique, even 
though we have things like Northridge or the Nisqually 
Earthquake in Washington State or in 2011, I believe, we will 
be doing a new Madrid exercise for the Central United States. I 
still think there is much to be learned. I do think we have to 
narrow our focus sometimes, even though there are 
commonalities. I would never deny that. But I do think we need 
to focus it. At least from the emergency management community, 
we can use all the science tools and the technology, you know, 
to help us out. I think about tools and technologies that have 
been developed over time for tornadoes or hurricanes or 
different events, you know. I think those are helpful, and I 
hope that the reauthorization of this program will induce us to 
keep moving forward because I really do need those tools and 
that research, and even the money for public education and 
outreach. That will make us stronger as a nation. Thank you.
    Chair Wu. Thank you very much, Mr. Murphy. Dr. Hayes.
    Dr. Hayes. Looks like I'm nominated to speak again. I 
thought about what I might say, and it is not profound, but I 
think it is important. One of the reasons that I took the job 
that I took three years ago was that the earthquake community 
is probably the most dedicated professional community I have 
ever witnessed anywhere. And as you consider the issue of 
multi-hazard and what might be done in relation to other 
hazards and looking at the example of NEHRP, don't overlook the 
fact that part of NEHRP's success, in fact a large part of it, 
has been the involvement of dedicated people from the private 
sector from academia, State and local governments, the dollars 
that we talk about for NEHRP have been leveraged in ways that 
no one has ever been able to document because of the dedicated 
service that people such as the gentlemen at the table today 
with me have provided for the program. They have done it not 
because of NEHRP but because they think it is the right thing 
for the Nation. That is something that you can't put a price 
tag on, and it is really important to consider that as we look 
at other hazards to see what kinds of communities might exist 
in relation to those other hazards as well. Thank you very 
much.
    Chair Wu. Thank you very much. I want to thank the entire 
panel and thank you for appearing before the Committee and the 
travel that many of you have done. The record will remain open 
for two weeks for additional statements from the Members and 
for answers to any follow-up questions that the Committee may 
ask of the witnesses. Again, thank you all very, very much for 
this thoughtful discussion. The witnesses are excused, and the 
hearing is now adjourned.
    [Whereupon, at 12:00 p.m., the Subcommittee was adjourned.]

                               Appendix:

                              ----------                              



                   Answers to Post-Hearing Questions
Responses by John R. Hayes, Jr., Director, National Earthquake Hazards 
        Reduction Program (NEHRP), National Institute of Standards and 
        Technology (NIST), U.S. Department of Commerce

Questions submitted by Chair David Wu

Q1.  Please provide the Committee with the fiscal year (FY) 2010 
National Earthquake Hazards Reduction Program (NEHRP) budget requests 
for the National Institute of Standards and Technology (NIST), Federal 
Emergency Management Agency (FEMA), U.S. Geological Survey, and the 
National Science Foundation. Please include a list of programmatic 
activities that will be supported by these funds.

A1. With the adoption of the new NEHRP Strategic Plan,\1\ NEHRP is 
tracking agency funding by the Strategic Goals as they are listed in 
the Plan. The relationships of the Strategic Goals to the Program 
Activities that are listed in P.L. 108-360 is as follows:
---------------------------------------------------------------------------
    \1\ Strategic Plan for the National Earthquake Hazards Reduction 
Program, Fiscal Years 2009-2013, October 2008.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q2.  In Dr. Harris' testimony he stated that an ``opportunity for 
improvement'' for NEHRP existed in ``deepen[ing] the commitment of DHS 
to NEHRP.'' At the previous reauthorization hearing for NEHRP in 2003, 
then Director of the FEMA Mitigation Division, Mr. Anthony Lowe, stated 
that increasing the interaction between NEHRP and the Department of 
Homeland Security Science and Technology (DHS S&T) was a high priority. 
Why hasn't there been improvement in the level of coordination and 
interaction? Please provide some examples of where NEHRP has 
---------------------------------------------------------------------------
collaborated with DHS S&T.

A2. Since the creation of DHS in 2003, the FEMA Mitigation Directorate 
(NEHRP) has coordinated and interacted with DHS Science and Technology 
(S&T) when opportunities to address all hazards issues have presented 
themselves. The most significant example of this coordination has been 
FEMA's Risk Management Series (RMS), a collection of over 20 
publications, training materials and assessment tools. The objective of 
the RMS series is to provide guidance in the post 9/11 environment on 
managing risks from different hazards in a balanced manner, resulting 
in reduced physical damage to buildings, injuries and/or loss of life. 
Different natural hazards (such as earthquakes, floods, high winds) and 
man-made hazards (such as conventional bombs, chemical, biological, and 
radiological (CBR) agents) are addressed in these publications.
    FEMA Mitigation (NEHRP) continues to reach out to DHS S&T to keep 
this material current with research and knowledge. While interactions 
have not been extensive, FEMA NEHRP continues to seek opportunities to 
coordinate with DHS S&T.

Q3.  Both ATC-57, The Missing Piece: Improving Seismic Design and 
Construction Practices, and previous NEHRP testimony before the Science 
Committee in 2003 discussed the need to address the growing gap between 
the science and engineering knowledge generated by NEHRP and its 
application. NEHRP testimony on June 11 of this year described 
activities such as technical support for the code development process, 
developing tools to improve earthquake engineering practice, and 
techbriefs to familiarize practicing engineers with new concepts in 
seismic design.

Q3a.  What proportion of total NEHRP funding supports these applied 
activities? To what degree is this level of support commensurate with 
closing this gap? Please also provide specific examples which 
illustrate the success of the activities identified above in closing 
this gap.

A3a. Both FEMA and NIST directly support applied activities that focus 
on ``closing the gap.'' In the FY 2009 NEHRP budget, most FEMA and NIST 
projects that contribute to Goals B and C of the Strategic Plan are 
directly tied to these applied activities. The total is about $12M, 
approximately nine percent of the total NEHRP budget. The 2009 
percentage is up from about six to seven percent of the total in recent 
years, reflecting renewed support for NEHRP activities in those 
agencies.
    While the question raised seems to point specifically to the 
engineering activities of FEMA and NIST, it is important to note that 
USGS supports or performs a significant amount of applied activity. 
Approximately a third of the USGS Earthquake Hazards Program funding is 
applied to developing hazard and risk products that are heavily used by 
engineers, planners, and emergency managers, as well as directly by the 
public. This funding supports development of seismic hazard assessments 
at national, regional and urban scales. In one of the flagship efforts 
for NEHRP, the National Seismic Hazard Maps are translated into the 
seismic provisions of model building codes through the involvement of 
FEMA and the consensus process of the code development community. 
Regional hazard maps like the recent California statewide earthquake 
rupture forecast are directly applied to insurance rate-setting and 
other purposes. Urban seismic hazard maps like those released this past 
year for Seattle provide much greater detail than the national or 
regional maps, include site effects due to soil type and other key 
factors. The Seattle maps are being used by the City of Seattle to 
prioritize retrofits and for the design process of new highway and 
bridge construction.
    As mentioned in the NEHRP Strategic Plan, the NEHRP agencies 
identified nine strategic priorities for the Program that will receive 
increased emphasis, contingent on available resources. All nine 
strategic priorities are closely tied to applied activities that would 
accelerate ``closing the gap.''
    FEMA has been active in this area for 30+ years, producing over 200 
earthquake design guidance publications on all aspects of earthquake 
mitigation and conducting or supporting related outreach and training 
activities. FEMA's development, publication, dissemination, and 
promotion of building design and construction materials are signature 
examples of NEHRP applied activities. Following are some examples of 
FEMA's successes:

        <bullet>  FEMA first developed The NEHRP Recommended Provisions 
        for New Buildings and Other Structures ongoing series of 
        publications in 1985 and has been periodically updated them 
        since. This series is a primary resource for translating NEHRP 
        and other research results into design practice and 
        implementation, with the primary goal of improving the Nation's 
        consensus standards and model building codes. FEMA works 
        through the Building Seismic Safety Council (BSSC) to involve 
        the Nation's leading earthquake engineering practitioners and 
        researchers in developing the ``Recommended Provisions.'' The 
        latest addition to this series is the pending 2009 NEHRP 
        Recommended Provisions, which contains many consensus-approved 
        changes to the national design consensus standard, ASCE 7.\2\ 
        Probably the most significant change is the adoption of new 
        seismic design maps based on the 2008 USGS seismic hazard maps. 
        The changes contained in the 2009 NEHRP Recommended Provisions 
        are serving as the basis for changes currently being balloted 
        for the 2010 edition of the ASCE 7 standard, which will then 
        adopted by reference by the 2012 International Building Code 
        (IBC).
---------------------------------------------------------------------------
    \2\ Minimum Design Loads for Buildings and Other Structures, ASCE/
SEI 7-05, American Society of Civil Engineers, 2006.

        <bullet>  It is also noteworthy that FEMA's efforts in this 
        area contributed significantly to a national movement away from 
        three regionalized model building codes into the nationally-
        recognized IBC. Via the Building Seismic Safety Council (BSSC), 
        FEMA supports a group of experts who submit changes developed 
        under the NEHRP Recommended Provisions and other projects to 
        the IBC and other ``International Codes'' series documents 
        (published by the International Code Council). The 
        International Codes, as well as the three predecessor codes, 
        have been substantially equivalent to the NEHRP Recommended 
        Provisions for over 15 years. The International Codes series 
        serves as the basis for State and/or local building codes in 
---------------------------------------------------------------------------
        all 50 states.

        <bullet>  Existing buildings are potentially greater risks than 
        new buildings, since most were constructed prior to the 
        adoption of current building codes; many could be collapse 
        hazards. FEMA has developed and published a series of technical 
        design guides on seismic evaluation and retrofit of existing 
        buildings. Publications include Rapid Visual Screening for 
        Potential Seismic Hazards (FEMA 154) for assessing large 
        populations of buildings, Prestandard and Commentary for the 
        Seismic Rehabilitation of Buildings (FEMA 356) for retrofitting 
        existing buildings, to Techniques for the Seismic 
        Rehabilitation of Existing Buildings (FEMA 547), which is a 
        publication developed with NIST assistance that provides 
        retrofit guidance techniques based on building type. 
        Information from these publications served as the basis for the 
        national consensus standard for seismic evaluation of existing 
        buildings, ASCE 31,\3\ and the national consensus standard for 
        seismic protection of existing buildings, ASCE 41.\4\ These 
        standards in turn serve as the basis for the International 
        Existing Buildings Code (IEBC), part of the International Codes 
        series.
---------------------------------------------------------------------------
    \3\ Seismic Evaluation of Existing Buildings, ASCE/SEI 31-03, 
American Society of Civil Engineers, 2003.
    \4\ Seismic Rehabilitation of Existing Buildings, ASCE/SEI 41-06, 
American Society of Civil Engineers, 2007.

        <bullet>  A primary recent FEMA focus is the development of 
        Performance Based Seismic Design (PBSD) guidance and other 
        materials for new and existing buildings. When mature, PBSD 
        will enable evaluating how an entire building is likely to 
        perform in a given earthquake and permit design of new 
        buildings or upgrade of existing buildings with a realistic 
        understanding of the risk of casualties, occupancy 
        interruption, and economic loss that may occur as a result of 
        future earthquakes. FEMA currently supports a multi-year 
        project to develop Performance Assessment Methodology and 
        Guidelines for new and existing buildings--the 50 percent draft 
        Guidelines for Seismic Performance Assessment of Buildings and 
        an accompanying Performance Assessment Calculation Tool (PACT) 
        are currently under review by FEMA. The second phase of this 
        project will develop a series of PBSD Guidelines for use with 
---------------------------------------------------------------------------
        different structural systems and building occupancies.

        <bullet>  In addition to PBSD work, FEMA supports efforts to 
        improve the prescriptive seismic provisions of ASCE 7 and the 
        IBC, thus improving the performance of buildings designed with 
        these model codes. It has recently supported the development of 
        a new methodology through the Applied Technology Council for 
        reliably quantifying building system performance and response 
        parameters; these parameters are critical components of the 
        prescriptive building code seismic design process. To report on 
        this new methodology, FEMA will soon publish the Quantification 
        of Building Seismic Performance Design Factors (FEMA P-695).

    As NIST restarts its active applied research efforts with increased 
funding, it is working very closely with FEMA. NIST received an 
increase of $800K in NEHRP funding (for a total of $1.7M) in FY 2007 
and an additional NEHRP funding increase of $2.4M in FY 2009 (for a 
total of $4.1M) providing funding for the applied activities that were 
outlined in ATC 57. Requested NIST funding for FY 2010 would continue 
support for these applied activities. NIST is committed to a combined 
in-house and extramural work accomplishment approach that was suggested 
by ATC 57. To that end, NIST awarded a multi-year Indefinite Delivery, 
Indefinite Quantity research contract in 2007 and is now in the process 
of developing a new in-house earthquake engineering work force. Also 
consistent with the ATC 57 recommendations, NIST has structured its 
NEHRP research program to address performance-based engineering, 
building code development technical support, national design 
guidelines, and evaluated technology dissemination.
    NIST is currently supporting beta testing of the FEMA P-695 
methodology. NIST is in the process of awarding new task orders on its 
research contract that will contribute to both PBSD and to improved 
model building code provisions. NIST has recently released two 
techbriefs, Seismic Design of Reinforced Concrete Special Moment Frames 
(NIST GCR 8-917-1) and Seismic Design of Steel Special Moment Frames 
(NIST GCR 09-917-3).

Q3b.  Is there similar support for applied activities in the social 
sciences?

A3b. Several of the NEHRP agencies are involved in this area.
    NSF is responsible for a significant portion of the NEHRP social 
sciences activities. In general, knowledge transfer and dissemination 
mechanisms in the social sciences are different from those in 
engineering and the physical sciences. NSF supports the activities of 
the Natural Hazards Center at the University of Colorado, Boulder, 
which serves as a major clearinghouse that links the research and 
practitioner communities. This center provides information on research 
results for over 20,000 subscribers. With the assistance of other NEHRP 
agencies, such as FEMA and USGS, total annual funding for the center is 
about $750,000. Various other major research centers across the 
country, such as the Disaster Research Center at the University of 
Delaware and the Hazard Reduction & Recovery Center at Texas A&M, 
engage in knowledge transfer and training programs. These centers also 
receive NSF funding.
    A portion of FEMA's earthquake work addresses social science 
issues. Most of this work focuses on outreach activities targeting the 
general public. The goal of these outreach activities is to affect 
behavioral change that improves public awareness, encourages 
appropriate response, and promotes activities to reduce future losses.
    As part of this outreach, in 2008, FEMA initiated QuakeSmart, a 
program to encourage business leaders and owners in areas at risk from 
earthquakes to take actions to mitigate potential damage to their 
businesses, provide greater safety for customers and employees, and 
speed post-earthquake recovery. Businesses that participate in the 
program benefit in numerous ways: their investments are protected 
better; they can recover more quickly from a disaster; they can save on 
insurance premiums; they can significantly reduce the risk of injury or 
death for themselves, their employees, and customers; and they create a 
more resilient community in which future investment is more attractive. 
QuakeSmart started with community forums in four cities in the Midwest 
and on the West Coast. Two regional follow-up events are planned for 
late 2009. Overall, FEMA has dedicated approximately $600,000 over the 
last two years to QuakeSmart.
    Other FEMA outreach efforts include the development and ongoing 
distribution of outreach-related FEMA publications, including: 
Promoting Seismic Safety: Guidance for Advocates (FEMA 474), Earthquake 
Safety Checklist (FEMA 526), Earthquake Safety Activities for Children 
and Teachers (FEMA 527), Earthquake Home Hazard Hunt Poster (FEMA 528), 
Drop, Cover and Hold Poster (FEMA 529), Earthquake Safety Guide for 
Homeowners (FEMA 530), and The Adventures of Terry the Turtle and 
Gracie the Wonder Dog (FEMA 531). The cost of developing, printing and 
the ongoing distribution of these publications since 2003 exceeds 
$500,000.
    The USGS has worked closely with social scientists, both within the 
agency and in the university community, to develop effective outreach 
activities and products. A recent example is the Great Southern 
California ShakeOut. USGS and its partners developed a scenario of the 
likely effects from a magnitude-7.8 earthquake on the Southern San 
Andreas Fault, which required not only expertise on the shaking and 
other hazard effects but also a wide range of expertise on the societal 
impacts, including economic losses, disrupted commuting patterns, and 
school impacts. Social scientists played a key role in the ShakeOut 
exercise, which was the largest public preparedness event in U.S. 
history, involving over five million people. The messages for the 
ShakeOut were developed using the results of extensive social science 
research into what is most effective. Social scientists have played key 
roles in scenarios developed for other high-hazard cities as well as 
helping to guide development of preparedness materials for maximum 
effect.

Q4.  Dr. Lindell noted in his testimony that research was needed to 
design better methods to encourage the adoption of mitigation measures. 
This need was also cited by NEHRP testimony before the Science 
Committee in 2003. What has NEHRP done specifically to address this 
since 2003? How much NEHRP funding, in general, has supported social 
science research since the last reauthorization?

A4. NSF supports social science research on earthquakes and other 
hazards. Since 2006, that support has totaled over $50M. The NSF-wide 
Human and Social Dynamics solicitation contributed over $34M for 
research on hazards and disasters, and the Directorate for 
Engineering's Infrastructure Management and Extreme Events program 
contributed over $14M. These research grants all include plans for 
technology transfer and dissemination of research findings. 
Increasingly, they are utilizing the Internet and other technologies to 
augment the traditional mechanisms of publications on professional 
journals, research reports, and after action reports. NSF has funded 
research on the adoption of mitigation measures by households and 
communities.

Q5.  The 2006 National Research Council (NRC) report referenced in Dr. 
Lindell's testimony recommended creating a Panel on Hazards and 
Disaster Informatics. Should this be a NEHRP responsibility? How should 
the challenge of sharing and standardizing hazards-related social 
science data be addressed?

A5. NSF funded the development of the NRC report that recommended 
creating a Panel on Hazards and Disaster Informatics. This 
recommendation was one of many in the report. As recommended, this non-
governmental Panel would have a two-fold mission: to assess issues of 
data standardization, data management and archiving, and data sharing 
as they relate to hazards and disasters, and to develop a formal plan 
for resolving these issues to every extent possible within a decade.
    The recommendations did not suggest an organizational framework for 
the panel. The NEHRP agencies envision the proposed Panel would be 
formed under the aegis of the NRC and would be ad hoc in nature, with 
the purpose of developing the proposed plan. If sufficient resources 
can be identified, the NEHRP agencies are willing to take the 
leadership in pursuing the development and support of this Panel; 
however, for it to be effective it must involve the support and 
participation of all other Federal agencies involved in disaster 
research, warning, and response. These include the Department of 
Homeland Security, the National Oceanic and Atmospheric Administration, 
the Forest Service, the U.S. Army Corps of Engineers, and many others. 
Without government-wide participation and support, the acceptance and 
applicability of the Panel results may be limited.
    In developing a plan, the Panel will face challenges. Currently, no 
single institution has the authority or capability to data mine 
research findings and disseminate them to potential users. It is a 
matter of debate how such an institution should be organized. Some 
researchers favor a clearinghouse, some want to borrow the structure 
and function of the agricultural extension service that is supported by 
USDA and the states, and others want a panel. It is not clear how such 
an institution should be funded, how it should disseminate 
recommendations, or how it will legitimize its operation.
    The centralization and standardization of hazards-related social 
science data has always been extremely difficult, given the great 
variety of qualitative and quantitative data that are gathered. 
Furthermore, there is an extraordinary variety of research designs, 
ranging from survey research, experimental and quasi-experimental 
investigations, ethnographies and ethnomethodologies, secondary data 
analysis, and participant observation studies. These designs may be 
perfectly appropriate for undertaking specific research projects; 
however they result in quite divergent forms of data.
    NEHRP agencies have made some progress in addressing this issue. 
The Earthquake Engineering Research Institute (EERI), as part of its 
NSF-supported Learning From Earthquakes program, has made some progress 
in standardizing data collection from its reconnaissance teams. The 
George E. Brown, Jr. Network for Earthquake Engineering Simulation 
(NEES) provides a national data repository for earthquake engineering 
experimental data. However, this effort primarily involves the 
collection of standardized structural engineering, geotechnical 
engineering, and tsunami hazard test data. The National Earthquake 
Information Center (NEIC) of the USGS maintains an accessible archive 
of summary information on casualties and losses for major earthquakes. 
At least from the earthquake perspective, standardizing both social 
sciences and other data will be an essential part of the effort 
required to develop the Post-Earthquake Information Management System 
(PIMS) that is referenced in Question 6 (following).

Q6.  The Advisory Committee on Earthquake Hazards Reduction recommended 
that NIST serve as ``the single point of coordination'' for all post-
earthquake reconnaissance activities. What resources and authorities 
would NIST need to serve in this role? The NEHRP Strategic Plan also 
calls for the development of a National Post-Earthquake Information 
Management System. Who would be responsible for operating and 
maintaining this system? What would the activities of operating and 
maintaining this system include?

A6. The NEHRP agencies are evaluating this significant new 
recommendation from the Advisory Committee. NIST is now comprehensively 
assessing the resources and authorities that it would need to serve in 
the lead agency role for post-earthquake reconnaissance. Regardless of 
the designated lead agency, post-earthquake reconnaissance, and the 
associated resource needs, will involve all of the NEHRP agencies.
    The NEHRP strategic priority of establishing PIMS is also a very 
recent development. The NEHRP agencies believe that PIMS is vitally 
needed. NEHRP took a first step towards developing a concept for PIMS 
through a scoping study that FEMA supported in 2008.\5\ This report, 
which may be downloaded in electronic form,\6\ provides valuable first-
step information, but additional study is needed to establish the 
requirements for this system--hardware, software, data collection 
criteria and formats for PIMS. The NEHRP agencies will work to develop 
the detailed planning needed to implement the PIMS concept.
---------------------------------------------------------------------------
    \5\ Post-Earthquake Information Systems (PIMS) Scoping Study, 
American Lifelines Alliance, September 2008.
    \6\ http://www.americanlifelinesalliance.org/PIMS%20Report/
PIMS.Final%20report.pdf

Q7.  The NEHRP Strategic Plan states that it will reestablish a 
dedicated State earthquake program, ``subject to the availability of 
---------------------------------------------------------------------------
funding.''

Q7a.  In the absence of a dedicated program, what has NEHRP done to 
address this need since 2003?

A7a. As FEMA reported in 2003, FEMA's original NEHRP Earthquake State 
Grant Program was combined with other similar State grant programs into 
a single Emergency Management Preparedness Grant (EMPG) program in the 
late 1990's to give states more flexibility in addressing their 
hazards. Within the EMPG program, the NEHRP funding lost its 
programmatic identity over time and the viability of a number of the 
State earthquake programs began to suffer as states used funds for 
other hazards. Since that time, virtually every state that had 
previously received NEHRP Earthquake State Grants has suffered 
significant reductions in support and capacity; many of the earthquake-
related activities had been curtained or stopped altogether. The net 
result was a significant reduction in State-level capabilities to 
prepare and respond effectively to a major earthquake event.
    Under the NEHRP Reauthorization Act of 2004 (Public Law 108-360), 
FEMA was directed to undertake a number of activities, including 
operating a program of assistance to states to accomplish various 
eligible earthquake mitigation activities. This new State Earthquake 
Assistance Program will support that responsibility by providing 
assistance to accomplish the following eligible activities:

        <bullet>  Develop seismic mitigation plans,

        <bullet>  Prepare inventories and conduct seismic safety 
        inspections of critical structures and lifelines,

        <bullet>  Update building codes, zoning and ordinances to 
        enhance seismic safety,

        <bullet>  Increase earthquake awareness and education, and

        <bullet>  Encourage the use of multi-State groups for such 
        purposes.

    In FY 2009, FEMA re-established a State Earthquake Assistance 
Program. In the mid-1990's, when the NEHRP Earthquake State Grant 
Program was subsumed into EMPG, the grant funding level was 
approximately $4.5M. In FY 2009, FEMA is committing $2.3M to this new 
program. When adjusted for inflation, the new program is less than half 
of the previous funding. However, it is an important step in supporting 
states to begin re-building their earthquake programs.
    Under this new State Earthquake Assistance Program, FEMA plans to 
enter into cooperative agreements with as many as 29 states and 
territories. This $2.3M program will support enhancing and maintaining 
State earthquake hazard mitigation programs for planning, education and 
assessment activities. By supporting and improving State earthquake 
programs, FEMA will be helping to reduce the loss of life and property 
from future damaging earthquakes.
    The criterion for eligibility for State assistance is demonstrating 
that the assistance will result in enhanced seismic safety in the 
state. Other goals include establishing and/or maintaining a dedicated 
State Earthquake Hazards Reduction Program and achieving measurable 
improvements in earthquake mitigation activities. Funded activities 
will be determined through individual negotiations between FEMA and the 
states.

Q7b.  Also, according to a 2004 Government Accountability Office 
assessment of the FY 2003 FEMA Pre-Disaster Mitigation Program, only 
seven percent of the grants applied for were related to seismic hazard 
mitigation. What factors accounted for this comparatively low level of 
attention to seismic risks?

A7b. The table below provides updated data for the FEMA PDM program 
from fiscal years 2003 to present:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The percentage of seismic projects submitted compared to the total 
number of projects submitted has improved substantially since the 
inception of the Program. Overall, seismic projects are well developed, 
feasible, and effective from engineering and cost perspectives. 
However, there are several reasons why there are fewer seismic projects 
submitted than other hazard types (i.e., flood and wind):

        <bullet>  Not all states have a substantial seismic risk.

        <bullet>  States may not appropriately identify seismic risk 
        (i.e., states in the New Madrid Fault Zone).

        <bullet>  States prioritize their sub-applications for 
        submittal to FEMA in accordance with the risks identified in 
        their respective State and local Multi-Hazard Mitigation Plans.

        <bullet>  Since seismic retrofit projects tend to be more 
        expensive than those for other hazards, and the PDM program 
        does not include multi-year funding, this may tend to 
        discourage states from submitting these types of projects.

        <bullet>  PDM program appropriations fluctuate from year to 
        year. And,

        <bullet>  There are competing requirements for funding (i.e., 
        State Set-Aside (Stafford Act Requirement and Congressional 
        Earmarks).
                   Answers to Post-Hearing Questions
Responses by Kenneth D. Murphy, Immediate Past President, National 
        Emergency Management Association (NEMA); Director, Oregon 
        Office of Emergency Management

Questions submitted by Chair David Wu

Q1.  The National Earthquake Hazards Reduction Program's Strategic Plan 
states it will re-establish a dedicated State earthquake mitigation 
program ``subject to the availability of funds.''

Q1a.   What has been the impact of a lack of federal funding for this 
program?

A1a. The impact of a lack of federal funding effects each states plan 
for a well coordinated and consistent earthquake hazards program. Many 
states do not have any dedicated funding of their own and truly depend 
upon the NEHRP program. The federal funding for states provides many 
opportunities that we cannot afford in the earthquake hazards 
environment. One of the most difficult challenges is trying to convince 
elected leaders at any level of government or business leaders in the 
private sector to make these investments before the disaster strikes 
and a disaster they may not have ever happened to them or very 
infrequently. I believe the lack of funding simply hurts the states and 
the Nation's ability to have a consistent mitigation, preparedness, 
response, and recovery program for earthquake hazards, you find 
yourself going at one pace, then you have to slow down or speed up 
based upon funding or just not continue. The lack of funds had the 
biggest impact on the states to maintain outreach and public education 
to its citizens and visitors, as you know this type of activity must be 
on-going, especially dealing with preparedness activities.
    The lack of funding also hurts the states in their ability to get 
more localized and specific types of information or scientific data to 
help them plan, make decisions, and transfer research into cost-
effective mitigation strategies. Finally the lack of funds also hinders 
states from implementing pilot projects for mitigation, development and 
implementation of immediate and long-term recovery plans. The lack of 
funding also has impacted states abilities to collaborate on multi-
State projects.
    The NEHRP program is critical to this nation's ability to deal with 
earthquakes. Over the last half century we have enough experience and 
data based upon actual earthquakes in the United States and around the 
world that clearly should give us pause as to are lack of preparedness.

Q1b.  In 2004, the Government Accountability Office reported that only 
seven percent of the fiscal year 2003 Federal Emergency Management 
Agency Pre-Disaster Mitigation grant applications were for earthquake 
mitigation. In your opinion, what were factors in this low utilization 
of available funds?

A1b. The Pre-Disaster mitigation grant program (PDM) is a very valuable 
program to states for mitigation activities. I cannot characterize any 
specifics about states low use of funds without some further research. 
My perspective from Oregon is that using these PDM funds for earthquake 
mitigation is hampered by the large dollar totals a State specific 
mitigation project may cost for earthquake projects, these high dollar 
projects will take most of your PDM dollars and states may have decided 
to go with lower cost projects. Additionally, it depends upon the 
state's overall mitigation plan, which may have many varying mitigation 
focuses and certain states have chosen to use this money for other more 
frequent hazard mitigation projects such as flood control.
    It is also a possibility that states may not have had applicants 
ready or eligible for these types of earthquake mitigation projects.

Q2.  One of the activities discussed in the Strategic Plan is the 
continued development and use of earthquake scenarios. How do State 
officials, such as emergency managers, use these tools? How could they 
be more effective?

A2. These types of products which are constructed by professional 
individuals and organizations provide a great tool for emergency 
managers. These types of tools if consistently improved based upon 
science or experience do help emergency managers. It takes the burden 
off of emergency managers to develop these scenarios and allows more 
time to exercise or plan for results based upon the scenarios.
    I believe they can be most effective if the scenarios are accurate 
representations of your jurisdiction, they contain good data and known 
effects. Additionally, if the scenarios are built to address more than 
just the emergency management community, this would make them more 
effective.

                   Answers to Post-Hearing Questions

Responses by Thomas D. O'Rourke, Thomas R. Briggs Professor of 
        Engineering, School of Civil and Environmental Engineering, 
        Cornell University

Questions submitted by Chair David Wu

Q1.  In Dr. Harris' testimony he stated that an ``opportunity for 
improvement'' for the National Earthquake Hazards Reduction Program 
(NEHRP) existed in ``deepen[ing] the commitment of DHS to NEHRP.'' 
Previous NEHRP testimony in 2003 noted that increasing the interaction 
between NEHRP and Department of Homeland Security (DHS) Science and 
Technology was a high priority. How would you assess the current 
interaction between NEHRP and other components of DHS? How could this 
interaction be strengthened?

A1. At FEMA, NEHRP staff has interacted with DHS in productive ways 
since the creation of DHS in 2003. A good example of this interaction 
is the production of the Risk Management Series (RMS), a collection of 
more than 20 different documents, training curricula, and vulnerability 
and assessment tools. The development and dissemination of these 
documents were funded with NEHRP and other FEMA Mitigation Directorate 
resources. The documents were focused on knowledge and information 
needed by architects, engineers and contractors to address human 
threats in the built environment that is owned and maintained by the 
private sector. After 9/11 it was recognized that essential information 
on dealing with human threats was not readily available to the private 
sector, even though guidance was at hand for designing and hardening 
military facilities, U.S. embassies, and other government buildings. 
The RMS documents have helped fill this knowledge gap and are being 
widely used. These documents have also resulted in opportunities to 
collaborate with the DHS Science and Technology Directorate, Office of 
Infrastructure Protection, and Policy Office.
    Even though there are examples of successful programs, like the RMS 
documents, the overall DHS engagement of NEHRP within FEMA has been 
uneven. For example, FEMA was responsible for developing the national 
loss estimation procedures embodied in the software HAZUS. This program 
has been very successful for earthquakes, and has been adapted to 
floods and windstorms. When DHS was developing modeling capabilities 
for human threats, there was little interaction between DHS and FEMA, 
even though FEMA had acquired extensive experience in modeling the 
effects of natural hazards when producing HAZUS. Ultimately, DHS 
created its own tools without making use of the HAZUS tool set 
developed over 10+ years at a cost of $40M.
    Programs within FEMA, which are focused on natural hazards, involve 
community interactions, dealing with multiple stakeholders, building 
consensus for standards and guidelines, and public education. In my 
opinion, the security of U.S. communities requires the ability to deal 
with sensitive and often subtle societal issues, as well as the ability 
to achieve security hardening against human threats under the 
leadership of managers with law enforcement and military experience. 
DHS could benefit substantially from the experience acquired by FEMA 
with communities vulnerable to natural hazards. There is perhaps no 
better illustration of the need for working with communities to achieve 
resilience than New Orleans before and after Hurricane Katrina. I was a 
member of the National Academies Committee on the New Orleans Regional 
Hurricane Protection Projects and saw first hand the need for better 
coordination with local communities and utility companies that are 
responsible for the lifeline networks. The social science and remote 
sensing expertise gained through NEHRP is providing support for 
building a more resilient New Orleans, and should receive greater 
attention and support from DHS.
    An important way to promote productive and sustainable interactions 
between DHS and NEHRP is for NEHRP to appear as a line item in the DHS 
budget for FEMA. A line item in the budget would be the single most 
effective action to improve the visibility and accountability of the 
program.

Q2.  What has been the result of the elimination of the American 
Lifelines Alliance by the Federal Emergency Management Agency (FEMA)?

A2. The elimination of the American Lifelines Alliance (ALA) has left 
NEHRP without a focused and dedicated program for the implementation of 
research findings and best practices for critical lifeline 
infrastructure, such as electric power, gas and liquid fuel delivery, 
telecommunications, transportation facilities, water supplies, and 
waste management systems. As indicated in my written testimony, the 
Advisory Committee on Earthquake Hazards Reduction (ACEHR) [2008] 
recommends that all NEHRP agencies expand their activities related to 
lifeline systems, and points out that attention should be given to the 
interdependencies among lifeline systems as well as the national impact 
that a single outage can have.
    When addressing lifelines, it is very important to enlist the 
assistance of the Technical Council for Lifeline Earthquake Engineering 
(TCLEE) of the American Society of Civil Engineers (ASCE). This 
volunteer, professional organization has a dramatic impact on reducing 
seismic risk to lifelines and has published many excellent reports and 
conference proceedings that are available through ASCE. This 
organization has received very little direct support through NEHRP and 
should figure more prominently in future NEHRP activities. Working 
directly with TCLEE should be a cornerstone for a NEHRP program focused 
on lifelines.

Q3.  You mentioned FEMA State earthquake mitigation grants in your 
testimony. What were some of the successes of these grants? In the 
absence of a dedicated State earthquake mitigation program, what have 
states been unable to do? Do you believe there is a need to reinstate 
this program?

A3. The original FEMA State Earthquake Grant program supplemented State 
earthquake hazard mitigation program efforts and provided dedicated 
State funding for planning (response, mitigation, and preparedness), 
inspections of critical facilities, active support for building codes 
and land use issues, and staffing support to carry out these 
activities. There was also a matching funds requirement to ensure State 
commitment to the program. For a number of states these funds were the 
difference between having an EQ hazards reduction program and not 
having one.
    As these funds and their visibility faded, beginning in the late 
1990s with the creation of the Emergency Management Preparedness Grant 
(EMPG) program, State earthquake programs were compromised. By 2009, 
virtually every state, which had received grants previously, had 
suffered significant reductions in support and capacity, and many of 
the activities listed above had been curtained and stopped altogether. 
The net result is that there has been a significant, and perhaps 
profound, reduction in State-level capabilities to respond effectively 
to a major earthquake because of funding and staffing cut-backs. Along 
with the loss of resources and staff came a loss of expertise critical 
for effective earthquake response.
    FEMA is now negotiating 29 cooperative agreements with 29 states 
(about $80,000 each) for an estimated $2.3 million for State earthquake 
hazard reduction programs. In the late 1990s, when the earthquake State 
grant program was subsumed into EMPG, the funding level was 
approximately $4.5M. Adjusted for inflation, the new effort is less 
than half that of the previous funding. However, it is an important 
step in the right direction.
    The successful FEMA State Earthquake Grant program should be 
reinstated at levels that exceed those in the past to account for 
inflation and restore the balance and level of engagement that 
previously had been achieved. One focus of the State programs could be 
the seismic safety of schools, where there is substantial need for 
improvement. As indicated in my written testimony, a serious life 
safety threat exists with respect to non-ductile concrete, soft story, 
and unreinforced masonry buildings. Many schools fall within this these 
building categories, and steps should be taken to correct this 
situation. The FEMA State Earthquake Grant program can provide critical 
assistance to retrofit or reconstruct unsafe buildings and improve the 
safety of our schools.

Q4.  With respect to getting civil infrastructure projects in place, 
you mentioned that there are ``more effective ways of approaching'' the 
dialogue between social scientists and engineers and scientists. Please 
assess current NEHRP activities in support of fostering the interaction 
between engineers and social scientists. What would you recommend to 
improve these interactions?

A4. As indicated in my written testimony, research into the social and 
behavioral aspects of community response to earthquakes is a natural 
complement to research that increases the resiliency of the built 
environment. Interdisciplinary research through NEHRP, which involved 
collaboration among social scientists, engineers, and geoscientists, 
has resulted in advanced technologies for reinforcing and monitoring 
the built environment, loss assessment methodologies, emergency 
response procedures, and a process for achieving disaster preparedness 
(EERI, 2008a). They also involve a unique, multidisciplinary culture 
that integrates basic and applied research into design codes, 
construction methods, and public policy. NEHRP-related 
interdisciplinary research has provided benefits that extend well 
beyond seismic risk to improve the security and economic well-being of 
U.S. citizens and other members of the world community within a multi-
hazard context.
    Effective programs involving interdisciplinary research have been 
supported in the past through NSF at the Earthquake Engineering 
Research Centers (EERCs). Core funding for those centers has ended to 
make way for new NEHRP-related research. The interdisciplinary research 
at the EERCs provides good examples of successful programs that can 
guide interactive research with social scientists in the future. ACEHR 
(2008) recommends joint support from both NSF and NIST for multi-
disciplinary projects either with the newly graduated EERCs or with 
teams that have the appropriate interdisciplinary skills. The 
Earthquake Engineering Research Institute (2008b) has issued a white 
paper, entitled Earthquake Risk Reduction: Addressing the Unmet 
Challenges, in which recommendations for an interdisciplinary research 
approach are provided. NSF is home for the Engineering, Geosciences, 
and Social, Behavioral, and Economic Sciences (SBE) Directorates. 
Hence, SBE is well positioned to develop multi-disciplinary projects 
involving social science interactions with the either the Directorates 
for Engineering or Geosciences, or both.

REFERENCES

Advisory Committee for Earthquake Hazards Reduction (ACEHR) (2008) 
        ``Effectiveness of the National Earthquake Hazards Reduction 
        Program,'' May, available through the National Institute of 
        Standards and Technology, Gaithersburg, MD.

Earthquake Engineering Research Institute (EERI) (2008a), 
        ``Contributions of Earthquake Engineering to Protecting 
        Communities and Critical Infrastructure from Multi-hazards,'' 
        Earthquake Engineering Research Institute, Oakland, CA, Nov.

Earthquake Engineering Research Institute (EERI) (2008b), ``Earthquake 
        Risk Reduction: Addressing the Unmet Challenges, The Need for 
        an Interdisciplinary Research Approach,'' Earthquake 
        Engineering Research Institute, Oakland, CA, Jan.
                   Answers to Post-Hearing Questions
Responses by Michael K. Lindell, Professor, Landscape Architecture and 
        Urban Planning; Senior Scholar, Hazard Reduction & Recovery 
        Center, Texas A&M University

Questions submitted by Chair David Wu

Q1.  In your testimony, you mentioned that more research was needed on 
how to design inducements to encourage people to adopt hazard 
mitigation measures. The 2003 National Earthquake Hazards Reduction 
Program (NEHRP) testimony before the Science Committee also noted the 
need to better understand and design such measures. What type of 
research is needed on this specifically? Why has progress lagged on 
this topic for the last six years of this reauthorization? What actions 
would you recommend to address this?

A1. The type of social science research that is most needed now is 
integrative research that systematically examines the effects of risk 
reduction programs involving different types of hazard adjustments. The 
term hazard adjustments encompasses all three types of hazard reduction 
actions--1) hazard mitigation, 2) emergency response preparedness, and 
3) disaster recovery preparedness. Hazard mitigation comprises actions 
that provide passive protection when disaster strikes (e.g., better 
land use regulations and building codes that prevent damage and 
casualties from happening in the first place) Emergency response 
preparedness supports an active response when disaster strikes (e.g., 
better response plans, procedures, and training that prepare responders 
to stabilize damaged buildings, fight fires, and treat the injured). 
Disaster recovery preparedness speeds the community's return to normal 
levels of psychological, social, economic, and political functioning 
(e.g., developing more effective hazard insurance programs so families 
can rebuild their homes).
    As I indicated in my testimony, economic market mechanisms alone 
cannot solve the problem of seismic hazard adjustment because people do 
not respond to hazards in the ways that are necessary for markets to 
work efficiently and effectively. Political mechanisms alone cannot 
solve the problem of seismic hazard adjustment because the Federal 
Government (which ultimately pays for much of the cost of disaster 
response and recovery) lacks control over the most important mechanisms 
that produce hazard vulnerability--ineffective land use and building 
construction practices. Thus, an integrated set of private and public 
sector actions is needed by stakeholders at multiple levels (household/
business, profession/industry, local government, State government, and 
Federal Government).
    Existing social science research has identified individual elements 
of a systemic approach to seismic hazard adjustment, but these elements 
have only been studied in isolation. Consequently, we do not know if a 
program that assembled these individual elements would function in the 
way it was intended to work. This is the reason that systematic multi-
disciplinary research should be conducted to develop and evaluate 
comprehensive programs for seismic hazard reduction. Such research 
might, for example, systematically examine the National Flood Insurance 
Program to identify ways in which a different combination of market 
mechanisms, government incentives and sanctions, and technical 
assistance could more effectively guide land developers, homeowners, 
and banks to reduce their hazard vulnerability. Such research should 
address the communication of information about risk and hazard 
adjustments, and the development and dissemination of new hazard 
adjustment technologies, as well as positive (financial incentives), 
negative (punishment for violations of regulations), and facilitative 
(providing the means for implementation such as specialized knowledge 
and equipment) inducements.
    There are fundamental obstacles to implementing comprehensive 
hazard reduction programs because there is no single societal 
institution in the public or private sector that has sufficient 
administrative responsibility and technical capability for providing 
relevant social science research findings to those who need them. Such 
an institution could monitor current research findings, assess their 
suitability for field application, and establish standards for 
practice. The NEHRP partner agencies--FEMA, NIST, NSF and USGS--lack 
the administrative responsibility and, consequently, lack a staff of 
qualified social scientists available for performing this function.
    The reason a specific institution is needed to promote 
dissemination of social science research findings is that seismic 
hazard reduction lacks market mechanisms of the type that exist, for 
example, in the health domain. There, pharmaceutical manufacturers, who 
expect to make a profit on the sale of their products, conduct clinical 
trials at their own expense to determine if their new drugs are safe 
and effective. After receiving approval from the Food and Drug 
Administration, the pharmaceutical manufacturer can take its product to 
market. As is the case with the clinical trials, the expense of product 
distribution is paid by the manufacturer in the expectation of making a 
profit. In sum, where salable products exist, market incentives can 
generate innovations and distribute these innovations to users without 
government intervention.
    By contrast, social science research rarely produces products that 
can be sold for a profit so there is no market incentive to conduct the 
types of tests that are equivalent to clinical trials. Nor is there an 
incentive to disseminate research finding widely because researchers 
are rewarded mostly for publishing their results in scholarly journals. 
Because there are few rewards for anyone to disseminate potentially 
useful research findings, the transfer of social science technology to 
practical application tends to be slow and inconsistent. The ultimate 
consequence is that communities remain unnecessarily vulnerable to 
earthquakes and other natural hazards even though social science 
findings exist that could reduce this vulnerability.

Q2.  The 2003 NEHRP testimony before the Science Committee stated that 
increasing the interaction between NEHRP and the other components of 
the Department of Homeland Security (DHS) was a high priority. The 2006 
National Research Council report you discussed in your testimony also 
recommended increased coordination between the National Science 
Foundation (NSF) and DHS for social science research and development. 
In your opinion, what have been the impediments preventing the 
recommendations made in 2003 and 2006 from becoming a reality?

A2. I know from personal experience that NSF has collaborated with at 
least two other federal agencies (the Department of Transportation and 
the Department of Commerce/National Oceanographic and Atmospheric 
Administration) in developing and funding programs that involved social 
science research. I don't know of any similar collaborative programs at 
the Department of Homeland Security, but this might be because I have 
only had limited contact with that agency.
    I know that collaboration requires parties to be both willing and 
able to coordinate their actions but, in the case of DHS, I don't know 
which of these is the more important factor. My experience with the 
agency suggests that DHS has an extremely strong emphasis on terrorism 
and, within that focus, on applied research in the physical, 
biological, and engineering sciences. This would be an impediment to 
collaboration on social science relevant to natural hazard reduction. I 
also gather that DHS has very few social scientists, which would affect 
the agency's ability to collaborate.

Q3.  As noted in Dr. Harris' testimony, there is a gap between 
earthquake science, engineering knowledge, and research findings and 
the ability of practitioners to use this knowledge. Are there examples 
of a similar gap that exist within the social sciences? If so, where? 
What mechanisms exist to bring social science research findings into 
practice?

A3. As I noted in my response to the first question, there is a 
substantial gap between social science research findings and their 
application to earthquake hazard reduction. The gap exists because 
there is no institution with sufficient administrative responsibility 
and technical capability to promote the transfer of the administrative 
technologies developed through social science research. There are 
currently some institutions that address this need in a very limited 
way. For example, the Natural Hazards Center at the University of 
Colorado serves as an information clearinghouse. However, this center 
lacks the funding and staff to transfer social science technology at 
the scale at which it is needed. More generally, social science 
technology transfer is achieved by the (mostly pro bono) 
entrepreneurial activities of a very few researchers.

Q4.  Under NSF funding, the National Earthquake Centers required 
engineers and physical scientists to partner with social scientists. 
How successful were these partnerships? What would you recommend to 
ensure that the knowledge and expertise of social scientists are well 
integrated into collaborative projects?

A4. As I noted in my written testimony, there have been some cases of 
social scientists collaborating successfully with engineers and 
physical scientists. As the Committee on Disaster Research in the 
Social Sciences concluded, the Earthquake Engineering Research Centers 
had a mixed record of success in fostering such collaboration. However, 
even this limited amount of collaboration only existed while the 
Earthquake Engineering Research Centers were funded by NSF. I know of 
no evidence to indicate that any significant level of collaboration has 
continued since the termination NSF funding to the Earthquake 
Engineering Research Centers. Indeed, despite the tremendous 
opportunity for technical advances that the George A. Brown Network for 
Earthquake Engineering Simulation seems to provide for engineers, this 
facility presents even fewer opportunities for collaboration with 
social scientists than were available through the Earthquake 
Engineering Centers.

                   Answers to Post-Hearing Questions

Responses by James Robert Harris, President, J.R. Harris & Company, 
        Structural Engineers

Questions submitted by Chair David Wu

Q1.  In your testimony you stated that an ``opportunity for 
improvement'' for the National Earthquake Hazards Reduction Program 
(NEHRP) existed in ``deepening the commitment of DHS to NEHRP.'' Why 
hasn't there been an improvement in the level of interaction? What 
opportunities exist to strengthen the interaction between NEHRP and 
other sectors of DHS?

A1. I'm not close enough to the inner working of DHS to know why there 
has not been an improvement, although I understand there are many 
competing demands upon DHS. I'm not a social scientist, but it does 
seem to be human nature to assign lower priority to hazards that are 
rare events, even though the consequences may be high. That said, I 
suggest that an improved accountability would strengthen the 
interaction. It should be possible to track the expenditures and 
compare with the budget. Refer to the 2008 report of the Advisory 
Committee on Earthquake Hazard Reduction, ``Effectiveness of the 
National Earthquake Hazards Reduction Program,'' prepared for and 
available from NIST, in which the second recommendation regarding FEMA 
read ``Fund FEMA at the authorized level and assure funding is 
dedicated to earthquake risk reduction'' (emphasis added). The Advisory 
Committee was seriously concerned about the erosion of funds made 
available to NEHRP within FEMA. Some of this erosion is the result of 
inflation, but some of it is simply difficult to track. Congress should 
review the tools at its disposal, make a decision about how to increase 
the accountability and then review the effectiveness.

Q2.  Hearing testimony strongly supported greater resources and a 
larger role for the National Institute of Standards and Technology. In 
your testimony you noted that NEHRP must recognize and acknowledge 
realities in the building industry that slow the adoption of the latest 
research into practice. How could NEHRP activities be improved to close 
the gap between the creation of new science and engineering knowledge 
and developing the tools to allow practitioners to utilize this 
information?

A2. Two activities are necessary to close the gap: NIST must carry out 
its role in support of applied research, and FEMA must continue to 
develop and maintain guideline documents that are the source material 
for standards and codes. Both of these activities require funding. In 
the case of FEMA it is a continuation of prior funding, which as I 
mentioned earlier has been eroded. In the case of NIST, the funding has 
never really been there: it was authorized in the 2004 Act, but 
inadequate funding was not appropriated.
    There is a direct analogy between preparing legislation and 
preparing technical standards: the final language inevitably reflects 
compromises necessary to gain consensus. In the case of the technical 
standards a far higher degree of agreement is needed than a simply 
majority, and the process of resolving dissent is rigorous, but there 
is dissent. In many cases the dissent exists because the depth of 
knowledge is simply inadequate. The applied research component does not 
attract the attention of the National Science Foundation, but it is no 
less necessary. The Building Seismic Safety Council has routinely 
compiled a list of research needs each time they close the preparation 
of a new edition of the NEHRP Recommended Provisions, and it is 
instructive that the same items show up time after time. These research 
needs are precisely the type identified in the report ATC 57 ``The 
Missing Piece: Improving Seismic Design and Construction Practices.''

Q3.  You noted that the American Society of Civil Engineers/Structural 
Engineering Institute 7 map for wind speed is supported by volunteer 
efforts, and consequently is not as user-friendly as similar standards 
for earthquakes. What role could the Federal Government play to address 
this problem?

A3. I have reviewed the proposed ``National Windstorm Impact Reduction 
Reauthorization Act of 2009'' (H.R. 2627) currently under consideration 
by the Congress. I believe the program described in that bill is an 
appropriate role for the Federal Government, and I further believe that 
the proposed program would make a significant improvement in the 
problems that I described with the effectiveness of our standard for 
engineering buildings and other structures to resist winds. 
Specifically there are duties assigned to NIST to ``. . . support 
research and development to improve building codes, standards and 
practices . . .'' and to cooperate with FEMA to ``. . . work closely 
with national standards and model building code organizations to 
promote the implementation of research results . . .'' that will 
directly affect the problems that I described. The basic research at 
NSF and NOAA and the cooperating research at NASA, the Department of 
Transportation, and the Army Corps of Engineers are important, and my 
emphasis on the work at NIST and FEMA is because that work is directly 
relevant to the question.
    It is important that the authorization be followed by 
appropriations of funds to carry out the new activities at the 
pertinent federal agencies.

Q4.  You testified that in terms of floods, we are more tolerant of 
failure of flood protection mechanisms than of any other type of 
hazards. You also stated that making decisions on failure-level 
tolerances should not be left to engineers alone. What should the role 
of NEHRP be in increasing the level of public involvement in these 
types of decisions?

A4. I think the role that NEHRP should play in the solution of the 
flood problem is primarily one of example. NEHRP has been a very 
successful program, in no small part because the amount and duration of 
financial support has assembled a critical mass of expertise across the 
Nation. That critical mass has made possible the significant 
improvements in our understanding of various aspects of earthquake 
phenomena and of structural response to strong ground motions. These 
improvements in understanding have led to significant changes in the 
ways we design and construct to resist the effects of earthquakes, and 
more significant improvements are relatively close at hand. To a great 
extent the expertise required for other natural hazards is different. 
The communities interested in multiple hazards--building code 
officials, engineers of various disciplines, social scientists with 
expertise in natural disasters, builders, producers of construction 
products and materials--will naturally be involved, but the scientists 
and many of the research oriented engineers do not have interests that 
span multiple hazards, and that expertise is crucial to developing the 
critical mass to make significant advances.
    I participated in a workshop last Friday (July 10) at the Technical 
University of Delft, in the Netherlands. The workshop assembled experts 
from the U.S. and the Netherlands to discuss how we each approach 
design of structures and infrastructure for various natural hazards, 
with an emphasis on flood. It is my perception that the establishment 
of design criteria for flood safety in this country has not advanced on 
a parallel with the development of criteria for earthquake, wind, snow, 
and so on. I was impressed by several aspects of the Dutch approach to 
flood safety in their country: their methodology for establishing 
protection goals is based upon very similar concepts to that used for 
other hazards, their target level of safety appears to be comparable to 
that for other natural hazards, and they routinely perform cost-benefit 
analyses to ground their decisions. It was also fascinating to hear 
them say that Katrina's effect on the U.S. was a big wake up call for 
them--not that they need to change their desired level of safety, but 
they gained a deeper realization of how complex flood protection 
systems really are and that there are many diverse ways they can fail. 
At this point some believe their protection systems need improvement to 
really deliver their professed goals.
    With respect to the involvement of the public in decisions about 
the level of safety, I don't really foresee much feasibility for 
extensive discussion in the general public realm. This is where multi-
hazard approaches do make sense to me. Technical experts in various 
fields, including economists and social scientists, need to be 
encouraged to examine safety across a broad range of hazards and risks. 
We who have technical expertise in one or two narrow fields too often 
are making decisions that really do require knowledge and input from 
broader constituencies. These decisions are typically endorsed by 
groups with those broader interests as matters progress from single-
topic standards to model building codes to the adopted laws of states 
and cities, but adjusting the safety level is rarely done at these 
later stages. When such adjustments are made, they oftentimes actually 
go in what many experts would consider to be the wrong direction and 
are usually based upon very limited cost studies. Therefore, I do 
recommend that FEMA continue to support the Multi-hazard Mitigation 
Council of the National Institute of Building Sciences, and I encourage 
the National Science Foundation to find creative ways to build social 
science roles into natural hazards research programs. And finally, I 
want to endorse the recommendation made by Tom O'Rourke at the hearing: 
commission the National Research Council of the National Academies of 
Science and Engineering to study the question of multi-hazard 
approaches to mitigation of our risk.

                                   

</pre></body></html>
